<html>
<title> - JOINT HEARING ON THE SIERRA CLUB'S PROPOSAL TO DRAIN LAKE POWELL OR REDUCE ITS WATER STORAGE CAPABILITY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  JOINT HEARING ON THE SIERRA CLUB'S PROPOSAL TO DRAIN LAKE POWELL OR 
                  REDUCE ITS WATER STORAGE CAPABILITY

=======================================================================

                             JOINT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                  and

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

              TUESDAY, SEPTEMBER 24, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-56

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-584 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                    P. Dan Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                    Valerie West, Professional Staff
                Christopher Stearns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 24, 1997..................................     1

Statements of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     6
    Chenowith, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................    14
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     5
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    15
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................    13
    Pickett, Hon. Owen B., a Representative in Congress from the 
      State of Virginia..........................................    16
    Shadegg, Hon. John, a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     9
    Stump, Hon. Bob, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................    33

Statements of witnesses:
    Bautista, Melvin F., Executive Director, Navajo Nation 
      Division of Natural Resources..............................    62
        Prepared statement of....................................   111
    Brower, David Ross, prepared statement of....................    87
        Additional material submitted for the record.............    89
    Campbell, Hon. Ben Nighthorse, a Senator in Congress from the 
      State of Colorado..........................................    10
    Elliott, Robert, America Outdoors and Arizona Raft Adventures    72
    Hacskaylo, Michael S., Acting Administrator, Western Area 
      Power Administration, Department of Energy.................    18
        Prepared statement of....................................   134
    Hatch, Hon. Orrin G., a Senator in Congresss from the State 
      of Utah, prepared statement of.............................    85
    Hunter, Joseph, Executive Director, Colorado River Energy 
      Distribution Association (CREDA)...........................    74
    Lochhead, Jim, Executive Director, Colorado Department of 
      Natural Resources..........................................    60
    Martinez, Eluid L., Commissioner, Bureau of Reclamation......    17
        Prepared statement of....................................   130
    Pearson, Rita, Director, Arizona Department of Water 
      Resources..................................................    38
        Prepared statement of....................................    93
    Stewart, Ted, Executive Director, Utah Department of Natural 
      Resources..................................................    36
        Prepared statement of....................................   141
    Tarp, Larry E., Chairman, Friends of Lake Powell.............    64
        Prepared statement of....................................   118
    Wegner, David, Ecosystem Management International............    34
        Prepared statement of....................................    76
    Werbach, Adam, President, Sierra Club........................    34
        Prepared statement of....................................   138
    Whitlock, Mark, Executive Director, FAME Renaissance.........    41
        Prepared statement of....................................   103
Additional material supplied:
    Let the River Run Through It, Sierra Magazine, March/April 
      1997.......................................................    89



  JOINT HEARING ON THE SIERRA CLUB'S PROPOSAL TO DRAIN LAKE POWELL OR 
                  REDUCE ITS WATER STORAGE CAPABILITY

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands and the Subcommittee on 
            Water and Power, Committee on Resources, 
            Washington, DC.
    The Subcommittees met, pursuant to notice, at 10 a.m. in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen [chairman of the Subcommittee on National Parks and 
Public Lands] and Hon. John Doolittle [chairman of the 
Subcommittee on Water and Power] presiding.
    Mr. Hansen. This meeting will come to order. Good morning. 
The Subcommittee on National Parks and Public Lands and the 
Subcommittee on Water and Power will come to order.
    John Doolittle of California is the Chairman of the 
Committee of Water and Power and is sitting to my right. And 
together we will conduct this hearing.
    I ask unanimous consent that all of the testimony from 
Members of Congress and Senate be allowed in the record. Is 
there objection? Hearing none, so ordered.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. We are conducting this joint oversight hearing 
to explore the proposal of draining Lake Powell as passed 
unanimously by the Sierra Club Board of Directors on November 
16, 1996. Any discussion of the issue brings some disbelief 
from some observers. However, we have with us today Mr. Adam 
Werbach, President of the Sierra Club, who is a strong 
proponent of the idea. We expected to have Mr. David Brower 
with us today, but, unfortunately, his wife is ill, and he is 
unable to attend. Our best wishes go out to the Browers and we 
hope everything is fine.
    We look forward to the testimony this morning. There will 
be many questions asked. And I hope that the witnesses can 
provide answers for the serious consequences this proposal 
would bring. There are concerns from the States of Utah, 
Wyoming, Colorado, New Mexico, Arizona, Nevada, and California. 
Millions of people could potentially be affected with water 
shortages, electric power outages, and loss of millions of 
hours of recreational enjoyment.
    There is a long history behind the development of the 
Colorado River. And the Glen Canyon Dam provides perhaps the 
most interesting history. This Nation's urge to move West 
spawned the taming of the Colorado River and turned this one 
unpredictable resource into a water energy and recreation 
source for millions of people.
    Mr. Brower played an important role in the policy to build 
Glen Canyon. I was hopeful we could hear some of that history 
today. However, Congress and the President made the policy 
decision in 1956 to build this dam. And millions of people now 
utilize the resources Glen Canyon provides.
    Today, over 2.5 million people visit Lake Powell each year. 
Prior to the filling of the lake, only a few hundred people had 
ever seen Rainbow Bridge. Now tens of thousands of people visit 
Rainbow Bridge annually, see Hole-in-the-Rock, and thousands of 
other spectacular views from Lake Powell.
    I have to admit I boat Lake Powell and have since its first 
year it was allowed and been going back ever since. I've 
witnessed a change from an isolated desert lake to one of the 
most popular national park units in the Nation. Thus, I have to 
say I am personally somewhat concerned about Lake Powell, but 
I'm also concerned about the people who enjoy its recreation, 
people who use the power it generates, and the people who need 
the water that it stores.
    Now, 40 years later, the Sierra Club proposes to turn back 
the clock and drain the lake in an attempt to restore Glen 
Canyon. This would be a complete reversal of the policy path 
this country chose many years ago.
    This hearing is designed to put all the facts on the table 
and analyze the potential impacts of such a proposal. Everyone 
is entitled to their opinion, and we respect that. And I have 
nothing but respect for the Sierra Club and their members. We 
simply want to explore fully this idea so that Congress, the 
public, and the media understand the consequences such a policy 
change would have on the Colorado River and the States that 
benefit from his resource.
    There are three agencies in the Federal Government here to 
testify this morning. Furthermore, the Executive Directors of 
Natural Resources for two States and the Navajo Nation will 
testify on the need for Glen Canyon Dam and Lake Powell for the 
well-being of the people they represent.
    And, finally, we will hear from the board an array of users 
of the power, water, and recreation this reservoir provides to 
millions of people.
    I look forward to the testimony we will receive this 
morning and to the statements and questions of my colleagues. 
Due to the numbers of Members that I think will be dribbling in 
that we will have here today, I think we will have to stay 
strictly to the 5-minute rule for opening statements, testimony 
of witnesses, and followup round of questions.
    I would, before recognizing my colleague, Mr. Doolittle of 
California, I would somewhat like to just outline how we are 
going to do this today. We would urge our colleagues to be 
brief in their opening statements, if they would be. Keep in 
mind the respect we have for everyone here in the room. And 
then I understand there is a possibility of, possibly, a couple 
of Senators coming over. We will insert them when they come 
over.
    Then, we will go to panel one, which will be Commissioner 
of the Bureau of Reclamation, Dennis Galvin of the National 
Park Service, and Mr. Hacskaylo, Acting Director of the Western 
Area Power Administration.
    On panel two, we were going to have Mr. David Brower. We 
will have on panel two Mr. Adam Werbach, the President of the 
Sierra Club; Mr. Ted Stewart, Executive Director of Utah 
Department of Natural Resources; Rita P. Pearson, Director of 
Arizona Department of Water Resources; and Mark Whitlock, 
Executive Director of FAME.
    And then we will go to panel three, Jim Lochhead, Executive 
Director of Colorado Department of Natural Resources; Melvin 
Bautista, Executive Director of the Navajo Nation Division of 
Natural Resources; Larry E. Tarp, Chairman of Friends of Lake 
Powell.
    Then we will go to panel four: Robert Elliot, Arizona Raft 
Adventures; Joseph Hunter, Executive Director, Colorado River 
Energy Distribution Association; and David Wegner, Ecosystem 
Management International.
    We may mix you up a little bit. So if that is all right 
with everyone, we will try to work this out so that it is fair 
and reasonable for all people concerned.
    Mr. Doolittle.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good Morning. The Subcommittee on National Parks and Public 
Lands and the Subcommittee on Water and Power will come to 
order.
    We are conducting this joint oversight hearing to explore 
the proposal of draining Lake Powell as passed unanimously by 
the Sierra Club Board of Directors on November 16, 1996. Any 
discussion of this issue brings disbelief from many observers, 
however, we have with us today Mr. Adam Werbach, President of 
the Sierra Club who is a strong proponent of this idea. We 
expected to have Mr. David Brower with us today but 
unfortunately his wife is ill and he is unable to attend. Our 
best wishes go out to the Brower's and we hope everything is 
fine.
    We look forward to the testimony this morning. There will 
be many questions asked, and I hope that the witnesses can 
provide sensible answers for the serious consequences this 
proposal would bring. There are concerns not only from my State 
of Utah, but Wyoming, Colorado, New Mexico, Arizona, Nevada, 
and California. Millions of people could potentially be 
affected with water shortages, electric power outages and loss 
of millions of hours of recreational enjoyment.
    There is a long history behind the development of the 
Colorado River, and the Glen Canyon Dam provides perhaps the 
most interesting history. This Nation's urge to move West 
spawned the taming of the Colorado River and turned this once 
unpredictable resource into a water, energy, and recreation 
resource for millions of people. Mr. Brower played an important 
role in the policy to build Glen Canyon dam and I was hopeful 
we could hear some of that history today. However, Congress and 
the President made the policy decision in 1956 to build this 
dam and millions of people now utilize the resources Glen 
Canyon dam provides. Today, over 2.5 million people visit Lake 
Powell each year. Prior to the filling of the lake, only a few 
hundred people had ever seen Rainbow Bridge. Now, tens of 
thousands of people visit Rainbow Bridge annually, see Hole-in-
the-Rock, and thousands of other spectacular views from Lake 
Powell. I boated on Lake Powell the first year it was allowed 
and have been going back ever since. I have witnessed the 
change from an isolated desert lake to one of the most popular 
National Park units in the Nation. Thus, I am personally very 
concerned about Lake Powell, but am also concerned about the 
people who enjoy its recreation, people who use the power it 
generates and the people who need the water it stores.
    Now, forty years later, the Sierra Club proposes to turn 
back the clock and drain the lake in an attempt to restore Glen 
Canyon. This would be a complete reversal of the policy path 
this country chose many years ago. This hearing is designed to 
put all of the facts on the table and analyze the potential 
impacts of such a proposal. Everyone is entitled to their 
opinion and I have nothing but respect for the Sierra Club and 
their members. We simply want to explore fully this idea so 
that Congress, the public and the media understand the 
consequences such a policy change would have on the Colorado 
River and the States that benefit from its resources.
    There are three agencies of the Federal Government here to 
testify this morning. Furthermore, the Executive Directors of 
Natural Resources for two states and the Navajo Nation will 
testify on the need for Glen Canyon Dam and Lake Powell for the 
well-being of the people they represent. And finally, we will 
hear from a broad array of users of the power, water, and 
recreation this reservoir provides to millions of people.
    I look forward to the testimony we will receive this 
morning and to the statements and questions of my colleagues. 
Due to the number of Members and witnesses we have here today, 
I will strictly adhere to the five minute rule for opening 
statements, testimony from witnesses, and follow-up rounds of 
questions.
    I recognize my colleague, Mr. Doolittle of California, 
Chairman of the Subcommittee on Water and Power for his opening 
remarks.

   STATEMENT OF HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Thank you. We will hear today many facts and 
figures concerning Glen Canyon Dam and Lake Powell. All are 
important as a part of the discussion. But I want to add my own 
personal sense of the importance of Lake Powell. Standing on 
the shore of the lake or gliding quietly over the surface of 
the water deep in one of the many canyons or flying over the 
majestic reach of Lake Powell, you have an opportunity to 
experience a unique natural resource. From the quiet canyons to 
secluded vistas to remote beaches, Lake Powell provides one of 
life's truly refreshing pleasures.
    I, along with tens of millions of others, have had the 
chance to experience this beauty and grandeur. It would not 
exist and could not be enjoyed if we had not had the foresight 
and courage to create this wonder. I, for one, would not 
support any step to destroy this beautiful gem that has meant 
so much to so many people.
    Beyond its scenic and recreational qualities, Lake Powell 
is a source of both clean hydropower as well as water storage. 
Draining Lake Powell would have negative environmental impacts, 
eliminate water stored for millions of people throughout the 
Southwest, and destroy the delicate balance of water rights 
between the upper and the lower Colorado River basins. It would 
eliminate a renewable power source serving businesses and 
residences all over the Western United States.
    Among all sources of electric power today, hydropower 
provides an unusual ability to enhance the reliability of our 
electric system. And the hydropower lost would be replaced by 
burning fossil fuels at a time when the Federal Government is 
looking to use our resources efficiently and to reduce our 
deficit. Draining Lake Powell would result in lost revenues 
measured in the billions of dollars.
    For decades, the water laws governing the Colorado River 
have evolved to meet the competing needs of the Western States. 
Those laws are based in the existence of Lake Powell as a major 
water storage resource. Elimination of this foundational piece 
in the interlocking water puzzle would throw the entire 
Colorado River system into chaos.
    The decision to build Glen Canyon Dam and create Lake 
Powell was made after many years of review, years when informed 
people on many sides of the debate had an opportunity to weigh 
the choices.
    When that process was finished, huge commitments of time, 
money and resources were made. History recorded a decision. 
People, States, businesses, populations all relied on that 
decision. To those who did not like that decision who wish to 
rewrite that history, we can only say there is a time when all 
of us must let go.
    Glen Canyon Dam was built. The beautiful and serene Lake 
Powell was formed. It fulfills the diverse needs of millions of 
Americans. Let us make the best use of this magnificent 
resource. It is a decision we can live with.
    [The prepared statement of Mr. Doolittle follows:]

Statement of Hon. John T. Doolittle, a Representative in Congress from 
                        the State of California

    We will hear, today, many facts and figures concerning Glen 
Canyon Dam and Lake Powell. All are an important part of the 
discussion. But I want to add my own personal sense of the 
importance of Lake Powell. Standing on the shore of the lake, 
or gliding quietly over the surface of the water deep in one of 
the many canyons, or flying over the majestic reach of Lake 
Powell you have an opportunity to experience a unique natural 
resource. From the quiet canyons, to secluded vistas, to remote 
beaches, Lake Powell provides one of life's truly refreshing 
pleasures. I, along with tens of millions, have had the chance 
to experience this beauty and grandeur. It would not exist and 
could not be enjoyed if we had not had the foresight and 
courage to create this wonder. I for one would not support any 
step to destroy this beautiful gem that has meant so much to so 
many people.
    Beyond its scenic and recreational qualities, Lake Powell 
is a source of both clean hydropower as well as water storage. 
Draining Lake Powell would have negative environmental impacts, 
eliminate water stored for millions of people throughout the 
southwest, and destroy the delicate balance of water rights 
between the upper and lower Colorado River basins. It would 
eliminate a renewable power source serving businesses and 
residences all over the western United States. Among all 
sources of electric power today, hydropower provides an unusual 
ability to enhance the reliability of our electric system. And 
the hydropower lost would be replaced by burning fossil fuels. 
At a time when the Federal Government is looking to use our 
resources efficiently and to reduce our deficit, draining Lake 
Powell would result in lost revenues measured in the billions 
of dollars.
    For decades, the water laws governing the Colorado River 
have evolved to meet the competing needs of the western states. 
Those laws are based on the existence of Lake Powell as a major 
water storage resource. Elimination of this foundational piece 
in the interlocking water puzzle would throw the entire 
Colorado River system into chaos.
    The decision to build Glen Canyon Dam and create Lake 
Powell was made after many years. Years when informed people on 
many sides of the debate had an opportunity to weigh the 
choices. When that process was finished huge commitments of 
time, money, and resources were made. History recorded the 
decision. People, states, businesses, populations all relied on 
that decision. To those who did not like that decision, who 
wish to rewrite that history we can only say there is a time 
when all of us must let go. Glen Canyon Dam was built. The 
beautiful and serene Lake Powell was formed. It fulfills the 
diverse needs of millions of Americans. Let us make the best 
use of this magnificent resource. It is a decision we can live 
with.

    Mr. Hansen. Thank you. The gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. Mr. Chairman, for the sake of time, I will not 
have an opening statement and look forward to listening to the 
witnesses.
    Mr. Hansen. Thank you. The gentleman from Utah, Mr. Cannon.

 STATEMENT OF HON. CHRIS CANNON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. As you know, my 
district contains the entire Utah portion of Lake Powell. 
Today, you will hear several witnesses testify as to the 
logical reasons for preserving the integrity of the lake.
    As the Committee will hear, Lake Powell provides 
substantial power, drinking and irrigation water, and 
protection from ravenous floods for millions of people, people 
whose lives now depend upon the lake's existence. Not to 
mention the fact that Lake Powell is incomparable in scale and 
quality to any other recreational area in America, providing 
world renowned water recreation to some 3 million people every 
year.
    Chairman, draining the lake is a ridiculous idea. I 
remember the debate before Glen Canyon Dam was built. The 
environmental effects were discussed. Frankly, I was offended 
at the idea that we would build a dam there and destroy what I 
think was a wonderful area, even though I was quite young at 
the time. The damage to the canyon was acknowledged at that 
time. The decision to go forward was made. It is too late to 
change that now simply because some have grown sentimental for 
Glen Canyon.
    What existed then could never be restored. To suggest 
otherwise is silly. I dare say this could be the silliest 
proposal discussed in the 105th Congress.
    Mr. Chairman, I have seen environmental proposals in my 
district that can only be described as dumb, some monumentally 
dumb. But now, Mr. Chairman, we have dumb and dumber. In that 
spirit, I would like to introduce my top 10 environmental ideas 
that might be even dumber than draining Lake Powell.
    Number 10, remove the Statute of Liberty and reclaim 
Liberty Island. Number 9, return New Orleans and Southern 
Louisiana to its natural wetlands state. Number 8, dismantle 
all white houses cluttering our Nation's shorelines. Number 7, 
return Mount Rushmore to its pristine state. Number 6, repack 
Manhattan's linking tunnel. Number 5, remove the Golden Gate 
Bridge from the San Francisco Bay. Number 4, rip up the 
interstate highways that litter our landscape. Number 3, fill 
in Lake Erie Canal. Number 2, return Washington to its original 
and swampy wetlands, a proposal that might well be received 
around the country. And Number 1, designate a 1.7-million-acre 
national monument in Southern Utah without any hearings. Thank 
you.
    Mr. Hansen. I caution the gentleman here that everyone's 
entitled to their viewpoint, and we'll treat everybody with 
respect.
    The gentleman from Arizona.

 STATEMENT OF HON. JOHN SHADEGG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Shadegg. Thank you, Mr. Chairman. Let me first say that 
I have grave reservations about this hearing. I did not hear, 
nor did my staff learn of this hearing until a little over a 
week ago. And I did not have a chance to invite witnesses until 
all of the witnesses from Arizona had been invited. I was not 
afforded that opportunity until last Thursday.
    So I have grave concern that those of us who are in 
opposition to this idea have not had sufficient time to prepare 
and, with that, may at some point want to request a future 
hearing. But with that, let me give you my opening statement.
    We will hear testimony today about how some people think it 
would be wonderful to turn back the clock. And, indeed, 
sometimes, we would perhaps all like to do so. At times, we all 
wish we could do things differently in retrospect. But it 
cannot happen. Time moves in only one direction.
    The wishful thinking and the ill-conceived proposal which 
brings us here today calls to mind the lines from Edward 
Fitzgerald's ``Rubiyat of Omar Khayyam:'' ``The moving finger 
writes; and having writ, moves on: Nor all your piety nor wit 
shall lure it back to cancel half a line, nor all your tears 
wash out a word of it.''
    Time moves in one direction, and that is how God intended 
it. In this life, each of us is called to look forward, not 
backward.
    We will hear testimony today claiming that one of God's 
creation has been destroyed by man and one of man's creations. 
No one here is so arrogant as to say that man's works can 
replace those of God. But I am here to stand foursquare in 
favor of Lake Powell and Glen Canyon Dam as beautiful and 
functional works, albeit man-made. Let us not forget as we 
consider this issue that man is one of God's creations and that 
man's creations often honor his God.
    Ultimately, why is this issue before us? It is certainly 
within the purview of Congress to right wrongs. And there will 
be testimony claiming that the dam and the lake are wrong. The 
Sierra Club President has called the dam a horrible mistake of 
humanity and an arrogant symbol of technology. Though, in my 
mind, technology has raised humanity to extraordinary heights.
    There also will be testimony as to how right the dam and 
lake are, from solving water and power needs in seven Western 
States, to the beauty and recreational opportunities afforded 
to all citizens. I can assure you firsthand they are a wonder. 
I have spent more than two dozen nights on Lake Powell and 
explored every canyon from Wahweap to Bullfrog.
    One man who will testify here takes credit for raising the 
issue to national prominence. He has said that he virtually 
alone is responsible for Glen Canyon Dam and that he has 
suffered 40 years of guilt over it.
    One organization, the Sierra Club, has acknowledged that it 
is suffering from decline in younger membership and believe 
this is the kind of high profile litmus test issue that will 
boost its youthful membership.
    Another man, who will not testify here today, but who has 
founded an institute to study the issue and provide reliable 
data says, and I quote, ``At its heart, this is a religious 
issue.''
    We will hear testimony from others which will provide hard 
facts and scientific data upon which we may draw valid 
conclusions. But I submit to you, Mr. Chairman, this issue is 
before us for the most spurious of reasons. This issue is 
driven by ego, sentimentality, guilt, and a desire for profit. 
That is hardly a good basis on which to build public policy.
    I am hopeful that a meaningful discussion of issues 
regarding dam safety, long-term siltation studies, the future 
of remediation and mitigation will be raised and discussed 
here. But I state as unequivocally as I possibly can, Lake 
Powell should not be drained. It is an ill-conceived proposal 
that appears to be advanced for personal and institutional 
gain, and I will oppose it with every ounce of energy I have.
    Even a Utah Chapter of the Sierra Club, arguably the 
chapter most affected by this plan, acknowledge that time has 
rendered the issue moot. Ann Wechshler, leader of the Utah 
Chapter said, and I quote, ``We were not consulted. We do not 
support the draining.''
    Current habitats both above and below the dam are stable, 
thriving and providing for the rebound of such endangered 
species as the peregrine falcon and bald eagle. Lees's Ferry in 
my State is home to a world class trout fishery.
    Flow controls from the dam in last year's simulated flood 
has shown the Grand Canyon can be maintained as a thriving 
ecosystem. The amount and variety of wildlife supported by Lake 
Powell has been cataloged and studied to ensure its success. 
Were the lake to be drained, all that would be lost. The lack 
of scouring floods through the Grand Canyon has allowed a rich 
variety of plant and animal life to make a home there. It is 
true that the habitats have changed, but that does not make 
them worse. And by most accounts, they are better.
    There are many problems that must be resolved in this 
debate. For instance, the sediment contained in Lake Powell 
likely contains toxic concentrations of heavy metals and 
uranium that could destroy the Grand Canyon as well as Lake 
Mead if we were to drain Lake Powell as proposed.
    Of greater concern than that, however, is the silt not 
carried away in the water, but which dries out and becomes 
airborne in many violent storms within the region. As many as 
12 times a year, the dry Owens Lake in California is whipped by 
winds that cut visibility to zero and put 25 times the EPA 
maximum amount of particulates into the air.
    Do we drain Lake Powell only to visually obscure the Grand 
Canyon and other surrounding national parks? Do we drain Lake 
Powell only to expose hundreds of thousands of citizens to 
toxic dust?
    Proponents attempt to counter the enormous economic loss 
that draining Lake Powell would cause, from lost power 
generation, water storage, tourism, and more, by stating that 
one million acre feet of water evaporate from the lake each 
year. What they don't say is that those million acre feet are 
the result of storage, not wasted flows.
    The Colorado is already fully used, fully apportioned. 
Eliminating the dam will not cause one more gallon of water to 
flow. It will simply cause water hardships in dry years and 
water waste in wet years.
    The total loss by evaporation which they claim, if the 
figures are even accurate, is a mere 4 percent of Lake Powell's 
capacity. And of course, water lost to evaporation is not lost 
at all. Even school children know it rises to form clouds and 
fall as rain somewhere else.
    Mr. Chairman, we are a Nation built on the principle that 
to look forward is to grow and to thrive. To dwell in the past 
is to wither and die. Not all change is perfect and good and 
true, but change is inevitable. And to learn from our mistakes 
is noble and right. To turn our backs on progress for the sake 
of sentimental wishing is suicide, indeed.
    The Sierra Club's board of directors, without consulting 
its membership, has embraced an irresponsible proposal that is 
not only economically disastrous, but environmentally 
dangerous. I thank you, Mr. Chairman.
    [The prepared statement of Mr. Shadegg follows:]
 Statement of Hon. John B. Shadegg, a Representative in Congress from 
                          the State of Arizona
    Mr. Chairman,
    We will hear testimony today about how some people think it would 
be wonderful to turn back the clock . . . and indeed sometimes we would 
perhaps all like to do so. At times we all wish we could do things 
differently, in retrospect.
    But it cannot happen. Time moves in only one direction.
    The wishful thinking and the ill-conceived proposal which brings us 
here today calls to mind the lines from Edward Fitzgerald's ``Rubiyat 
of Omar Khayyam'':

        The Moving Finger writes; and having writ,
        Moves on: nor all your Piety nor Wit
        Shall lure it hack to cancel half a Line,
        Nor all your Tears wash out a Word of it.
    Time does move in one direction and that is how God intended it. In 
this life each of us is called to look forward and not backward.
    We will hear testimony today claiming that one of God's creations 
has been despoiled by man and one of man's creations. No one here is so 
arrogant as to say that man's works can replace those of his God. But I 
am here to stand foresquare in favor of Lake Powell and Glen Canyon Dam 
as beautiful and functional works, albeit man-made.
    Let us not forget, as we consider this issue, that man is one of 
God's creations and that man's creations often honor his God.
    Ultimately, why is this issue before us? It is certainly within the 
purview of Congress to right wrongs, and there will be testimony 
claiming that the dam and the lake are wrong. The Sierra Club President 
has called the dam a ``horrible mistake of humanity'' and ``an arrogant 
symbol of technology,'' though, in my mind, technology has raised 
humanity to extraordinary heights. There will also be testimony as to 
how right the dam and the lake are. From solving water and power needs 
in seven western states to the beauty and recreational opportunities 
afforded to all citizens, I can assure you, first-hand, they are a 
wonder. I have spent more than two dozen nights on Lake Powell and 
explored every canyon from Wahweap to Bullfrog.
        <bullet> One man, who will testify here, takes credit for 
        raising this issue to national prominence. He has said that he, 
        virtually alone, is responsible for Glen Canyon Dam and that he 
        has suffered 40 years of guilt over it.
        <bullet> One organization, the Sierra Club, suffering from a 
        decline in younger membership believes this is the kind of 
        high-profile ``litmus test'' issue that will boost its youthful 
        membership.
        <bullet> Another man, who will testify here, founds an 
        institute to ``study'' the issue and provide reliable data, yet 
        says: ``At its heart, this is a religious issue.''
    We will hear testimony from others that will provide hard facts and 
scientific data upon which we may draw valid conclusions, but I submit 
to you, Mr. Chairman, that this issue is before us for the most 
spurious of reasons. This issue is driven by ego, sentimentality and 
guilt. That's hardly a good basis on which to build public policy.
    I am hopeful that a meaningful discussion of issues regarding dam 
safety, long-term siltation studies, and future remediation and 
mitigation will be raised and discussed here. But, and I state this as 
unequivocally as I possibly can: Lake Powell should not be drained. It 
is an ill-conceived proposal that appears to be advanced for personal 
and institutional gain and I will oppose it with every ounce of energy 
I have.
    Even the Utah Chapter of the Sierra Club--arguably the Chapter most 
affected by this plan--acknowledges that time has rendered this a moot 
issue. Ann Wechshler, leader of the Utah Chapter, said: ``We were not 
consulted. We don't support the draining.''
    Current habitats, both above and below the dam, are stable, 
thriving and providing for the rebound of such endangered species as 
the peregrine falcon and bald eagle. Lee's Ferry is home to a world-
class trout fishery. Flow controls from the dam and last year's 
simulated flood have shown that the Grand Canyon can be maintained as a 
thriving ecosystem. The amount and variety of wildlife supported by 
Lake Powell has been cataloged and studied to ensure its success. Were 
the lake to be drained, all that would be lost. The lack of scouring 
floods through Grand Canyon has allowed a rich variety of plant and 
animal life to make a home there. It is true that the habitats have 
changed, but that does not make them worse. And by most accounts, they 
are better.
    There are many problems that must be resolved in this debate. For 
instance, the sediment contained in Lake Powell likely contains toxic 
concentrations of heavy metals and uranium that could destroy the Grand 
Canyon as well as Lake Mead if we were to drain Lake Powell as 
proposed. Of greater concern than that, however, is the silt that is 
not carried away, but which dries out and becomes airborne in the many 
violent storms within this region. As many as 12 times a year, the dry 
Owens Lake in California is whipped by winds that cut visibility to 
zero and put 25 times the EPA maximum amount of particulates into the 
air. Do we drain Lake Powell only to visually obscure the Grand Canyon 
and other surrounding National Parks? Do we drain Lake Powell only to 
expose hundreds of thousands of citizens to toxic dust?
    Proponents attempt to counter the enormous economic loss that 
draining Lake Powell would cause, from lost power generation, water 
storage, tourism and more, by stating that one million acre feet of 
water evaporate from the lake each year. What they don't say is that 
those million acre feet are the result of storage, not wasted flows.
    The Colorado is already fully used, fully apportioned. Eliminating 
the dam will not cause one more gallon of water to flow. It will simply 
cause water hardships in dry years and water waste in wet years. And, 
of course, water lost to evaporation is not ``lost'' at all. Even 
school children know that it rises to form clouds and falls as rain 
elsewhere.
    Mr. Chairman, we are a nation built on the principle that to look 
forward is to grow and thrive; to dwell in the past is to wither and 
die. Not all change is perfect, good and true; but change is inevitable 
and to learn from our mistakes is noble and right. To turn our backs on 
progress for the sake of sentimental wishing is suicide, indeed. The 
Sierra Club's board of directors, without consulting its membership has 
embraced an irresponsible proposal that is not only economically 
disastrous but is environmentally dangerous.

    Mr. Hansen. I thank the gentleman from Arizona. I am always 
embarrassed to see you folks standing over there. We won't be 
using this lower tier. You are welcome to come up and sit here, 
if you would like. And I instruct the clerk to pick up these 
packets, if they would. If you folks would like to come up and 
sit down. I would hate to see you stand through this. It is 
going to be a long hearing. If you plan to stay the entire 
hearing, you are going to pass out; I hope not from boredom.
    Senator Campbell, it is a pleasure to have you, sir. We 
will take Senator Campbell and then go to Congressman Hefley, 
Congresswoman Helen Chenowith and Congressman Jim Gibbons in 
that order.
    I ask unanimous consent that the testimony of Senator 
Campbell be included in the record. Without objection, so 
ordered.
    [The information referred to follows:]
    Mr. Hansen. Senator Campbell, it is always a pleasure to 
see you. I hope that a lot of you folks realize it wasn't too 
many years ago that Senator Campbell was sitting here with us 
in this room. I will turn the time to you, sir.

    STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, A SENATOR IN 
              CONGRESS FROM THE STATE OF COLORADO

    Senator Campbell. Thank you, Mr. Chairman. And I remember 
those days very well in which we fought many a battle that is 
fought in the so-called debate over the new West versus the old 
West. And I certainly thank you for holding this very important 
hearing and allowing me the opportunity to make a brief comment 
on the Sierra Club's proposal to drain Lake Powell.
    We are in a series of votes over on the Senate side now, so 
I won't stay long. But I did talk to several other Western 
Senators before I came over to kind of get their ideas about 
how they felt. And I'm sure you can imagine how many of them 
felt.
    You, I am sure, are going to have many witnesses today, who 
will have much more expertise and knowledge from a technical 
standpoint than I have when they speak about this water 
project. Some of them will be able to tell you how many cubic 
feet of water is stored, how much goes to different States and 
how important it is to a great many Western people.
    Some will be able to tell you specifically how many 
kilowatts of power are generated every day and the demand on 
power in the Los Angeles basin and the other places where it 
supplys. And certainly we all know that it has provided a 
reasonable quality of life for the people that get that rather 
inexpensive power.
    Well, I am certainly not here to try to speak from a 
technical standpoint. But I am here, I think, to voice the 
opinions of millions of westerners, some who sit on this 
Committee, in proclaiming it to be a certifiable nut idea.
    It is true that Lake Powell, when it was built, forever 
changed an incredibly beautiful place. But so did building New 
York City on Long Island. And we simply can't go back in time 
and undo all of the projects that have been built.
    Now, in fact, I think it would just plain be silly to even 
contemplate it, but I don't mean that to disparage the remarks 
that may come later in favor of it. It is just my personal 
opinion.
    When I first heard about it, in fact, I thought it was a 
joke, as many westerners did when we read it in the paper. But 
then, on the other hand, after I realized the Sierra Club was 
supporting it, I knew they were serious because I know that it 
was no joke when they reduced the timber industry's ability to 
harvest resources. And, in fact, in the name of environmental 
purism, they have made great strides in reducing most of our 
land-based industries while making us more dependent on foreign 
resources, particularly energy.
    And if there is anybody on that panel that doesn't know 
what that war in Kuwait was about, let me enlighten them. It 
was about energy. There is no question about it.
    There are just too many good reasons to keep that lake and 
not enough to destroy it. The Glen Canyon Lake has produced 
tens of thousands of jobs, first of all, not only in 
construction, but in the current maintenance of it, too, and 
the recreational services it provides in energy and water-
related activities.
    It has also produced a great deal of clean energy. To my 
understanding, the Sierra Club is very concerned about global 
warming. It factors no contribution, to my knowledge, of global 
warming, and no air pollution, either one, as there is coming 
from the eastern coal-fired plants or the Northern coal-fired 
plants. Therefore, it reduces demand for strip money to get the 
coal, which they also claim they dislike.
    Now, I haven't seen a nuclear project that produces power 
that they support. I haven't seen a coal-fired project that 
they support. And there is no question in my mind that, if we 
did something as crazy as this sounds to me, the cost of power 
would skyrocket.
    It also provides an awful lot of water for all of our folks 
that live out in our area. I come from the Four Corners area, 
as you know, Mr. Chairman. And you also know coming from our 
neighboring State of Utah in the West, we store 85 to 90 
percent of our yearly water needs, unlike here in the East 
where it rains so much that they only have to store about 15 
percent of the water needs.
    But your State, mine, as well as Arizona, Nevada, and 
Southern California simply won't have available options if we 
cutoff both the power and the water, or reduce both the power 
and water, except one, and that is they will be moving to your 
State and mine.
    So we end up, I think, if we follow the Sierra Club's line 
of thinking to tear down that dam and drain the lake, we would 
put another set of circumstances in place that is going to make 
it difficult when you have a huge inward migration into the 
mountain States, which currently does have a lot of water.
    I live down near the cliff dwellings, as you know, Mr. 
Chairman, Mesa Verde it's called. And most historians will tell 
you that the reason they moved down river a thousand years ago 
wasn't from massive social upheaval. It was simply because they 
droughted out. They had no way of storing water when they went 
through years of drought, and they had to leave.
    The Sierra Club also, I think, betrays a basic underlying 
elitism. It wants to drain Lake Powell so the spectacular Glen 
Canyon is once again accessible, as I understand it. But who 
would it be accessible to, a few thousand hikers that can go in 
there. Certainly they wouldn't support wheelchairs going in 
there. They never have for our wilderness areas. And it would 
certainly cutoff the elderly, the people that can visit it by 
boat, the thousands of recreational tourists that go there now.
    I think also the consequences of the Grand Canyon also need 
to be measured. Without flood control provided by the dam, the 
Grand Canyon would be subject to dangerous torrential flash 
floods much of the year. Year-round rafting and hiking would 
simply be out of the question. Access to the canyon would be 
reduced. And the risks associated with flooding would also be 
increased. And only the wealthiest of Americans would be able 
to appreciate that area.
    As you know, there are many tragedies in those canyons and 
during flood season. In fact, just recently, several hikers 
were killed in a flash flood. Imagine what the Colorado would 
do to all communities downstream during raging spring floods 
that have been built since the canyon was damned and the flood 
waters have been controlled. To simply tear that down and 
release torrential floods of water downstream to small 
communities all the way down to the ocean, I think, is 
absolutely nonsense.
    I also would like to just say in closing, Mr. Chairman, 
that, if this were to go forward, and I have a hunch it is 
going nowhere, but if it were to go forward, what would be the 
next project? Would it be Hoover Dam or any of the dams in the 
West, all the dams in the West? Would we then talk about maybe 
returning the Utah project and the Arizona project back to its 
former natural environment? Would we talk about tearing down 
Hetch Hetchy, there was kind of a joke made about that a few 
years ago, which supplies water and power to the city of San 
Francisco.
    This project, when people hear all the testimony for and 
against, I would hope that they will realize it is something 
absolutely ridiculous to contemplate. With that, I thank you, 
Mr. Chairman.
    Mr. Hansen. Thank you, Senator Campbell. It is always a 
pleasure to see you. And I appreciate you coming over. We are 
going to be quite busy this morning. So instead of giving 
questions to Senator Campbell, you are welcome to join us if 
you are so inclined. I know you are very busy.
    Senator Campbell. I appreciate it, Mr. Chairman. We are on 
the floor, too. Thank you.
    Mr. Hansen. The gentleman from Colorado, Mr. Hefley.
    Senator Campbell. May I also just maybe mention one thing? 
I have on our side, I have asked Senator Murkowski of the full 
Committee on Energy if he would hold similar hearings to this, 
too. So we are not trying to simply lock people out on the 
Senate side. Those westerners who--we believe debate is 
healthy. But we want you to know that we have asked Senator 
Murkowski to hold a hearing.
    Mr. Hansen. I may add to what you just said. If this idea 
goes forward with some of our Members of Congress, as I have 
told the Congressman from Arizona, we truly intend to hold 
additional meetings and hearings, possibly out in the West. The 
gentleman from--did you want to have him yield to you?
    Mr. Shadegg. If he would yield for just a moment.
    Mr. Hefley. Surely.
    Mr. Shadegg. Mr. Chairman, I simply want to thank Senator 
Campbell. I reached out to him this weekend to assure that he 
would be here. I think his testimony adds greatly to this 
hearing, and I want to express my personal appreciation for his 
attendance. I yield back.
    Mr. Hefley. Mr. Chairman, I believe Mrs. Chenowith was here 
before I was.
    Mr. Hansen. If I made that mistake, I surely apologize to 
both of you.
    Mrs. Chenowith. Mr. Chairman, I would be happy to yield to 
seniority. Thank you.
    Mr. Hansen. I apologize. I was just going by my sheet here. 
And we had you down. I want you all to see this, because I 
don't want to do that purposely.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Mr. Chairman, I don't have a prepared 
statement. I would like to just say a few things. I guess I am 
surprised that the Committee is taking time with a nutty idea 
like this. I don't know anyone that really takes it seriously. 
I suppose we will hear some testimony today from some folks 
that do. But it kind of ranks in my mind with the idea that 
came out a few years ago of taking the whole plains of the West 
and Midwest and turning them back into a buffalo preserve, 
because that is what they were originally, and move people out 
of those areas. And that would be many, many States. Maybe we 
will have hearings on that as well. It is kind of a similar 
idea.
    I don't need to educate you, Mr. Chairman, on Western 
water, because you are the expert on it. I think Senator 
Campbell and others have pointed that out. Our water comes in 
the form of snow in the wintertime. And if we don't capture 
that water and store it for use throughout the year out there 
in the West, we just simply don't have water. And maybe it 
becomes a buffalo preserve. Maybe we do move everybody off the 
land, because there is simply no water there for us to live on 
or to support the populations that are out there.
    Now, it might have been--might have been nice if we could 
have had a Garden of Eden type setting in the world and that 
man didn't disturb that setting, but when you have populations 
that we do, you do make changes. And we do have technology. And 
just like I think that canyon is God-given, I think our ability 
to use technology is God-given as well. And I think we have 
used it rather well with Lake Powell.
    I am a little surprised, I guess, at the Sierra Club. I 
don't know if they realize what this does to their credibility. 
Because there are--I would hope all of us consider ourselves 
environmentalists, but there are responsible environmental 
groups, and there is the nutty fringe of environmental groups. 
There is the fringe that always has to buildup straw men to 
fight against in order to get their donations so they can stay 
in business. I never thought of the Sierra Club as being in the 
nutty fringe. But with this idea, I begin to wonder, Mr. 
Chairman.
    And I guess it is OK for us to have these hearings and to 
hear the viewpoints. I would hope this idea goes absolutely 
nowhere. And I hope this Committee would not spend its time on 
these kinds of craziness in the future, because this is 
something that is not going to happen. We are not going to 
drain Lake Powell. And we can discuss it. You can raise money 
with it. But we are not going to do it. It simply isn't going 
to happen, because the West cannot afford that kind of 
activity. Thank you, Mr. Chairman.
    Mr. Hansen. As the Senator, my friend from Colorado, said, 
beauty is in the eye of the beholder.
    Mrs. Chenowith.

STATEMENT OF HON. HELEN CHENOWITH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO+

    Mrs. Chenowith. Thank you, Mr. Chairman. You know, 
sometimes those of us who work in this body find the most 
audacious and arrogant ideas coming in front of us; but I will 
tell you, this one takes the cake. The fact that we would even 
start with the hearing on draining Lake Powell and then move on 
into other areas that have impoundment facilities and working 
activity on our rivers, which has been historic from the 
beginning of the founding of this country, to even start 
pulling the plug on America's commerce with these kinds of 
visions is unthinkable.
    However, when groups like the Sierra Club, who, by the way, 
has become very powerful in the U.S. Congress, very, very 
powerful, and I am going to begin to make an appeal, Mr. 
Chairman, to those corporate entities who support these ideas, 
and appeal to them to look to America first, because what is 
happening with the beginning of the pulling of the plug at Lake 
Powell, there is also, right next to that, the pulling of the 
plug of several dams on the Colombia River which--and the Snake 
River which affect my district very, very directly.
    Yes, this is audacious, arrogant, and very self-centered on 
the part of an organization who wants to make sure that they 
have an issue that takes on national proportions that will help 
them with their fund-raising capabilities.
    Lake Powell was built around 1922, and it contains $.2 
billion worth or stimulates $.2 billion worth of agriculture 
industry stretching across seven States.
    It produces a thousand megawatts, utilized by 20 million 
residents in California, Arizona, and Nevada. And it is worth 
$800 million industry annually.
    The Navajo project, as part of the Glen Canyon system, 
provides power for 3 million customers and employs 2,000 
people. For recreation, the Glen Canyon National Recreation 
area has almost 3 million visitors annually, which brings in 
$500 million annually to the regions of 42,000 people who also 
annually float the river below Glen Canyon. Thirty thousand 
anglers enjoy the blue ribbon trout fishery.
    And one of the most important items, Mr. Chairman, is that 
Glen Canyon Dam was built also for the purpose of flood control 
on a river that experiences runoff flows up to 400,000 cubic 
feet per second. That can be very devastating.
    We have already dealt with the environmental issues. But I 
would ask these members who are making these proposals who--and 
this type of proposal will devastate the income ability of 
thousands and hundreds of thousands of people, take away their 
life-style, and change the face of the commercial activity and 
the environment drastically. What is going to happen to your 
healthy wages? What is going to happen to your steady 
employment, those members of the Sierra Club who are dreaming 
up these ideas?
    Unfortunately, their vision is not--we don't really count 
in their vision. I am not sure what their vision is, but I 
don't believe that it is healthy for America. Thank you, Mr. 
Chairman.
    Mr. Hansen. Thank you.
    The gentlelady from the Virgin Islands.
    Ms. Christian-Green. No questions or comments, Mr. 
Chairman. Thank you.
    Mr. Hansen. Thank you. The gentleman from Nevada, Mr. 
Gibbons.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. And I first want to 
applaud you for your interest and your effort here today to 
hold this hearing and your leadership on this issue.
    It seems that, seldom in the history of Congress, indeed 
perhaps even seldom in the history of mankind, do we have an 
opportunity to hear extreme proposals like this one. And, in 
fact, this is an extremely bad proposal.
    This Nation, years ago, went through considerable or great 
lengths and a considerable amount of money to construct the 
Glen Canyon Dam and for good reasons. But this proposal to 
drain Lake Powell fails even in the very simplest of terms to 
understand that the issues that Lake Powell provide for the 
humanity in Southwestern United States is at stake with this 
extreme proposal.
    Lake Powell is an issue of storage. And it was constructed 
for the issue of storage. Storage, which includes municipal and 
agricultural uses, maybe not directly from Lake Powell, but for 
downstream users. Millions of people reside in Nevada, Arizona, 
California, and Utah.
    Sensitive ecosystems along the banks and riverways of the 
Colorado River will be at stake and at risk without the storage 
and the flood prevention and flood control efforts of the Lake 
Powell Dam.
    This is just totally unacceptable to have a group propose 
such an extreme position without taking into consideration the 
needs of both the environment and humanity along the way. And I 
am not even speaking yet of the resource of recreation that is 
provided to millions of Americans every year.
    Mr. Chairman, this proposal, at first glance, seems to be 
so far out on a limb that it should not even be considered as 
part of our hearing today. But, indeed, it runs the risk that, 
if we fail to address this issue, we have failed to do our job 
in terms of the future of America. And I thank you for your 
leadership on this issue.
    Mr. Hansen. I thank the gentleman from Nevada.
    The gentleman from Virginia, Mr. Pickett.

STATEMENT OF HON. OWEN B. PICKETT, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Pickett. Thank you, Mr. Chairman. And while this 
project is considerably removed from my district, I share the 
sentiments that have been expressed here today about the need 
to preserve it.
    I say it is impossible today and in the future to build any 
kind of major infrastructure project in our country. And to 
come here and talk about beginning to dismantle the ones that 
our forbearers had the good sense and vision to create is 
absolute nonsense. And I just hope that you will conduct this 
hearing with that in mind. Thank you.
    Mr. Hansen. Thank you. I previously read the number of 
witnesses that were here. And I am sure you heard your name. It 
is the policy of the Chairman of the full Committee to swear in 
people on oversight hearings, so why don't, instead of doing 
that one panel at a time, could I ask you all to stand, and we 
will just do this right now.
    [Witnesses sworn.]
    Mr. Hansen. Our first panel is Eluid L. Martinez, 
Commissioner of Bureau of Reclamation, accompanied by Dennis 
Galvin of the National Park Service and Mr. Michael Hacskaylo, 
Acting Administrator, Western Area Power Administration, 
Department of Energy.
    We are grateful for all you folks being here. As has been 
evident by the opening statements, there is some diversity of 
thought on this particular issue. But keep in mind, there is on 
about every issue that comes around here. So that is the way we 
do our business.
    Again, before you start, let me point out that, if you 
folks standing--we have still got some chairs up here in the 
lower tier if you would like to use them. You are more than 
free to do it. We just won't let you talk is all.
    OK. We will start with Mr. Martinez. And we are grateful 
for you being here.
    Mr. Martinez. Thank you.
    Mr. Hansen. Let me point out, Mr. Martinez is accompanied 
by Charles Calhoon, Regional Director of Upper Colorado, 
Regional Director of the Bureau of Reclamation. Mr. Calhoon, we 
appreciate you being here.
    Mr. Martinez, the floor is yours. Let me ask you, can 
everybody do it in 5 minutes? That is kind of our rules. And if 
you have just got a burning desire to go over, I am not going 
to stop you. But if you watch the little things in front of you 
there, it is just like a traffic light, you know, when you 
drive your car. Just do the same thing. Mr. Martinez.

    STATEMENT OF ELUID L. MARTINEZ, COMMISSIONER, BUREAU OF 
                          RECLAMATION

    Mr. Martinez. Mr. Chairman, Members of the Subcommittee, 
thank you for the invitation to be here today in this oversight 
hearing. I have submitted my written statement for the record. 
And if appropriate, I would like to summarize that statement.
    Mr. Chairman, the Department of Interior is committed to a 
management process at Glen Canyon Dam that implements the 1996 
record of decision, which resulted from the environmental 
impact statement on the operation of Glen Canyon Dam developed 
pursuant to the Grand Canyon Protection Act of 1992. I might 
state that the level of public participation and development of 
that document was unprecedented.
    Two weeks ago today, the adapted management group, which is 
a Federal advisory committee to the Department concerning 
management and scientific applications in the Grand Canyon, 
began its work. The management group includes a full spectrum 
of public interest, including the seven basin States, tribal 
governments, and the Federal agencies.
    The Glen Canyon National Recreation area was established by 
Congress in 1972 to encompass Lake Powell and surrounding 
lands, encompassing some 1.2 million acres that was established 
to provide for public outdoor recreation use and to preserve 
State, scientific, and historic features of the area.
    Information provided by the National Park Service estimates 
that, this past year, the recreation area drew 2.5 million 
visitors and that the annual recreational economic value of 
Lake Powell exceeds $400 million.
    The city of Page and much of northern Arizona and southern 
Utah are dependent in some way on the recreation area for 
economic well-being. Lake Powell and Glen Canyon Dam are key 
units in the water infrastructure that has evolved in the seven 
basin States.
    Mr. Chairman, recognizing the numerous interrelated 
factors, laws, and histories concerning Glen Canyon Dam, the 
law of the Colorado River, and the 1922 Colorado River Compact, 
draining or reducing the storage capacity of Lake Powell is 
unrealistic.
    Acting Deputy Director, Mr. Denis Galvin from the National 
Park Service and Reclamation Lower Colorado Regional Director, 
Mr. Charles Calhoon, are here with me to assist me in answering 
any questions you might have. And I took 2 minutes, Mr. 
Chairman.
    [The prepared statement of Mr. Martinez may be found at end 
of hearing.]
    Mr. Hansen. Well, Mr. Martinez, you just set a record in 
here. And I want you to know how much I appreciate that.
    Denis, you've been before us many times. It is always good 
to see you. Does the National Park Service have a statement?
    Mr. Galvin. No. Our perspectives in the opening statement 
are incorporated into Mr. Martinez's statement, Mr. Chairman. I 
am simply here to answer questions if the Subcommittee has 
them.
    Mr. Hansen. I appreciate that. Mr. Hacskaylo, I turn the 
time to you, sir.

   STATEMENT OF MICHAEL S. HACSKAYLO, ACTING ADMINISTRATOR, 
    WESTERN AREA POWER ADMINISTRATION, DEPARTMENT OF ENERGY

    Mr. Hacskaylo. Good morning, Mr. Chairman and members of 
the Subcommittees. My name is Michael Hacskaylo. I'm Acting 
Administrator, Western Area Power Administration. And I 
appreciate the opportunity to appear before you today to 
discuss the power-related impacts of draining Lake Powell. I 
have submitted a written statement for the record. If I may, I 
will summarize my comments.
    The power plant at----
    Mr. Hansen. Hold that mike just a little closer to you, 
please, sir. We would appreciate it.
    Mr. Hacskaylo. Yes, sir. The power plant at Glen Canyon Dam 
has a maximum operating capability of 1,356 megawatts. That is 
approximately 75 percent of the total electric capacity of the 
Colorado River Storage Project.
    Western Area Power Administration markets that power to 
over 100 municipalities, rural electric cooperatives, 
irrigation districts, and Federal and State agencies in the 
States of Utah, Colorado, New Mexico, Arizona, Nevada, and 
Wyoming.
    In fiscal year 1996, of the $126 million of total power 
revenues from the Colorado River Storage Project, Rio Grande 
Project and Collbran Project (known collectively as the Salt 
Lake City Area Integrated Projects) we have received about $93 
million of that amount from sales of Glen Canyon Dam power. If 
the Glen Canyon power plant is no longer available, it is 
highly likely that the capacity that is lost would be replaced 
by fossil-fired power plants. Certainly, conservation might 
help in reducing some of that lost capacity, but additional 
fossil-fired generation capacity would need to be utilized, we 
believe.
    If the Glen Canyon power plant is no longer available, 
there would be adverse financial impacts on our power 
customers. There would be rate increases, we believe, because 
of the replacement of the Glen Canyon Dam power with what we 
expect would be higher cost power. Those rate impacts would 
vary considerably depending on how much power our customers buy 
from Western Area Power Administration and the cost of 
replacement power.
    There also would be impacts to the Federal Treasury if the 
power plant is no longer available. Through fiscal year 1996, 
power revenues have repaid $537 million of the cost allocated 
to power for the Colorado River Storage Project.
    Right now, we have $503 million left to repay. In addition, 
there is $801 million of cost allocated to irrigation. Without 
revenues from the power plant, we would have a very, very 
difficult time in ensuring repayment.
    In closing, we estimate that over the next 50 years, if the 
power plant is not available, if we are not able to sell that 
power, there would be a loss of $1.3 billion from power 
revenues not collected, not available to the Federal Treasury.
    That is the end of my summarized statement. I would be 
happy to answer any questions.
    [The prepared statement of Mr. Hacskaylo may be found at 
end of hearing.]
    Mr. Hansen. Thank you, Mr. Hacskaylo. We appreciate the 
statement. This is a very brief panel here.
    Mr. Doolittle, questions for the panel. We will limit the 
Members to 5 minutes in their questioning.
    Mr. Doolittle. Were you passing over your----
    Mr. Hansen. No, I was going to be the clean-up batter here.
    Mr. Doolittle. That is fine. Thank you, Mr. Chairman.
    Commissioner, are you aware of any instance where a dam has 
been torn down by the government or authorized to be torn down? 
Isn't there such a dam in the State of Washington?
    Mr. Martinez. I am not aware of any dam that's been torn 
down, but there is a proposal for Elwa Dam in the State of 
Washington, for a small structure.
    Mr. Doolittle. I've heard a number of the Members express 
surprise at the absurdity of this idea of tearing down dams, 
but at a hearing we held with our Subcommittee in Mrs. 
Chenowith's district, why the engineer for the Corps of 
Engineers indeed admitted in testimony that they're actively 
studying the proposal involving five dams to return the river 
level. I believe it is the Snake River, to its natural level by 
bypassing, not one, but five dams.
    So these ideas are very strange, but I think one has to 
treat them seriously, especially when an agency of our 
government, not the Bureau in this case--in fact, I don't know. 
Is the Bureau involved in that study, Commissioner?
    Mr. Martinez. On the Snake River dams? No, we are not. That 
is a Corps of Engineer's study, as I understand it.
    Mr. Doolittle. Right. Are you familiar with the Navajo 
generating station.
    Mr. Martinez. Yes, I am.
    Mr. Doolittle. Let me just ask you to recall as best you 
can. It was my understanding that the Navajo generating station 
was built as the result of another compromise, just like we 
heard about Glen Canyon was a compromise. That was a happy 
compromise as far as I am concerned. But the Navajo generating 
station im-

pressed me, when I viewed this area, as being completely 
incongruous for the area. These enormous smokestacks rise.
    And when we toured the facility, we went to the 20th story 
and got out and walked on the roof. And we looked up, and the 
towers, the tops of the towers were 57 stories above our heads 
even at the 20th story level. And there are three of these. And 
thanks to the new scrubbers that are being built, there are now 
six smokestacks. I guess we will tear down the other three when 
the new ones are completed.
    But the thing that struck me as interesting about this was 
that this was itself, in fact, compelled by some of these 
environmental groups, perhaps not the Sierra Club in this case. 
I don't remember which one it was. But that Navajo generating 
station was built to replace the power that would have been 
generated by two dams to have been constructed downstream of 
Glen Canyon. Is that your recollection?
    Mr. Martinez. Mr. Chairman, and if I'm wrong, I'll have Mr. 
Calhoon correct me, but my understanding is that the power that 
was contemplated to be generated by dams on the Colorado River 
was to drive principally the water delivery mechanisms to the 
central Arizona project as well as provide some electricity to 
that part of the United States.
    In the absence of those two other dams you're referring to, 
there was this power plant constructed. The Bureau of 
Reclamation owns part of that facility. And we use power to 
drive the pumps on the central Arizona project. But directly to 
answer, yes, it was built as a way of delivering power that was 
originally contemplated as being produced by, I believe, two 
other dams on the Grand Canyon.
    Mr. Doolittle. So when the committees of Congress hear 
testimony later on, which I am sure we will hear in the next 
few years, about how detrimental the air quality of the Navajo 
generating station is and how it's necessary to remove it as a 
blight in the environment, we can thank the very environmental 
groups themselves for giving us that taxpayer expense. Of 
course, the Navajo generating station in its 77-story tall 
towers and daily consumption of something like 20,000 tons of 
coal per day. A special railway was built to make sure that the 
coal could be delivered day after day, plus a number of trucks 
that bring it in.
    So I just want to confirm with you your understanding of 
how that got built. And I think this is a lot of unintended 
consequences sometimes. Because no one who visits that 
beautiful area would, I think, be pleased to see this huge 
coal-fired plant sitting there. But the dams that would have 
produced the clean hydroelectric power were nixed by the 
environmental groups. So I thank you for your testimony, and I 
yield back my time, Mr. Chairman.
    Mr. Hansen. The gentlelady from the Virgin Islands, Ms. 
Green.
    Ms. Christian-Green. Thank you, Mr. Chairman. I have a 
question for Mr. Martinez. And I would like to welcome all of 
the panelists this morning.
    Mr. Martinez, you said in your testimony that proposals to 
drain Lake Powell are unrealistic. Has the Bureau of 
Reclamation done any analysis of the costs and benefits of 
these proposals? And is there any reason that private citizens 
shouldn't do such an analysis?
    Mr. Martinez. Mr. Chairman, Madam, we have not seen 
specific proposals, and we have not done any studies of those 
proposals.
    Ms. Christian-Green. OK. Another--those who propose 
lowering Lake Powell argue that the current evaporation losses 
from the reservoir are about 1 million acre feet per year. Is 
that about accurate?
    Mr. Martinez. Mr. Chairman, Madam, any structure, any dam 
results in evaporation. A lot of it is dependent on the 
location of the reservoir. There is approximately 800,000 acre 
feet of evaporation that occurs at this reservoir. And that is 
not unusual for the area and was anticipated.
    Ms. Christian Green. OK. A question for Mr. Hacskaylo.
    Mr. Hacskaylo. Hacskaylo.
    Ms. Christian-Green. Hacskaylo. I'm sorry. In your 
testimony, you referred to payment of irrigation assistance by 
Glen Canyon Power customers as a benefit from Glen Canyon Dam. 
Can you tell us in what year that irrigation assistance payment 
might be made and what is the present value of a payment.
    Mr. Hacskaylo. I do not have that information available. We 
would be happy to work with the Bureau of Reclamation and 
supply it for the record.
    [The information follows:]
----------

                     Irrigation Assistance Payments

    The $801 million of unpaid irrigation assistance as of the 
end of fiscal year 1996 that is an obligation of Colorado River 
Storage Project power customers is projected to be paid over 
many years. The fiscal year 1996 power repayment study for the 
Colorado River Storage Project projects that the vast majority 
of the payments will occur between the years 2010 and 2023. The 
present value of these payments as of September 30, 1996, is 
$203 million using a 7 percent discount rate.

    Ms. Christian-Green. Thank you. And one other question. You 
gave the total amount of power generated from Glen Canyon Dam 
in fiscal year 1996. Was that a higher than average water year? 
And what is the average amount of power generated each year 
from Glen Canyon Dam?
    Mr. Hacskaylo. I can provide that information for the 
record.
--------

            Average Annual Glen Canyon Dam Power Generation

    The average amount of power generated annually at Glen 
Canyon Dam since Lake Powell filled in 1981 is 5.2 billion 
kilowatt-hours (KWhs). Therefore, the 5.5 billion KWhs 
generated at Glen Canyon in 1996 is above average.

    Ms. Christian-Green. Thank you. Thank you,
    Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. Mr. Martinez, in his 
written statement, Mr. Brower has asserted that Glen Canyon Dam 
nearly failed in 1983, and this could happen in the future as a 
result of poor engineering, flood lands, flood, landslide, 
earthquake, or human intent. Do you agree with Mr. Brower about 
the vulnerability of Glen Canyon Dam?
    Mr. Martinez. Mr. Chairman, Congressman, to the extent that 
that question implies that the dam is unsafe, I do not agree 
with it. It is a safe structure. However, we did experience, in 
1983, some problems with our spillways. We had sustained some 
cavitation. We have corrected those problems and don't 
anticipate any future problems with the spillways.
    Mr. Cannon. I thank you. Mr. Brower also talks about the 
dam nearly being filled with sedimentation over time. What is 
the current projected life of the reservoir behind the dam?
    Mr. Martinez. Chairman, Congressman, the Glen Canyon 
Institute estimates that it will be completely full within 250 
to 350 years. Bureau of Reclamation estimates indicate a life-
span from 5 to 700 years.
    Mr. Cannon. So recreation and power generation will be 
effective for that kind of period of time.
    Mr. Martinez. If these--you know, one thing about figures, 
depending on which expert you talk to, he'll give you different 
opinions. But our belief from the Bureau of Reclamation is that 
that facility will be functioning from a siltation standpoint 
for several hundred years.
    Mr. Cannon. My understanding is the Department of Interior 
spent about $100 million since 1982 on studies on the Glen 
Canyon. Now, is that about right?
    Mr. Martinez. Mr. Chairman, Congressman, if you're 
referring to the studies conducted for the EIS for Glen Canyon 
operation, there was approximately $100 million spent for that.
    Mr. Cannon. Have you had a chance to look at the citizen-
led environmental assessment that Mr. Brower refers to?
    Mr. Martinez. I have not.
    Mr. Cannon. Thank you. Mr. Galvin, how many visitor days a 
year do we have at Glen Canyon Dam?
    Mr. Galvin. We have--in 1996, we had over 2\1/2\ million 
visits. An important subtext there is that Glen Canyon has the 
second most overnight visits in the entire system. Of those 
2\1/2\ million visits, 2 million visitors spend at least one 
night in Glen Canyon. So in that respect, it's one of the most 
heavily visited areas in the system.
    Mr. Cannon. What are the other opportunities in the area 
for flat water recreation that are now served in by Lake 
Powell?
    Mr. Galvin. In that general area, while there are 8 or 10 
other national park areas, there is very little in terms of 
flat water recreation.
    Mr. Cannon. If Lake Powell ceased to exist, what would the 
impact be on Lake Mead and its resources that are now served by 
Lake Powell for recreation and other things?
    Mr. Galvin. I am not absolutely certain how the two dams 
interact. Perhaps one of my colleagues would have a better 
idea. But we have obviously similar facilities at Lake Mead. 
And if we experienced higher water levels at the recreation 
area, we would have to do a considerable amount of 
reconstruction of the infrastructure there, which is quite--its 
marinas and that kind of thing.
    Mr. Cannon. Do you know how many people visit Lake Mead per 
year?
    Mr. Galvin. I don't. But it is on the same order of 
magnitude or more than Glen Canyon. But not as many overnight 
visits.
    Mr. Cannon. Would it be possible for all those people who 
now use Lake Powell to go down to Lake Mead?
    Mr. Galvin. Not with our present capacity, no question 
about it.
    Mr. Cannon. Mr. Hacskaylo, Mr. Brower asserts in his 
written statement that we can replace the power currently 
generated at Glen Canyon Dam through reduced demand. Is that 
realistic in your assessment?
    Mr. Hacskaylo. Mr. Chairman and Mr. Cannon, the Glen Canyon 
environmental impact statement assessed the impact of 
conservation and saving electricity. And the estimates range 
from zero percent savings to, best case, of 20 percent savings 
based on the assumptions used. So there could be some 
conservation savings. But we do not believe that the capacity 
and the energy generated at Glen Canyon Dam could be replaced 
in its entirety by conservation.
    Mr. Cannon. When was that study done?
    Mr. Hacskaylo. In 1994, as part of the Glen Canyon EIS.
    Mr. Cannon. Do you happen to know what has happened to our 
power usage since that study in America?
    Mr. Hacskaylo. Not in the general area of the Glen Canyon 
Dam, in that part of the United States. Power usage has 
increased slightly. Demand has increased.
    Mr. Cannon. Isn't it likely this lost generation would have 
to be replaced with some form of fossil fuel generation? And 
has anyone calculated the air quality impacts of a replacement 
for the dam with fossil fuel generation?
    Mr. Hacskaylo. It is likely that fossil fuel generation 
would be utilized to replace the lost capacity at Glen Canyon 
Dam. And I'm not aware of any studies as to air impacts.
    Mr. Cannon. Great. Thank you. And----
    Mr. Hansen. Will the gentleman yield for just one moment?
    Mr. Cannon. Absolutely.
    Mr. Hansen. Mr. Hacskaylo, how many tons of coal would it 
take to replace the power that is generated by the hydropower 
on the dam?
    Mr. Hacskaylo. Our best estimate, based on the entire 
replacement of all the capacity of Glen Canyon Dam, is one 
million tons of coal annually.
    Mr. Hansen. Thank you.
    The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. Mr. Martinez, let me 
begin with you. Let me followup on a point made on the other 
side. Your written statement does, in fact, have you saying 
that the proposals to drain Lake Powell are unrealistic. I note 
that word because, in the July issue of National Geographic, 
which contains a thorough evaluation of the Grand Canyon, and 
touches extensively on this issue, Wayne Cooke of the Upper 
Colorado River Commission is quoted as saying: If Powell goes, 
growth in the upper basin States from a water standpoint is 
over. There would be no storage for our obligations under the 
Compact.
    It then goes on to say: Secretary Babbitt, referring to 
Secretary of Interior, Bruce Babbitt, agrees in self-arguing 
that Lake Powell is, quote, ``essential to the economies of 
those States, and that draining the reservoir is unrealistic.''
    I guess I would like to put into the record those 
statements from Secretary Babbitt from this article, Mr. 
Chairman. And I would like to have Mr. Martinez confirm to us 
that is, in fact, the Secretary's position and the 
administration's position.
    Mr. Martinez. Mr. Chairman, I am aware of that article. I 
have not specifically discussed this issue with the Secretary, 
but I am aware of that article where he was quoted. And I was 
present at a budget hearing earlier this spring where the 
Secretary basically stated the same position.
    Mr. Shadegg. OK. Could I request that, if that is not the 
Secretary's position, the President's position, the 
administration's position, that you advise the Committee within 
two weeks.
    Mr. Martinez. I'll pass that on to the Secretary.
    Mr. Shadegg. Let me move to some other statements that I 
would like to focus on. In his seminal paper on this issue, and 
I regret that Mr. Brower is not going to be here. A paper 
entitled, ``Let the River Run Through It,'' Mr. Brower makes a 
series of factual assertions which I find stunning, some of 
which I find not sustainable.
    With regard to water, which I consider to be your focus, in 
the fourth paragraph of the article, he states, and I quote: 
``Lake Mead's Hoover Dam can control the Colorado River without 
Lake Powell.''
    Let me ask you, it certainly could not control the Colorado 
River if we did not create some flood storage capacity at the 
top of Lake Mead. That is, we would have to drain some portion 
of Lake Mead, would we not?
    Mr. Martinez. The--it gets somewhat complicated, but let me 
put it this way: If what you're saying is, in order for flood 
control, we would have to hold a greater pool for flood storage 
at Lake Mead, that would be the case.
    Mr. Shadegg. Thank you.
    Mr. Martinez. Which would make less water available for 
downstream uses.
    Mr. Shadegg. So as a result of that, we would not only lose 
the water stored for future use in the event of a drought, 
which we have in Lake Powell, but we would also lose some of 
the water currently stored at the top of Lake Mead, because 
Lake Mead is nearly full; is it not?
    Mr. Martinez. You would lose the ability at Lake Mead to 
store more water for purposes other than flood control.
    Mr. Shadegg. And also lose the storage we have at Lake 
Powell.
    Mr. Martinez. That's correct.
    Mr. Shadegg. He also makes a statement toward the end of 
his article, and again I will quote, because I think there is a 
stunning statement that may persuade people who are not paying 
attention or thinking the issue through: ``Draining Lake Powell 
means more water for the Colorado River States and Mexico, 
especially Colorado and Utah.''
    It is beyond me how draining Lake Powell could possibly 
mean more water. Can you explain his statement, or do you have 
an understanding of it?
    Mr. Martinez. It would appear to me, for the short term, it 
would appear as a high flow. It could probably provide more 
water in terms of volume. But over time, it would appear to me 
that storage would provide the opportunity to capture more of 
that flow and provide it to the system. In other words, the 
storage, as was indicated earlier this year in the Southwest--
or earlier today, in the Southwest, is necessary in order to 
make better use of high spring runoff.
    Mr. Shadegg. There is no question, but that we created Lake 
Powell to store water in the event of droughts. It seems to me 
there's also no question but that we experience droughts in the 
West, and that to empty it could not create more water.
    And insofar as he is addressing the evaporation issue, 
which I think is, quite frankly, the issue on which turned the 
minds of the board of directors, it seems to me that Lake 
Powell is an insurance policy against a future drought and 
that, just as when you purchase an insurance policy, it is--
there is a price so that you have that insurance pool there in 
the event of a catastrophe. Evaporation and bank storage, which 
Mr. Brower seems deeply concerned about, is the price we pay so 
that we will have a storage reservoir there. And I guess there 
are more points.
    I see I am running short on time, but I would like to ask 
Mr. Hacskaylo a question. Mr. Brower also makes a statement in 
his paper that Lake Mead's Hoover Dam can produce more power if 
Powell's water is stored behind it. How could it be that 
storing Lake Powell water behind Lake Mead, which is already 
full, could produce more power than the combination of Lake 
Mead and Lake Powell?
    Mr. Hacskaylo. I do not know, sir.
    Mr. Shadegg. It simply doesn't make sense, does it?
    Mr. Hacskaylo. Not to me.
    Mr. Shadegg. Let me ask a second question. Proponents of 
this idea say point blank that we could reengineer Navajo 
generating station, which is also essential for the economies 
of the Southwestern United States, so that the tubes, which now 
take the cooling water out at a level of about 250 feet above 
the river, could take them out at river level. Given that the 
river fluctuated dramatically and had very low flow in the 
wintertime, does that idea appear realistic to you?
    Mr. Hacskaylo. Sir, I would have to defer to the 
Commissioner of Reclamation on that question.
    Mr. Shadegg. Two other quick questions, if I might. There's 
been some reference to conservation here and that we might save 
some of the power lost by shutting down Glen Canyon Dam by 
conservation. Would we not be better off to use that 
conservation to defer the construction of future dirty coal or 
oil or natural gas fired-power plants?
    Mr. Hacskaylo. That certainly is an option for the 
policymakers to consider.
    Mr. Shadegg. I guess the last point I would like to make, 
Mr. Duncan goes back to you, with regard to how fast the lake 
will fill up. I understand the Lake Powell Institute says it's 
only 100 year--one or 200 years. I simply want to note that 
Bill Duncan of the Bureau of Reclamation, who is the engineer 
that manages the dam, has said that sedimentation in the lake 
is very slow. And he said, and I quote, ``At current rates,'' 
he predicted ``dredging would be needed to clear the tubes for 
the turbine intake pipes in about 500 years'' He's saying not 
that the lake will be full in 500 or 700 years, but that 
dredging won't even be necessary to clear the intake tubes for 
500 years. He's on the site. It would seem to me he would make 
a pretty good estimate of what's required, wouldn't you agree?
    Mr. Martinez. Mr. Chairman, I've been around this business 
long enough. Like I said, different folks will give you 
different figures. It's my feeling that, or at least for the 
next three to four or 500 years, we will not have siltation 
unless the climate of the world changes to a point where it 
causes chaotic problems. But that structure, from my best 
information I have available, will not get into a siltation 
problem at least for 4 or 500 years.
    Mr. Shadegg. I thank you each for your testimony and I 
thank the Chair for his indulgence.
    Mr. Hansen. Mr. Martinez, let me quickly insert a question. 
I started, as we were flying in here, I read in a report from 
one of the river runners magazines, that if not one more drop 
came into Lake Powell, that it could sustain the flow on the 
other end for 4 years. Do you agree with that?
    Mr. Martinez. My understanding that both Lake Mead and Lake 
Powell are capable of impounding the average flow of the 
Colorado River for about 4 to 5 years.
    Mr. Hansen. So together you could keep it going for 4 or 5 
years. So there's that much water stored behind those two 
reservoirs; would that be correct, Mr. Calhoon?
    Mr. Calhoon. Yes, Mr. Chairman. Approximately 26 million 
acre feet of water are presently stored in Lake Powell. And the 
average inflow to Lake Powell is something on the order of 12, 
13 million acre feet. So it wouldn't be quite the 4 years, it 
would be more like 2 years.
    Mr. Hansen. Quite an insurance policy that the gentleman 
from Arizona talked about.
    The gentlelady from Idaho, Mrs. Chenowith.
    Mrs. Chenowith. Thank you, Mr. Chairman. For the record, I 
would like to make a correction to my opening statement if it 
wasn't clear. It's my understanding that in 1922, the Colorado 
Lower Basin Water Compact and Colorado River storage projects 
were established out of that. Eventually, in the fifties came 
the construction of the Grand Canyon Dam and the culmination of 
the substantial construction of the recreational facilities in 
the seventies. And I hope the record will reflect these 
changes.
    I'm very interested, Commissioner, in knowing what effect 
draining Lake Powell would have on our ability to live up to 
our obligations to deliver water to the lower basin and to 
Mexico?
    Mr. Martinez. It is my understanding that the deliveries to 
the lower basin States, except for periods of extensive 
drought, could be met without Lake Powell being in place. 
However, if there is extended drought, the deliveries could 
not. What is more important, from my perspective, is that, 
without Lake Powell, the upper basin States would not be able 
to develop their entitlement.
    Mrs. Chenowith. Would not----
    Mr. Martinez. There is two answers to that question. One 
is, in periods of extensive drought, Lake Powell would be 
needed to meet deliveries to the lower States. In other 
situations, without Lake Powell, the upper basin States would 
not be able to develop their water that they're entitled to 
under the Colorado River Compact.
    Mrs. Chenowith. The ability to deliver water to Mexico, is 
that a higher right than the right to deliver water for 
irrigation and hydropower flood control?
    Mr. Martinez. Mr. Chairman, I would defer to the attorneys 
on that issue, but that is an international treaty. And we have 
obligations under the international treaty to deliver water.
    Mrs. Chenowith. So what I'm asking you, Commissioner, is 
there is only so much storage capacity without Lake Powell. And 
within that storage capacity, there is the capability of 
delivering for previous filing water rights, such as for energy 
or for agriculture or flood control.
    Are you saying that, under international treaty, that the 
filling of a water interbasin or international water, transfer 
of water comes as a higher priority in the first in time, first 
in right doctrine established in the West if we have less 
storage capability without Lake Powell?
    Mr. Martinez. If you have a stream system that's 
overallocated, especially in the West, first in time, first in 
right, the question I--the issue I raise is I would defer to 
the attorneys. That if we have an international treaty in 
place, whether the international treaty would go first in terms 
of water shortage, I believe that it would. But I think, going 
back to the question that was asked, was that----
    Mrs. Chenowith. If the gentleman would yield, you believe 
that the international treaty would require a higher and more 
senior right, is that correct, above irrigation rights filed 
previously?
    Mr. Martinez. The water rights in the West are apportioned 
by prior priority.
    Mrs. Chenoweth. Right.
    Mr. Martinez. Prior priority.
    Mrs. Chenoweth. Right.
    Mr. Martinez. Prior rights get first crack at limited water 
supplies. The point I am raising is that, if you have an 
international treaty, that's why I say I would defer to the 
attorneys in the audience, but it would appear to me that, if 
you have an international treaty, you have international 
obligations, which might require that water to go downstream. 
But I would be glad to provide that direct answer for the 
record.
    Mrs. Chenoweth. I would appreciate that, Commissioner. I 
would be very interested in seeing what your legal analysis on 
that would be with regards to seniority and rights.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. A very interesting question was asked 
earlier about whether the Bureau had done a cost benefit ratio 
analysis on draining Lake Powell. Your answer didn't surprise 
me. But I thought it was a very interesting question in that I 
wanted to followup and ask you: Does an agency have an 
obligation to do a cost-benefit analysis or an environmental 
impact statement or any other of those costly studies when an 
outside organization is requiring an action such as this?
    Mr. Martinez. To my knowledge, the Bureau of Reclamation 
has not undertaken any studies on evacuation of reservoirs 
across the West as a course of business. Or if Congress so 
directs, we shall undertake such study.
    Mrs. Chenoweth. So you would say your obligation comes from 
Congress?
    Mr. Martinez. I--the Bureau of Reclamation will do what 
Congress tells us to do.
    Mrs. Chenoweth. Mr. Commissioner, I would like to submit 
that question in writing. I see my light is on. And so with 
regards to the obligation of the Bureau, I will submit that in 
writing. Thank you very much.
    Mr. Hansen. I thank the gentlelady. The gentleman from 
Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Mr. Martinez, continuing on the same line, I noticed in the 
previous testimony that a million acre feet of evaporation is 
one of the considerations for draining Lake Powell. In other 
words, the waste of that water through evaporation. Would you 
agree or would you disagree that evaporation should be a 
consideration in the draining of a water storage area?
    Mr. Martinez. It could be, but to the extent that you're 
going to replace that storage someplace else, you have the same 
problem. And if it's the storage occurs downstream at Lake 
Mead, the evaporation rates would be even higher. Mr. Chairman, 
what I said earlier on, Congressman, was that any structure 
across the West and in ponds of water suffers evaporation. 
That's part of the physical process.
    Mr. Doolittle. Would the gentleman yield for just a minute?
    Mr. Gibbons. I'd be glad to yield.
    Mr. Doolittle. Commissioner, this figure of a million came 
from the Sierra Club. Do you accept that it's a million? Is 
that the Bureau's estimate of the amount of evaporation? Is it 
a million acre feet?
    Mr. Calhoon. Mr. Chairman, the million acre feet a year is 
a high figure. We feel like it's less than that. The total loss 
of water from Lake Powell for evaporation and bank storage is 
less than a million. It's something on the order of 950,000 
acre feet a year.
    Mr. Doolittle. Oh, so then your testimony is--that's 
different than what I understood, then. It nearly is a million.
    Mr. Calhoon. For bank storage and evaporation. Evaporation 
is on the order of a little under 600,000 acre feet a year. 
Bank storage is another 350,000 acre feet a year.
    Mr. Doolittle. OK. But the bank storage, you believe, comes 
back as the level of the reservoir drops.
    Mr. Calhoon. That is essentially correct.
    Mr. Doolittle. So then it wouldn't be fair to say that 
we're losing banks--I apologize to Mr. Gibbons. Can we give him 
a couple extra minutes.
    Mr. Hansen. Without objection, we will just give him two 
additional minutes.
    Mr. Doolittle. OK. Let me just get the rest of the answer. 
So the bank storage, if we set aside the bank storage, what is 
the loss, then, due to evaporation?
    Mr. Calhoon. In 1996, the evaporation loss for Lake Powell 
was computed at, I believe, 585,000 acre feet.
    Mr. Doolittle. OK. Thank you. I thank the gentleman.
    Mr. Hansen. The Secretary will give two additional minutes 
to the gentleman from Nevada.
    Mr. Gibbons. I appreciate that, Mr. Chairman. Hopefully, I 
won't take that long. If the evaporation rates are a condition 
of consideration for removal of a water storage area, is there 
a criteria upon which the amount of the evaporation is a 
determining factor in making a recommendation to eliminate a 
water storage area? Is there a percentage or a criteria in that 
area?
    Mr. Martinez. Mr. Chairman, Congressman, I think that--I'm 
not aware of evaporation being considered as a criteria for 
removing the structure or evacuating a structure. It is 
criteria that is considered at the time you construct the 
structure.
    It would appear to me that, if the evaporation rate is so 
great, you would not construct the structure in the first 
place. So those issues from an engineering perspective should 
have been addressed at the time the dam was constructed and 
designed.
    Mr. Gibbons. Sure. I understand that. And it's based on the 
size of the impoundment area, whether it's wide and thin or 
wide and shallow versus deep?
    Mr. Martinez. It's based on the----
    Mr. Gibbons. Total quality of water versus the evaporation 
rate would be under consideration?
    Mr. Martinez. Mr. Chairman, it's based on the exposed 
surface area and the location of the structure. For a given 
area, the evaporation rates would be higher at Lake Mead than 
they would be at Glen Canyon Dam.
    Mr. Gibbons. OK. Mr. Galvin, how many units of the national 
park system would be impacted by this proposal?
    Mr. Galvin. Well, we startup in canyon lands, so there 
are--and Lake Mead, of course--well, let's just go up--let's go 
up the river. We have Lake Mead National Recreation area, Grand 
Canyon National Park, Glen Canyon National Recreation area, and 
Canyon Lands.
    Now, that covers the length of the river. But there are 
other--there are other units that are on these drainages, 
Capital Reef and Dinosaur upstream, although that is not--I 
mean, theoretically, because the water flows change, they could 
be somehow impacted.
    Mr. Gibbons. So the national park system has a very, very 
active participatory interest in this hearing today?
    Mr. Galvin. Yeah. We've--you know, we manage recreation on 
the Colorado River for a very significant length of that and on 
the tributaries of the Colorado River.
    Mr. Gibbons. Now, you were requested by the Committee to 
appear here today, were you not?
    Mr. Galvin. Yes.
    Mr. Gibbons. And, originally, you intended just to submit a 
written statement. Did you have any discussions with the 
Department of Interior about your appearance here today?
    Mr. Galvin. The committee invited the National Park Service 
to appear as an expert witness. And, originally, in preparing 
for the hearing, we prepared two separate statements. It was 
the decision of the Department of Interior simply to 
incorporate the perspectives of the National Park Service under 
Mr. Martinez's statement.
    Because of schedules, we did have some discussion about who 
the witness would be. And I was the witness, then I wasn't the 
witness. Then we discussed with the Subcommittee. And they 
wanted a high-ranking management official, so I agreed I would 
be the witness.
    But it was largely a consideration of schedules that was--
there was no direction from the Department one way or the 
other.
    Mr. Gibbons. Has the National Park Service an interest in 
the endangered species that exist along the Colorado River?
    Mr. Galvin. Yes. In fact, we were a participant on the 
environmental impact statement on the management of the river 
that was referred to in previous testimony.
    Mr. Gibbons. Are there a number of endangered species that 
exist upstream but not downstream or vice versa because of the 
existence of Glen Canyon Dam?
    Mr. Galvin. I am aware of endangered species downstream 
because the environmental impact statement principally covered 
the management of the Colorado River below the dam. And an 
important--the endangered species thing sort of cuts both ways, 
because the temperature of the water is influenced, obviously, 
by the dam. But there are clearly endangered species downstream 
of the dam that would--that would become more endangered if the 
canyon was drained. On the other hand, there are some that 
perhaps would benefit from warm water.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Nevada, Mr. Ensign.
    Mr. Ensign. Thank you, Mr. Chairman. Mr. Martinez, the part 
that you raised about extensive drought, could you just give me 
your definition of what extensive drought would be.
    Mr. Martinez. I refer to Mr. Calhoon.
    Mr. Calhoon. Mr. Chairman, Congressman, we've experienced 
several significant droughts. The droughts in the thirties are 
of historical record. And the droughts of the fifties were very 
significant. More recently, we experienced a 6-year drought on 
the Colorado River beginning in 1986 in which we realized 
approximately two-thirds of the normal runoff during that 6-
year period.
    Mr. Ensign. And you're saying that that is a significant 
enough drought period to have an effect on the lower basin 
States on the supply of water that they would get.
    Mr. Calhoon. Mr. Chairman, particularly the earlier 
droughts of the thirties and fifties, the drought--if the 6-
year drought in the eighties had gone on longer, I am sure that 
would have been the case then also.
    Mr. Ensign. So am I safe in saying that, with a reasonable 
degree of certainty, the drainage of Lake Powell will have, 
within the next 30 or 40 years, almost assuredly based on at 
least the last hundred years, will have a severe affect on the 
lower basin States?
    Mr. Calhoon. Mr. Chairman, experience would indicate that 
would be the case.
    Mr. Ensign. Thank you. Also, can you address why Lake 
Mead's evaporation rate is greater. We're saying, you know, if 
you drain Lake Powell, Lake Mead has a greater evaporation 
rate.
    Mr. Calhoon. Mr. Chairman, Lake Mead is at a lower 
elevation and experiences a much higher temperature year-round. 
And that would be the primary reason for the higher evaporation 
loss.
    Mr. Ensign. So you're saying that, by draining Lake Powell 
and putting the water into Lake Mead, because of the increased 
temperature and the lower elevation, then we increase even more 
evaporation. So some of the benefit that the Sierra Club seems 
to think by draining Lake Powell is actually negated because of 
the increased evaporation rates in Lake Mead; is that correct?
    Mr. Calhoon. Mr. Chairman, that is correct.
    Mr. Ensign. Have you seen anything put out by the Sierra 
Club that would address that issue, that would--in other words, 
that they address that maybe counter--counters the argument 
against that.
    Mr. Calhoon. Mr. Chairman, no, I have not.
    Mr. Ensign. OK, thank you.
    Mr. Doolittle. Would the gentleman yield?
    Mr. Ensign. Yes.
    Mr. Doolittle. I just want to understand this. Lake Mead 
is, I think, the largest reservoir in the country, right?
    Mr. Calhoon. Mr. Chairman, that is correct.
    Mr. Doolittle. OK. And that's, what, twenties--if Powell is 
27 million, what is Lake Mead?
    Mr. Calhoon. It's slightly more than 27. It's larger.
    Mr. Doolittle. OK. I'm just wondering how are you going to 
put all that--and assume Lake Mead is full. How are you going 
to put another 27 million acre feet of water in Lake Mead?
    Mr. Calhoon. Mr. Chairman, that would be physically 
impossible. Additional water supplies, when Lake Mead is full, 
would flow through the system over the spillway.
    Mr. Doolittle. I mean, there is no way you could do it, 
right? So you would be cutting, I don't know what it would be, 
but you would be making a dramatic cut in your obviously 27 
million acre foot cut in your reservoir storage capacity. But, 
I mean, you couldn't just--you just can't add water into Lake 
Mead beyond what it can hold, right?
    Mr. Calhoon. That is correct.
    Mr. Doolittle. I mean, theoretically, you shouldn't be able 
to add another drop beyond its 27 million acre feet of storage, 
is that right, without flooding something or causing some 
damage?
    Mr. Calhoon. Mr. Chairman, that is essentially correct. Of 
course, Lake Mead is not completely full all of the time.
    Mr. Doolittle. Right. But I mean the point is that you're 
going to lose, I don't know, if you took an average, I mean, 
how much is typically available for added storage in Lake Mead 
when it's not--let's say it's not full all the time, like if 
it's 80 percent full or what percentage would it be normally?
    Mr. Calhoon. Mr. Chairman, we could supply that for the 
record. I don't have that information.
    Mr. Doolittle. OK. I just think it's important for the 
Committee to understand that it's not like you can just get rid 
of Lake Powell and have it all in Lake Mead, and we're all just 
fat, dumb, and happy. Thank you.
    Mr. Hansen. We're pleased to have J.D. Hayworth, past 
Member of our Committee and Member of Congress and a gentleman 
from Arizona. Do you have any comments to make?
    Mr. Hayworth. Mr. Chairman, only to say that I hope the 
description of my colleague from California won't be used for 
me because I'm a little bit nutritionally challenged from time 
to time. And there are those that would say the same thing 
about my intellectual capacities. But I thank you for the 
chance to be here with you. And I'm sure my colleague from 
California was not referring to me.
    Mr. Hansen. We'll accept that. Mr. Galvin, I didn't get it 
straight when somebody asked you the question. Does the 
National Park Service and this administration have a position 
on this proposal?
    Mr. Galvin. Well, Mr. Martinez used the word 
``unrealistic.'' And Mr. Shadegg quoted the National 
Geographics article. I believe that is, to the extent that we 
offer positions at an oversight hearing, that's our position.
    Mr. Hansen. You stated earlier the amount of visitation, 
and you used overnight figures. Did I hear you correctly that 
you said it was one of the highest or second highest?
    Mr. Galvin. It is actually second to Yosemite National Park 
in terms of overnight stays. And I suspect, this year, because 
of the fewer facilities at Yosemite, it will be the highest 
number of overnight stays in the national park system.
    Mr. Hansen. You say it will be the highest of the entire 
Park Service?
    Mr. Galvin. Yes.
    Mr. Hansen. All 375 units, huh?
    Mr. Galvin. Right. And that is because of the nature of the 
visitation. It's not--unlike Lake Mead, which is primarily day 
use, near major metropolitan areas, people come to Glen Canyon 
and stay overnight. They take the house boats down the lake, as 
you know. So they tend to be overnight--there are 456 hotel 
rooms. There are 600 camp sites.
    Mr. Hansen. Last time I was there, I talked to the 
superintendent, and he indicated to me that about 400,000 
people launched boats there last year. Is that a correct 
statement?
    Mr. Galvin. If the superintendent said that, it's 
undoubtedly true, Mr. Chairman.
    Mr. Hansen. OK. Never cross the superintendent, do you?
    Mr. Galvin. Well, I wouldn't say that.
    Mr. Hansen. Mr. Hacskaylo, which areas are specifically 
treated with power? Would you identify those that receive this 
hydropower?
    Mr. Hacskaylo. Yes, sir. From the Glen Canyon Dam and the 
Colorado River Storage Project, our customers are located in 
Utah, Colorado, Wyoming--a few in Wyoming, a few in New Mexico, 
Arizona, and I believe one customer in Nevada. We do have a map 
which we'd be happy to provide for the record showing the 
locations of our customers.
    Mr. Hansen. We previously asked the question as to how many 
tons of coal would have to make up for the loss. How many 
generating plants do you think would have to be created in 
order to fill the gap that we would lose from the hydropower? 
How many kilowatts, sir? Would you have any----
    Mr. Hacskaylo. Right now, the maximum operating capability 
of Glen Canyon power plant is 1,356 megawatts. I'm sure the 
consulting engineers could give any sort of variations on what 
would be needed to replace that lost capacity. I do not have an 
answer for that.
    Mr. Hansen. And you would assume that would have to be done 
by fossil fuels or coal----
    Mr. Hacskaylo. This is correct.
    Mr. Hansen. [continuing] or nuclear?
    Mr. Hacskaylo. That would be a reasonable assumption, yes, 
sir.
    Mr. Hansen. I see.
    Mr. Shadegg had one more comment he wanted to make. We'll 
give him a minute to do that.
    Mr. Shadegg. Thank you, Mr. Chairman. I just noticed that 
there was some significant discussion here about the issue of 
bank storage and the Bureau of Reclamation claiming that some 
of that can be regained. And I simply want to make a couple of 
points.
    I noted earlier that I was not able to get the witnesses 
here as a result of the short timing of this hearing that I 
thought ought to be here. One of the witnesses I think deserves 
to be here is the representative of the Hopi tribe. Congressman 
Stump, who represents the Hopis, is not a member of the this 
Committee, but is deeply concerned about this issue.
    And I want to make this point: Again, in his seminal paper 
on this issue, ``Let The River Run Through It,'' Mr. Brower, 
the principal proponent or leading proponent of this idea, 
diminishes the idea of bank storage by saying, quote: ``All too 
likely, the region's downward slanting geological strata are 
leading some of Powell's waters into the dark unknown,'' close 
quote.
    I believe were there a Hopi witness here, he would tell you 
or she would tell you that, in point of fact, the dark unknown 
is a very viable aquifer that underlies the Hopi reservation 
and which is currently supplying water to the Hopi. And the 
Hopi are greatly concerned, as I know Congressman Hayworth 
knows, about the loss of that water, and have indeed come to 
the Congress and said, not only are we worried about the 
depletion of that aquifer over time, but we would like it 
supplemented by a pipeline from Lake Powell.
    And I would suggest very strongly that the dark unknown 
that Mr. Brower refers to is, in fact, an aquifer underlying 
the Hopi and Navajo reservations and is important to their 
lives and economies. And I look forward to asking the 
representatives of the Navajo nation here if they share that 
concern about damage to that aquifer were the lake drained. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Stump follows:]

  Statement of Hon. Bob Stump, a Representative in Congress from the 
                            State of Arizona

    Chairman Hansen, Chairman Doolittle, distinguished members 
of the Resources Committee, panelists and interested parties,
    Lake Powell, while not a natural lake, has a very positive 
presence in Northern Arizona and in Southern Utah. World 
renowned for its outstanding scenic beauty and extraordinary 
recreational opportunities, the Lake also serves as an 
important water storage body, whose Glen Canyon Dam is an 
essential generator of critically needed electrical power.
    Draining Lake Powell to ``restore'' the Colorado River is 
simply destruction for destruction's sake that would 
irreparably harm fish and wildlife that today accept Lake 
Powell as their home. It would also have grave consequences for 
river towns whose economies depend upon recreational tourism. 
The uncertain water supplies brought on by draining would harm 
downstream users and would create unnecessary spikes in 
electrical generation and distribution costs, all without 
giving U.S. taxpayers one sound reason for the need to do so.
    Aren't taxpayers sick enough of costly, ill-advised 
government initiatives? As a Member of Congress, I urge my 
colleagues here at this oversight hearing to let taxpayers know 
that Congress has heard their pleas. I will stand with you in 
telling taxpayers that Congress will not pull the plug on Lake 
Powell.

    Mr. Hansen. Thank you. We'll excuse this panel. Thank you 
so much for being here.
    [The prepared statement of Mr. Brower may be found at end 
of hearing.]
    Mr. Hansen. Our next witnesses are Mr. Adam Werbach, 
President of the Sierra Club; Mr. Ted Stewart, Executive 
Director of the Utah Department of Natural Resources; Rita P. 
Pearson, Director of Arizona Department of Water Resources; 
Mark Whitlock, Executive Director of FAME. And David Wegner was 
asked by Mr. Werbach if he could sit with him. I have no 
objection to that if you want to bring him up.
    Mr. Doolittle. Mr. Chairman, are you going to ask unanimous 
consent to bring up Mr. Wegner, because I intend to object.
    Mr. Hansen. Well, I'll tell you what, we'll have him sit 
there, and we won't call upon him to testify until the third 
panel. Is that all right?
    Mr. Doolittle. Or even the fourth panel.
    Mr. Hansen. Mr. Wegner, if you would like to sit up there, 
we won't call upon you to testify until the third panel.
    You all realize that in this setting there is some strong 
feelings on both sides of every issue. And they are most of the 
time in this area. So Mr. Werbach, we're pleased that you could 
join us today. And we'll turn the time to you for your 
testimony, sir.

       STATEMENT OF ADAM WERBACH, PRESIDENT, SIERRA CLUB

    Mr. Werbach. Thank you very much, Mr. Chairman. Mr. 
Chairman and members of the Subcommittee, my name is Adam 
Werbach, and I am the President of the Sierra Club. I thank you 
for the opportunity to appear before you today.
    I represent the Sierra Club's 600,000 members across 
America in supporting the restoration of one of the most 
special places on earth, Glen Canyon, for our families and for 
our future.
    Last November, the Sierra Club's national board of 
directors voted unanimously to advocate the draining of the 
Lake Powell Reservoir. This might have surprised some people, 
but it was a natural decision for the Sierra Club.
    The Sierra Club has been protecting unique natural 
resources throughout the Colorado River basin for the last 50 
years. Throughout our history, we have urged protection of the 
Green and Yampa Rivers and Dinosaur National Monument, the 
Animas River in Colorado. And we have always stood for the 
river canyons along the Colorado.
    Flooding Glen Canyon was never a good idea. And the Sierra 
Club never thought that it was. But we had no idea how wrong it 
was at the time it was proposed. David Brower, who could not be 
here today because of health problems with his wife, Anne, 
called Glen Canyon the place that no one knew.
    While the canyons of Dinosaur National Monuments were world 
famous, only a few people had experienced the transcendent 
natural majesty of Glen Canyon. Few people had rafted its 
waters. Few people had explored its mysterious side canyons. 
Few people experienced Glen Canyon's quite soulful magic.
    Those who did experience Glen Canyon were lucky. I regret 
that I was born too late to see one of God's masterpieces. I 
hope my children will have that chance.
    The sense of remorse spreads beyond the Sierra Club. Former 
Senator Barry Goldwater recently reflected in the PBS 
documentary ``Cadillac Desert'' that, quote, ``I'd vote against 
it. I have become convinced that, while water is important, 
it's just not that important,'' end quote.
    We are simply not being good stewards of the river. By 
inundating Glen Canyon, we have eliminated some of the most 
productive habitat for native Colorado fish, many of which have 
been smothered forever from the face of this earth. The 
remaining species hang on as isolated and aging populations in 
only a few places along the river.
    The Colorado River Compact promises more water to the basin 
States and to Mexico than what nature provides. And most of 
that water goes to water plants, not people. Many of these 
plants, like cotton, are not native to the desert, are heavy 
water users, and would not be grown at all if their cultivation 
was not supported by a complex web of tax breaks, subsidies, 
and Federal price supports.
    Perhaps most appalling is that the Grand Canyon is 
suffering from the effects of Glen Canyon Dam. This dam has 
turned its water--its warm water native fish habitats cold, 
cutoff the supply of sediments needed to rebuild its beaches 
and shorelines, and prevented the cleansing seasonal floods.
    We have only a short window of time to act to protect the 
native species of the Grand Canyon that are on the verge of 
extinction. Let us not be known as the generation that 
sacrificed the Grand Canyon.
    In the not-too-distant future, Lake Powell, like all 
reservoirs, will be rendered useless for water storage and 
power by incoming silt. Between seepage into the canyon walls 
around Lake Powell and evaporation from this vast, flat high-
elevation reservoir located in one of the driest areas in the 
country, water loss is estimated at almost one million acre 
feet of water per year according to the Bureau of Reclamation, 
enough for a city the size of Los Angeles. This is no way to 
run a river. And it's not the legacy to leave for our children.
    Now, there is good news. Changes are possible without 
massive shortfalls in water or power. I would like to submit to 
the hearing record a study just completed by the Environmental 
Defense Fund entitled, ``The Effect of Draining Lake Powell on 
Water Supply and Electricity Production.''
    Now, EDF used the Bureau of Reclamation's own hydrologic 
model for managing the Colorado River to assess the impacts of 
the river system with and without Lake Powell and even assumed 
growth in water use through the year 2050. The analysis shows 
that, quote: ``On average, the drained Lake Powell scenario 
reduces deliveries to the lower basin by only 91,000 acre feet 
per year, approximately 1.15 percent of all lower basin 
deliveries. The Colorado River's ability to meet upper basin 
obligations does not depend on whether Lake Powell is 
drained.''
    Regarding hydropower, EDF finds that most, quote, ``most 
power users in the Southwest would not be affected,'' end 
quote. And the estimated cost to all Americans of restoring 
Glen Canyon by foregoing power revenues from the dam is only 37 
cents a piece per year, a bargain for what we would get back.
    EDF concludes that, quote: ``A comprehensive study of all 
effects of the proposal to drain Lake Powell is clearly 
warranted.''
    We believe that these preliminary analyses show that 
draining Lake Powell is possible without major dislocations, 
that it's affordable, and that it's not too late to consider 
this option.
    The power generation loss from Glen Canyon Dam can be 
replaced by natural gas or conservation elsewhere. And the cost 
spread over the rate base of the western power grade should not 
be prohibitive.
    Today, society is reevaluating our past fascination with 
dams. Congress has directed that the Elwa Dam in Washington 
State be removed to restore the rivers. Reservoirs in the 
Colombia and Snake River basins are being proposed for drawdown 
to restore salmon runs. Glen Canyon Dam itself has been re-
regulated by 1992 legislation.
    The Sierra Club supports evaluating the tradeoffs and 
opportunities of draining Lake Powell through an environment 
assessment. We urge the administration to undertake this 
review. Regardless of where you stand on this issue, it clearly 
makes sense to examine the facts. The fate of the Grand Canyons 
is at stake. Our goal is to make the place no one knew the 
place that everyone knows about. We believe that the American 
public would choose in favor of Glen Canyon. Thank you, Mr. 
Chairman, for beginning this conversation.
    [The prepared statement of Mr. Werbach may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Werbach.
    Mr. Vento. Mr. Chairman, apparently the EDF study I would 
ask unanimous consent to be included in the record.
    Mr. Hansen. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. Ted Stewart, Executive Director, Department of 
Natural Resources, State of Utah. Mr. Stewart, we'll recognize 
you, sir.

 STATEMENT OF TED STEWART, EXECUTIVE DIRECTOR, UTAH DEPARTMENT 
                      OF NATURAL RESOURCES

    Mr. Stewart. Thank you, Mr. Chairman. In 1922, the Colorado 
River Compact was entered into between the seven States most 
af-

fected by the Colorado River. An equitable apportionment of 
that river was agreed to after considerable and painful debate.
    The Colorado River is divided into two basins, the upper 
and the lower. The upper basin consists of the States of Utah, 
Wyoming, Colorado, and New Mexico. The lower basin States are 
Arizona, Nevada, and California.
    That Compact requires that, in any 10-year period of time, 
75 million acre-feet of water be delivered by the upper basin 
States at Lees Ferry, which is immediately below Glen Canyon 
Dam. And that is, if you will, the highest priority on the 
river, except perhaps the Mexican treaty obligation that has 
already been discussed here.
    Unfortunately, the river does not work on averages, which 
apparently the EDF study is based on. The flow at Glen Canyon 
or, excuse me, Lees Ferry can vary from 5.8 million acre feet a 
year to over 24 million acre feet a year. Yet, the obligation 
to deliver 75 million acre feet in any 10-year period remains.
    The storage in Lake Powell is absolutely essential for the 
ability of the upper basin States to meet that obligation to 
the lower basin States. If Lake Powell were drained, water 
would be taken from the taps along the Wasatch Front and Salt 
Lake City, because the Central Utah Project brings water from 
the Colorado River basin to the Wasatch Front.
    The State of Utah cannot rely on its ability to--with the 
other upper basin states--meet that obligation to the lower 
basin States without Lake Powell storage. It is that simple.
    In addition to the Central Utah Project, obligations to 
Native American tribes in the Uintah Basin and the eastern part 
of the State of Utah would be at risk. And, in addition, 
current plans to bring water to southwestern Utah, one of the 
fastest growing areas in the entire country, is dependent to a 
large extent on a proposed pipeline from Lake Powell to 
Washington County and other areas in Southwest Utah.
    So, again, there is an absolute obligation to meet that 75 
million acre-feet to the lower basin States. And it cannot be 
met without storage in Lake Powell.
    Besides the water storage, secondary benefits have already 
been mentioned--the hydropower, the recreation. The State of 
Utah, along with the other Western States, are always told we 
have to free ourselves from this historical ``Old West'' 
mentality of being dependent upon natural resource jobs. Forget 
about mining. It's a historical oddity. Forget about grazing 
cattle and sheep. It's evil. Let's get rid of all of this oil 
and gas production, become dependent, or at least more 
dependent, on tourism.
    Well, people in this part of the State of Utah have become 
dependent on tourism. They have accepted that challenge. And in 
excess of $400 million a year is generated by those millions of 
visitors that come to Lake Powell. Are we now going to remove 
that option for the people in Southern Utah as a way of 
sustaining an economic base?
    Lake Powell (Glen Canyon Dam) is a natural resource, but it 
is also a public resource. It belongs to every one of us. And 
when any group, especially a group with the reputation and the 
influence of the Sierra Club, comes forward and makes a 
proposal, they have an obligation to answer certain questions, 
I believe.
    One of those questions has to be: ``Where will Utah and the 
other upper basin States get its water if Lake Powell storage 
is removed?'' The population in the State of Utah is booming. 
We're currently slightly over 2 million people. In the next 20 
years, it is estimated we will add another million people. 
Where will water come from if we are not allowed to develop our 
full Colorado River allocation?
    It has been stated that we can put the water in Lake Mead. 
The Bureau of Reclamation just a few minutes ago indicated what 
a foolish notion that was. But if I may point out this, earlier 
this year, environmentalists brought a lawsuit to stop the 
increased storage at Lake Mead because of its impact on the 
Southwest willow flycatcher, an endangered species.
    Lake Mead is currently rising because the Colorado River 
has begun to flow at heavier levels than it has over the last 6 
or 7 years. The natural increase was going to destroy willow 
habitat. Environmentalists brought a lawsuit to require the 
Bureau of Reclamation to not allow that increased storage to 
happen.
    The second question that I think needs to be answered is, 
``Why is the recreation that may be available to an additional 
15,000 to 20,000 people, which is what is estimated will be 
allowed to use Glen Canyon if it is restored, be superior to or 
a higher priority than that recreation that is currently 
available to about 3 million Americans?''
    Additionally, ``Where will the replacement power come 
from?'' ``Where will the repayments to the Federal Treasury for 
the dam come from?'' `` Who will pay for the cost of 
restoration? Where will the millions and millions of tons of 
silt and other materials that are found in Lake Powell be moved 
to? And who will move them? At what cost to taxpayers or 
others?''
    These are legitimate questions. And, again, my assertion 
is, before anyone comes and starts talking about the use, or 
the change in use, of any public resource, they have an 
obligation to answer these legitimate questions. And I believe 
those answers have not been forthcoming to this point. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Stewart may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Stewart.
    Rita Pearson. I turn the time to you, madam.

  STATEMENT OF RITA PEARSON, DIRECTOR, ARIZONA DEPARTMENT OF 
                        WATER RESOURCES

    Ms. Pearson. Good morning, Chairman Hansen and members of 
the joint Subcommittees. My name is Rita Pearson, and I am the 
Director of the Arizona Department of Water Resources.
    Thank you for the opportunity to speak on behalf of the 
State of Arizona. My testimony today will focus on Arizona's 
primary concerns with the draining of Lake Powell, a proposal 
which we adamantly oppose. I've submitted written testimony 
that provides additional details. And I will refer to it 
periodically during my testimony.
    I would also like to acknowledge the submission of 
testimony from Governor Jane Hull, Arizona's Governor, on 
behalf of the State of Arizona as well.
    Draining Lake Powell cannot be seriously considered for 
many reasons. But the principal reason is because life as we 
know it here in the West would be impossible without Lake 
Powell Reservoir. It is one of the keystone facilities used in 
managing the Colorado River basin system and the hydroelectric 
power resources generated from it.
    Draining Lake Powell would have serious impacts on water 
supplies in the lower basin States, Arizona, California, and 
Nevada, as well as creating environmental and economic 
hardships, specifically in the State of Arizona.
    As has been mentioned a number of times this morning, Lake 
Powell can store 25 million acre feet or more of Colorado River 
water. That's 42 percent of the storage capacity of the entire 
Colorado River system.
    Lake Powell is the upper basin's insurance policy, because 
with it, the upper basin cannot guarantee annual deliveries to 
the lower basin of 7\1/2\ million acre feet pursuant to the 
1922 Interstate Compact.
    The Colorado River is one of the most erratically flowing 
rivers in the United States. It has flows as high as 23 million 
acre feet in 1 year and as low as 5 million acre feet in 
another.
    With my testimony today, I submitted a chart which shows 
annual inflows into the Colorado River above Glen Canyon Dam. 
You will see that it's a roller coaster. No 2 years are alike. 
In fact, talking about averages as we have heard today from the 
Sierra Club is absolutely meaningless without a reservoir 
system. And because of this, if the storage capabilities of 
Glen Canyon Dam and Lake Powell are eliminated, future Colorado 
water supplies in the lower basin States will be critically 
jeopardized. It will be a water resource feast or famine.
    Seventy percent of the natural inflows flowing into Lake 
Powell occur during the months of May, June, and July. The only 
way we can capture the runoff is through reservoir storage. 
Without Lake Powell, the Bureau of Reclamation's modeling 
indicates that shortages in the lower basin could occur as 
early as the year 2006, almost 20 years earlier than had been 
projected. And I note, we are projecting shortages today 
without the elimination of Lake Powell. But eliminating that 
storage capacity reduces supplies and makes shortage a 
possibility much sooner.
    Arizona is particularly vulnerable to shortage. As a result 
of the 1968 Colorado River Basin Project Act, the water supply 
through the central Arizona project into central and southern 
Arizona is the lowest priority water in the lower basin.
    During such a shortage, as a result of Lake Powell 
drainage, the CAP could see diversions reduced to zero as early 
as 2051. Without Lake Powell, as I mentioned, as early as 2006, 
the probability of shortage jumps to 25 percent or once in 
every 4 years. By 2051, shortages could occur one-third of the 
time.
    We have noted that 600,000 acre feet of evaporative storage 
disappears every year from Lake Powell. That is a cost--that's 
the insurance premium that we buy in order to guarantee 27 
million acre feet of storage. That is a very important storage 
capacity for the lower basin system.
    To give you an idea of how important the CAP is to Arizona, 
it provides water to Maricopa, Pinal, and Pima Counties where 
3\1/2\ million acre people live. More than 2.4 million people 
live in Maricopa County alone, which is the home to Phoenix, 
Arizona, the sixth largest city in the United States.
    Currently, the majority of our water is delivered to 
agriculture, but with each passing year, more and more of that 
water is delivered to cities, cities that do not have the 
flexibility of retiring ag. land. There is an ongoing demand 
that does not cease regardless of drought conditions.
    I would also point out, the Southern Nevada Water Authority 
would be greatly jeopardized as well. Their intake pump is set 
at 7.3 million acre feet of storage in Lake Mead. If all of the 
demand is drawn off of Lake Mead, we would have serious 
shortages in both Southern California and Southern Nevada.
    The drought referred to earlier between 1986 and 1993 took 
20 million acre feet of storage out of the system. If that was 
borne solely by Lake Mead, Nevada's intake pumps would have 
been left high and dry. Twenty million people are served by 
supplies in the lower basin by water from the Colorado River.
    In addition to drainage problems from Lake Powell, that 
would also cause problems from Lake Mead. Annual storage in 
Lake Mead would be reduced as well. And you would have to 
manage the system either for a drought condition or for a flood 
condition. In other words, if you're managing for a drought, 
you have to maximize the storage in Lake Mead. But when the 
flood hits, you have nowhere to put the water. It goes down 
streams. And downstream communities like Yuma, Bull Head City, 
Lake Havasu City would be greatly jeopardized.
    In addition to that, you have more than 30 years of 
sediment trapped behind Glen Canyon Dam. The estimates are that 
between 65,000 and 100,000 cubic yards of sediment are annually 
gathered behind Glen Canyon Dam.
    When Lake Powell dries out, the sediment will evaporate. It 
will move into the air. We will have air quality problems 
throughout the West as well as water quality problems from the 
selenium and heavy metals in the sediment.
    Three years ago, the lower basin States entered into a 
multistate State habitat conservation plan. That plan is 
designed to protect over 100 plant and wildlife species 
dependent upon the lower Colorado.
    Our ability to protect those species is directly dependent 
upon the water supply. If we lose Lake Powell, all of our 
flexibility in the system is managed off of Lake Mead. We will 
be unable to protect those species as we have planned to in 
joint agreements with the Interior Department, environmental 
groups, and Indian tribes as well. Mr. Chairman, I see I am out 
of time. I have a bit more testimony, but I would be happy to 
stop.
    Mr. Hansen. How much time do you need?
    Ms. Pearson. Probably another 2 minutes.
    Mr. Hansen. I'll give you an additional 2 minutes.
    Ms. Pearson. Thank you, Mr. Chairman. Let me briefly touch 
upon the visitation at the Glen Canyon recreational area, 
including Lake Powell. We've talked about 3 million people a 
year visiting there. The canyon is now open in a way it never 
was before. As has been talked about by the previous panel, it 
has the second largest number of overnight stays of any park in 
the national system. Forty-two thousand people annually float 
the river. Seventy thousand now visit Rainbow Bridge, a 
national monument that was not readily accessible because it 
was 6 miles into very difficult territory.
    The annual economic impact to the tiny Arizona communities 
like Marble Canyon and Vermillion Cliffs that are associated 
with the Lees Ferry fishery are estimated to be $5 million 
alone. Draining Lake Powell would shut down the blue ribbon 
trout fishery known as Lees Ferry. And 8,000 people reside in 
Page, Arizona, where tourism and the Navajo Generating Station 
are the principal types of employment there.
    Mr. Chairman, I could go on and on about the impacts of 
draining Lake Powell. But let me first and finally point out 
that there is an old saying that they use in the West, that 
water is just around the corner. It is just over the next hill. 
That is no longer the case in the West. We have identified and 
quantified all of the available supplies of water. We are 
facing shortages today without the draining of Lake Powell. To 
exacerbate it would be irresponsible. I would like to suggest 
that we use history as a guidepost, not a hitching post. Thank 
you.
    [The preparerd statement of Ms. Pearson may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much. Our next witness is Mark 
Whitlock. He's accompanied by Shelia Reed, Project Manager, 
Environment Protection Department of FAME Renaissance. Mr. 
Whitlock.

     STATEMENT OF MARK WHITLOCK, EXECUTIVE DIRECTOR, FAME 
                          RENAISSANCE

    Mr. Whitlock. Mr. Chairman, members of the Subcommittee, 
ladies and gentlemen, we appreciate the opportunity to be here 
today to share some of our concerns we have regarding the 
Sierra Club and the Glen Canyon Institute's proposal to drain 
Lake Powell.
    My name is Mark Whitlock. And I serve as a minister of 
First A.M.E. Church led by Dr. Cecil L. Murray. We have some 
14,000 members. And we are all on one accord with this issue.
    We believe that water is important. We believe it sustains 
life, offers new life, provides a preservation of life. Thus, 
we believe we must retain Lake Powell. Certainly, as the city 
of Los Angeles grows by some 210,000 people per year, and 
possibly by the year 2020, we will have some 21.5 million 
people in the city of Los Angeles, State of California.
    We're concerned that if there is not enough water 
available, then we will have to go out and spend an enormous 
amount of money finding the supplies for them. Clearly, Lake 
Powell provides that surplus, that water needed to sustain 
life.
    If we have to spend more money on new water supplies, then 
there will be a cost incurred for that research, that new 
project. And that cost, unfortunately, reflects back on our 
ratepayers or our community, our constituents, whose water 
bills will increase.
    Well, that's where the rubber meets the road for us. 
Clearly, in south central Los Angeles, where we suffer from the 
poverty of money, an unemployment rate of anywhere from 16 
percent, in some areas of our community as high as 50 percent, 
a poverty rate in our community of 25 percent. So any increase 
in water, any increase in bills takes food out of the mouths of 
our children. So we--we clearly believe water is important. 
Thus, Lake Powell is important.
    Why not look at another program? Why not look at another 
way to provide resources to continue working within the system? 
We support a project that we work closely on with the 
Metropolitan Water District and other agencies within the city 
of Los Angeles. That project, we call it a water conservation 
program.
    Most toilets, shower heads in the city of Los Angeles are 
rather antiquated. One flush could result in a loss of 9 to as 
much as 16 gallons of water. Clearly, if you take a piece of 
tissue and put it down the drain, 16 gallons of water gone.
    Well, a partnership with the Metropolitan Water District 
results in a savings of water. Five years ago, they offered us 
the opportunity to exchange the old guzzler, 9 to 16 gallons 
per flush for a new guzzler, 1.6 gallons of water per flush.
    We thought it was a bit strange to offer that program to 
First A.M.E. Church, an organization that has allowed certainly 
minister--allowed Martin Luther King to come over our pulpit, 
Mandela, even President Clinton has offered a few words over 
our pulpit. We thought it a bit strange to talk about toilets 
over the pulpit at First A.M.E. Church.
    Well, we did support the program. And they paid a small fee 
for that program. And out of that program, we were able to hire 
men, women who were unemployed or underemployed, some 30 of 
them, to be exact. And they started exchanging toilets.
    The agency wanted just 100 a week. These men, women started 
exchanging toilets to the tune of a thousand a week. And within 
a 2\1/2\-year period, we exchanged some 84,000 toilets, 
resulting in a savings of 68,710 acre feet of water. They saved 
some billions of gallons of water. A program that works, a 
program that works within the system, certainly not the extreme 
of eliminating Lake Powell.
    So, today, we support the retention of Lake Powell for all 
the right reasons. And we challenge, certainly, other agencies 
to develop a partnership, a partnership that saves water, a 
partnership that creates jobs, lowers water bills, and at the 
same time, preserves the Colorado River and certainly supports 
the continuation of Lake Powell.
    We thank you for the opportunity to be here today. We 
certainly welcome any questions that you may have, Shelia Reed 
and I. I'm Mark Whitlock. Thank you so much.
    [The prepared statement of Mr. Whitlock may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Whitlock. I appreciate the 
testimony of all of our witnesses. We'll now go to the 
Committee for questions of the witnesses. I would like to hold 
you to the 5 minutes, if I could. We'll start out with Mr. 
Doolittle.
    Mr. Doolittle.  Ms. Pearson, I would like to refer to 
your--the graph you supplied with your testimony. If we were to 
drain Lake Powell and thus Hoover Dam and Lake Mead would 
become the main regulating reservoir in the Colorado River 
system, I'm just wondering, looking at this, it looks like in 
1979 that you had 17 million acre feet. And yet, in 1980, there 
were 5 million acre feet for a difference of 12 million. And 
then you go into, it looks like, 1981, you had 8 million; and 
then 1982, you had 23 million for a difference of 15. I just 
can't imagine how would you ever purport to manage this--your 
manager would have to be wrong at least half the time, I would 
think.
    Ms. Pearson. That's correct, Congressman. There is no 
perfect predictor out there. And so that's why we have the 
reservoir system. That is the only way we can manage this 
system.
    Mr. Doolittle. Well, that would be a very substantial 
drawback, even for those who are arguing that this is a 
desirable to go to one. Certainly, this would seem to be 
irrefutable evidence that there would be no way you could ever 
manage. And if--I assume flood control would get the highest 
priority amongst the multiple uses. And if that's the case, 
then you're going to create plenty of flood reservation storage 
in case you get a year of 23 million acre feet flowing in as 
opposed to 5 million like the year before. Let me ask Mr.--is 
it Werbach? Is that----
    Mr. Werbach. Werbach.
    Mr. Doolittle. Werbach. Thank you. Mr. Werbach, how do you 
react to this chart?
    Mr. Werbach. Well, right now what we're asking for is 
solely an environmental assessment of this proposal. And all 
these things would need to be looked at very carefully. What 
this would require would be the Bureau to be a more effective 
manager of those water resources.
    Mr. Doolittle. So you're saying--I'm sorry. I was 
distracted. But you're indicating you're just calling for the 
study rather than making a claim that we can live with this?
    Mr. Werbach. The Sierra Club advocates the draining of the 
lake. But we believe right now we need to look at a lot of the 
facts that a lot of the other witnesses raised right here, to 
look into the issue and to examine them and to begin a 
conversation with society to see where we come out.
    We believe that, after looking at the facts, people will 
believe this is the right course of action. But we wouldn't be 
so bold to say that all those facts are already in hand.
    Mr. Doolittle. Well, given the testimony you've heard 
today, which I guess you could say we've begun the 
conversation, does this concern you, the ability to properly 
manage the river when you tear down the--one of the main 
reservoirs on it and have this kind of annual fluctuation like 
history shows we've had?
    Mr. Werbach. That would certainly be one of the issues that 
we'd look into.
    Mr. Doolittle. OK. You state in your testimony in the not 
too distant future Lake Powell, like all the reservoirs, would 
be rendered useless for water storage and power by incoming 
silt. What do you mean when you say ``the not too distant 
future?''
    Mr. Werbach. Well, if we use the Bureau's figures of 700 
years for total filling of the silt of the dam, in about 250 
years the outlet tubes would be inundated. And at that point, 
the dam's effective use as a power generation plant would be 
essentially useless.
    Mr. Doolittle. So you had in mind, then, their figures of 
say 250 to 500 years.
    Mr. Werbach. If we use those figures. There are other 
figures that suggest that those numbers would be between 70 and 
125 years.
    Mr. Doolittle. All right. But, I mean, I'd say that 250 
years is a fair way into the future.
    Mr. Werbach. Well, it depends on what your level of horizon 
is. Two hundred fifty years for the destruction of one of the 
canyons that took millions of years to create is really not 
that long. In a geologic sense, 250 years is really nothing.
    Mr. Doolittle. Well, that is longer than we've been a 
country. It's long for Americans. Maybe it's not long for 
Europeans. Let me ask you this: If we do tear it down so that 
we have to have more storage, then, would the Sierra Club 
support the inundation of additional river miles that are 
currently upstream of Lake Mead in order to compensate for the 
loss of storage behind Glen Canyon Dam?
    Mr. Werbach. Well, we don't believe that you should fill up 
Lake Mead to an extraordinary level that would be unsafe. We 
wouldn't suggest that. And let me clarify one thing. The Sierra 
Club is not suggesting that we tear down Glen Canyon Dam. We 
are only suggesting that we bypass it.
    Mr. Doolittle. OK. Bypass it. That is true. Well, then, 
you've heard the testimony that it has to go somewhere. 
Wouldn't that be a necessary consequence of bypassing Glen 
Canyon Dam that you would have to store more water in Lake 
Mead?
    Mr. Werbach. Well, some of the water would be used to 
fulfill our treaty obligations to Mexico. The water would flow 
through.
    Mr. Doolittle. Well, our treaty obligation to Mexico is, 
what, 1\1/2\ million acre feet? So I mean, out of the total 
number of acre feet in this system, that's relatively small. So 
we're going to have to put the water someplace. And I guess I'm 
just trying to see if the Sierra Club is going to advocate 
this, and if we were to act on it, then what would your 
complete proposal be? How would we provide for the storage 
needs? I mean, would you support the construction of a dam 
someplace else to store it?
    Mr. Werbach. Let me refer back to the EDF study that I have 
quoted. Let me read a paragraph from it. Let me use something 
that I cutoff from my testimony because I was running a little 
long. Information prepared by the Bureau of Reclamation itself 
in July 1997 addresses the issue of draining Lake Powell and 
says that the difference between the average annual inflow to 
the reservoir and current upper basin use is, quote, enough to 
satisfy the Colorado River Compact obligation of 75 million 
acre feet for 10 years to the lower basin without needing the 
storage of Lake Powell.
    In addition, recovered evaporation losses from Lake Powell 
would help to meet any potential deficiency in the Mexican 
treaty obligation. That's in this document that was prepared by 
the Bureau of Reclamation.
    Mr. Doolittle. My question to you is--can I have a couple 
extra minutes?
    Mr. Hansen. The gentleman is recognized for two additional 
minutes.
    Mr. Doolittle. Thank you. How are we--since--I mean, yes, 
an average is just a theoretical number given the way the 
Colorado River actually works, as demonstrated by this chart. 
But how would we practically manage the river for flood 
control, water supply, power generation, to name three 
important things, not to mention the recreation and 
environmental aspects, but how would you manage those three 
things without having more storage?
    Mr. Werbach. It is a river, and rivers flow. It's only our 
obstructions on the river that have stopped and made those 
impoundments. Now, as I said, you would be able to have enough 
water to fulfill the Compact obligations, but it would be 
letting more water flow through the river.
    Mr. Doolittle. Well, yes, it's a river, and rivers flow. I 
think we'll all stipulate to that. The problem is sometimes 
they flow very slowly, and sometimes they flow in raging 
torrents. And the Colorado River is an extreme example from 
that. And it can go from one extreme in 1 year literally to the 
other in the next year.
    So how do the river managers manage this river in such a 
way to meet the power and the water and the flood control 
needs? I don't see how they could possibly do it without having 
more reservoir storage?
    Mr. Werbach. There is plenty of water. The question is who 
gets it and how much they pay for it.
    Mr. Doolittle. Well, sometimes there's too much water. 
Sometimes there's not enough. You heard testimony from Mr. 
Stewart that the upper basin will be without water in a 
sustained period of drought, which happens every few years. I 
think we heard testimony there was a 6-year drought for a 
while. Now, we've got El Nino hitting us in the West this year.
    So I just--I don't want to be argumentative with you, but I 
mean rivers flow. That's exactly the point. That's why we 
have--you're going to tear down--not tear down. You're going to 
bypass the second largest reservoir on this Colorado River 
system. And when you do that, you're going to tremendously 
limit the flexibility to manage for all these other important 
values.
    So telling somebody that has lost his house that, while 
rivers flow, or somebody that's, you know, on water rationing 
because they have flowed out trying to have enough reservation 
for flood storage, it turned out to be a miscalculation, I 
mean, that doesn't really satisfy for us.
    I think you're going to--before you can move your idea, 
you're going to really have to come up with some answers for 
what you do when you eliminate essentially 27 million acre feet 
of storage that we presently have behind Glen Canyon Dam. Thank 
you, Mr. Chairman.
    Mr. Hansen. The gentleman from Minnesota.
    Mr. Vento. Thank you, Mr. Chairman. I was not here earlier. 
I just wanted to make the observation that I think that this 
hearing sort of underlines the importance of land use decisions 
we make on the Committee. And that, very often, they are almost 
irreversible in terms of the consequences they have.
    In this instance, as I look at the witness, the list of 
witnesses, both in recreation and economic and other factors, I 
mean, really, this dam has set down a land use pattern--a land 
use pattern in terms of population and use that is very 
difficult to change.
    So it's one thing to look at the physical geography of this 
and the changed view of an individual, Mr. Brower, and then 
others to try and talk about how this is going to be or could 
be accomplished, because it makes it very difficult in terms of 
turning that away.
    Of course I visited this site, realized tremendous 
recreation park designations have gone on based on the fact 
there is a reservoir there. It's one of those things we 
designate, I guess, parks for recreation purposes for certain.
    So I think, though, as we look ahead, I mean, there may be 
physical or other problems that do exist with this. I realize 
there is some points about--I mean, it is an efficient use. 
This water isn't going to be running into the ocean. It goes 
someplace before. And, as you said, for safety or for other 
reasons, if you were just doing this for safety reasons, you 
probably would have a much different type of facility than you 
have. And a lot of it is lost, as they point out through, 
evaporation. And the argument here is whether it's a million or 
half million acre feet that are lost and treaty obligations and 
other issues.
    But I think it's useful to have the hearing in the sense 
that--and further review of the issue. I don't know what--if, 
in fact, there is a real interest in doing an environmental 
impact statement or a study. I note that there is a volunteer 
group that is going to go ahead and move with that.
    In fact, we have begun to modify in 1992 the policy path 
for the--for how the water levels in Glen Canyon were, in fact, 
managed, to look at the restoration of some of the beaches and 
some of the other. Because, you know, it dramatically has 
changed the whole system, the geography and the ecosystems down 
river. And I don't know the answers to this. It's pretty much 
if you just say you're going to bypass it and go without it, 
you left behind millions of people or more--millions of people 
and rate users and others that have obviously a vested 
interest. They have come to depend upon this. And so you 
clearly cannot move, you know, in that direction without--
without considering what the consequences are.
    And I think, at this point, just as when Don Hodel, 
Secretary of Interior, I think was Secretary, then came in and 
said, let us take Hetch Hetchy down or bypass it or drain it. 
It was another question.
    But I think there is a growing realization of some of the 
consequences of these type of structures of an age--I don't 
know what the age is on this one. I know that, looking at Elwa 
Dam, which had been there for--since the thirties, 50, 60 
years, it looks like it would stand there another 100 to me the 
way it looked. It looked like it was in pretty good shape. Yet 
we're not using it. That's a much smaller scale problem than 
the problem that is clearly being presented here, a much 
different purpose, a much different use.
    But these are expensive to maintain. They represent some 
serious problems in terms of what the consequences are as we 
look today. So, you know, one of our jobs is to get new 
information, to get new knowledge, and to translate it into 
public policy. That's what we do here. That's what we're 
supposed to do.
    And, obviously this--there is certain--you know, 
recognizing our errors, and we all make them, I guess. If we 
pass perfect laws, we wouldn't have to be meeting here every 
year. But we know that they're imperfect.
    But I think it's a viable question to raise. Everyone 
raises questions about what happens to the population of the 
West if you do this. This is a legitimate concern for certain 
as much as they might think that we're--you know, most of us 
are concerned about that. We want to do reasonable and 
cognitive things.
    So I think that's the spirit in which I take this. I 
understand that, right now, there are all sorts of technical 
questions we could ask about Glen Canyon, whether California is 
overappropriating water, whether Colorado is overappropriating 
water, whether there are treaty problems with Mexico. I think 
the answer to those are all yes.
    So this is going to be an ongoing issue in terms of where 
we go, and the physical condition of this dam, whether it could 
meet the expectations and all the goals that it has. But we 
ought to be looking at alternatives. And certainly, you know, 
one of them may be looking at what--how we can better manage 
this to address some of the concerns and what we're going to do 
in the future in terms of this infrastructure as it ages. It 
won't happen--I don't know if it's going to be 250 years. I 
would say more like 50 years. So I'm really scaring Mr. 
Doolittle.
    Mr. Hansen. Thank you, Mr. Vento.
    Mr. Vento. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    Mr. Werbach, you suggested or said very clearly that the 
Sierra Club advocates the draining of Lake Powell and that your 
purpose now is to start a dialog. It seems to me that the chart 
that Mr. Doolittle is talking about which shows the annual 
variation in runoff in the Colorado River above Glen Canyon Dam 
is one of the most significant elements in any kind of decision 
to change the usage of the dam or eliminate the dam.
    And my normal course is to ask short questions and add to a 
record. What I would really like to do is give you some time to 
talk about that chart, those variations in yearly flow, and 
how, in this very complicated set of issues, you expect that to 
sort itself out.
    I've truly been trying to understand what your position is. 
I've made a list of the various goals that you would like to 
change or balances that you would like to change. But it seems 
to me that, in the end, you come down to how you control the 
water that runs through it and what you do.
    Would you mind just taking a few minutes? What I would like 
to do is give you the time to advocate that position. Whether 
this discussion goes on any further really is going to turn on 
that, I think.
    Mr. Werbach. I appreciate the opportunity. Once again, you 
know, there are very serious environmental issues at stake 
here. The fate of the Grand Canyon is at stake here. And we 
have issues that we need to talk about. What we're advocating 
now is that we look into these issues through an environmental 
assessment and examine what's happening. What I would like to 
do is turn it over to Dave Wegner, who is more familiar with 
these issues specifically to respond to your question. Dave.
    Mr. Cannon. That would be fine, but let me just point out 
that you're advocating draining the lake. That's what the 
position of the Sierra Club is and that's what you voted on. 
And so I would very much like to hear from Mr. Wegner what--how 
the control of the extreme flows fits into the purposes that 
you're trying to accomplish here.
    Mr. Wegner. Well, Mr. Congressman, my name is Dave Wegner, 
and I am from Flagstaff, Arizona. And I'm a member, Vice 
President of the Glen Canyon Institute. And I'm here today to 
help with some of the technical issues----
    Mr. Doolittle. Mr. Chairman----
    Mr. Wegner. [continuing] that was just referred to.
    Mr. Doolittle. Mr. Chairman, I do not wish to offend 
feelings here. I thought Mr.--he was on the fourth panel. Is he 
now going to join the second panel?
    Mr. Hansen. Mr. Doolittle had objected to Mr. Wegner coming 
on to the second panel. And I allowed him to sit there if Mr. 
Werbach needed some information from him. No one objected to 
your objection, so I respectfully point out that you can 
respond to that in the following panel, third and fourth panel. 
I apologize. We don't want to offend you in any way. We do want 
to hear your testimony.
    Mr. Cannon. Thank you. I'll look forward to that. If I can 
just then redirect my question to Mr. Werbach. You may just 
take the time to set forth, not the emotion behind this, but 
how the various factors that you're concerned about fit 
together. Let me just list them for you.
    You're concerned about evaporation. The water presumably 
could be used to go into the Sea of Cortez. Concern about the 
danger of dam failure. The esthetics of the canyon are a major 
issue here, and I think may be the most important issue. And 
I'm not sure. I would like you to tell me that.
    The concern with what is happening with the Sea of Cortez 
on the other side, this water is not likely to make it to the 
Sea of Cortez anyway except in those years when we have 
dramatic runoff. And the lost habitat versus some of the gained 
habitat that you have there, those are issues that I would like 
to hear you address for a few minutes.
    Mr. Werbach. Mr. Congressman, what I would like to say to 
you is that I am not an expert on the specifics of all these 
issues. That is why we do have a staff at the Sierra Club who 
works on the issues as well as experts who are on the other 
panels for you.
    Mr. Cannon. But I'm not asking technical questions. We can 
get back to Mr. Werbach--I'm sorry, Mr. Wegner, when he is on. 
What I would like from you--what I want to do is just give you 
the opportunity to make--to present just a few more points, 
make a cogent case as to why we should actually begin the 
dialog that you're asking for.
    Mr. Werbach. Absolutely. Well, let's speak about, first, 
the native fish populations in the Grand Canyon. We're already 
seeing die-off of isolated and aging populations, species like 
the humpback chub and the sucker fish that are in the Grand 
Canyon. The cold water that comes from Lake Powell, about 47 
degrees, is too cold to support those fish. Now we need to 
figure out some way too deal with that.
    A few years back, we tried a controlled release into the 
Grand Canyon to simulate a flood. Well, now our experience is 
that this was largely not a long-term success. We did not 
succeed in restoring the Grand Canyon, its beaches, and its 
native fish habitat. So we need to look at other options.
    And when the EIS was done, when the EIS was completed for 
the Glen Canyon Dam, it really didn't look at the option of 
draining the lake. It didn't look at the option there because 
it was deemed infeasible at the time.
    But with new information that we see, both in terms of the 
evaporation rates, which would seem to portend that, if there 
is more water available if you did not have this dam, then it 
would seem likely that we should take the chance to look at 
this issue and reflect and talk about it as a society and see 
what we come up with.
    The Sierra Club has its position. But I understand that it 
will take longer for people to look at this and see the science 
and make these determinations on their own.
    Mr. Cannon. Mr. Chairman, my time is almost up. Can I ask 
unanimous consent for additional minutes?
    Mr. Hansen. The gentleman is recognized for two additional 
minutes.
    Mr. Cannon. Thank you.
    Mr. Hansen. You're welcome.
    Mr. Cannon. What I would like to hear, and maybe Mr. Wegner 
later can do this or someone else may ask. I have asked sort of 
the general question, why should we continue the dialog? And 
what I've heard is that there are a couple of endangered 
species. This is the opportunity. This is the public forum for 
you to have the opportunity to say why.
    I think the issues are much, much broader than that, 
especially when you consider that it's pretty clear now that 
the humpback chub is stable. The squaw fish was not common, 
even before the dam was in place. You have many other fish, as 
you alluded to. So but I think studies show that they're not 
dwindling particularly. On the other hand, you now have some 
endangered species that are thriving in the current habitat.
    So I would just, as a plea, I'm sitting here trying to 
understand this. Now, I used some strong language earlier. 
Before the dam was done, I was very young, but it was a matter 
of grave concern because I love those canyons. Now many people 
get to see those canyons. They do it in boats instead of 
hiking, but they do see the beauty of those canyons, and it's a 
thrilling, wonderful experience.
    I'm really trying to understand why we should have a dialog 
on the issue. And I hope that in the future, as others will ask 
questions, you will take the opportunity to sort of give me the 
broader picture on how it balances together. Thank you, Mr. 
Chairman.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. I first would 
like to thank the panelists for their testimony. And I would 
like to commend the First A.M.E. Church for the programs that 
they have undertaken on behalf of their congregation and the 
community.
    Mr. Werbach, both your testimony and the written testimony 
of Mr. Brower points to a frightening picture of what could 
happen in the area served by Lake Powell and the dam. You also 
say in your testimony that we're not being good stewards of 
this resource. Do you see that we can avoid some of these 
untoward outcomes by being better stewards rather than by 
draining the lake?
    Mr. Werbach. Well, I think the consequence of being better 
stewards is draining the lake. And at first blush, it may seem 
like a strange idea. But the thing was not actually evaluated. 
There was not--the dam was built before NEPA, before the 
National Environmental Policy Act. So an environmental review 
was not done for the dam. In fact, the NEPA review was just 
nonexistent.
    So what we need to do was to look back and see it right 
now. Just because a mistake was made in the past and it would 
be difficult to change, I don't believe that's reason enough to 
say, well, let's ignore it. It would be difficult to do so, we 
should not look at this.
    Ms. Christian-Green. Thank you. You've partly answered my 
second question, and you've really answered it several times in 
responding to several other questions from other members from 
the Committee and Subcommittee.
    But I did come here thinking--and as I listened to the 
earlier testimony, I thought we were talking about the Sierra 
Club having voted to drain the lake. But it's become 
increasingly clear, and I think it's an important distinction 
to make that what the Sierra Club actually did ask for was an 
environmental assessment; is that correct?
    Mr. Werbach. The Sierra Club did vote to advocate the 
draining of the lake, because we felt that was the way to began 
the conversation and to put it on people's radars. But right 
now what we're asking people to do is look at the issue, to 
begin an environmental assessment.
    I understand the Glen Canyon Institute is interested in 
performing it if the administration is not.
    Ms. Christian-Green. I'm sorry, so you say the club is 
willing to do the environmental assessment themselves?
    Mr. Werbach. The Glen Canyon Institute is busy trying to 
raise some funds to do such an assessment. But of course, we 
would prefer if the administration were willing to pay for it 
and would feel more comfortable with the numbers and the 
science that would come out of it.
    Ms. Christian-Green. Thank you for your answers. Are any of 
the other panelists objecting? Do you oppose having the 
environmental assessment done? I understand that you may oppose 
the draining of the lake, but are you also in opposition to the 
environmental assessment?
    Mr. Whitlock. Congresswoman Green, we feel that, clearly, 
we must leave Lake Powell alone. But as we examine Lake Powell 
and the efficacy, efficiency of draining or not draining, I 
think we would like to remind the panel and certainly our 
committee that there are innovative programs that are 
available, practical water conservation programs that deal with 
resource management.
    And I think if we focus time and certainly our dollars at 
resource management, then we don't have to go to the extreme of 
considering draining the beautiful Lake Powell. Our water 
conservation program creates jobs. But at the same time, it 
saves the Colorado River. And that's the real goal here I 
think. And I end with that.
    Ms. Christian-Green. Would anyone else like to respond?
    Ms. Pearson. Congresswoman, I would have to agree with Mr. 
Whitlock and add that we live in a time of very, very many 
priorities. And unless we hear a proposal that has merit, why 
spend taxpayer dollars on something that has not yet been 
justified. I think the burden is on them. And if a private 
organization wants to fund the study, they're welcome to do so. 
But as a taxpayer, I would not appreciate having my money spent 
that way.
    I think we know enough and we are capable of modifying the 
system and protecting endangered species today without 
conducting an additional study and a proposal that can go 
nowhere and cost millions.
    Ms. Christian-Green. I thank you for your answers.
    Mr. Hansen. Thank you. Mr. Shadegg from Arizona.
    Mr. Shadegg. Thank you, Mr. Chairman. I'll try not to be 
too intense about this. But I find what happened here is rather 
shocking. Let me begin by thanking Rita Pearson for her 
thoughtful testimony and for all of her work and to ask 
unanimous consent that the photographs of Lake Powell which she 
brought and the other material which she has brought here which 
show the beauty of that lake and which reveal, quite frankly, 
that a tremendous amount of the beauty of Glen Canyon is, in 
fact, not only not inundated, but as seen now by between 
somewhere between 3 and 4 million people per year and that it 
is a tremendous asset that those all be included in the record 
with unanimous consent.
    Mr. Hansen. Without objection.
    [The information referred to may be found at end of 
hearing.]
    Mr. Shadegg. Mr. Werbach, I have to tell you that I am 
stunned by this proposal. I am stunned by some of the remarks 
that you make. And I'm a little concerned about what's 
happening here today.
    Your testimony concludes with what I consider to be a kind 
of a reasonable proposal. ``The Sierra Club supports evaluating 
the tradeoffs and opportunities and through an environmental 
assessment.'' Perhaps no one could disagree with that. But I 
want the record precisely clear that the board of directors of 
the Sierra Club voted not to study, but rather to drain Lake 
Powell. That's correct, isn't it?
    Mr. Werbach. To advocate the draining; that's correct.
    Mr. Shadegg. And the mission statement of the Glen Canyon 
Institute specifically proposes draining, not studying, 
draining Lake Powell; is that correct?
    Mr. Werbach. I can't speak to the mission statement.
    Mr. Shadegg. It does. And I would like to put it in the 
record without objection, Mr. Chairman.
    Mr. Hansen. Is there objection? Hearing none, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mr. Shadegg. I also would like to point out that the Sierra 
Club did not, in fact, though your testimony suggest you 
represent their 600,000 members, did not, in fact, survey its 
members before taking this involvement. In point of fact, the 
President of the Utah chapter unequivocally stated in the press 
that she opposes this idea and that she was not consulted. Are 
you aware of that, and do you acknowledge it?
    Mr. Werbach. The board of directors of the Sierra Club 
represents the membership of the Sierra Club. We're elected by 
the membership in an annual election. And the Utah Chapter of 
the Sierra Club advocates the studying of this issue as well.
    Mr. Shadegg. You answered neither of my questions. Are you 
aware that she said she opposes it and the chapter opposes it? 
And you, I believe, just did concede that the membership did 
not vote on the issue.
    Mr. Werbach. No, the membership did not vote on this issue.
    Mr. Shadegg. Let me turn quickly to the point that Mr. 
Doolittle brought out. I would just simply say, with regard to 
your comment and your testimony, which I've read in many other 
places in the press, that in the not too distant future, Lake 
Powell will be filled and useless is, quite frankly, I think 
misleading the American people who read those comments in the 
press because, by your own admission, not to distant future is, 
in the early estimates, 250 years. By the long estimates of the 
Bureau, it's 700 years; and by the gentleman who manages the 
dam, it will be 500 years before you will even have to dredge 
to open up the intake tubes.
    Let me turn to another comment. In the Salt Lake City paper 
in this year, you were quoted as saying in an article in the 
Salt Lake Tribune on Sunday, August 3rd: If the Club succeeded, 
succeeded in draining Lake Powell, it would, quote, ``take 10 
years for the lake to drain and another 25 years for Glen 
Canyon to be cleaned up and restored to its former beauty.''
    What basis do you have for the claim that it would be 
completely restored or would be restored to its former beauty 
in just 25 years?
    Mr. Werbach. Well, in 1992, there was a significant 
drawdown of the lake. And what we did see was that a lot of the 
natural features of Glen Canyon actually came forward again. 
There was a bathtub ring, as some people call it, around it. 
But I have every faith in the world that America would have 
jumped into the idea of supporting this amazing restoration 
project.
    Mr. Shadegg. I was on the lake in 1992 and saw the bathtub 
ring. I have spent many, many days there. Do you have a 
scientific study that establishes that it would all be restored 
in 25 years?
    Mr. Werbach. What we are doing is assessing this at this 
point.
    Mr. Shadegg. OK. I apologize for being rude, but I've got a 
lot of ground to cover here. The answer is you do not have a 
study that establishes that.
    Mr. Werbach. Not that I know of.
    Mr. Shadegg. OK. In another article published in--actually 
repeated in a number of places, you say that proposing to drain 
Lake Powell is the perfect test of someone's true colors, and I 
quote, quote, ``it is the job of the Sierra Club to show what 
being green really means.''
    Rob Elliot from my State, a noted environmentalist himself, 
is here to testify strongly against this proposal. Are you 
saying--is the Sierra Club saying that anyone who opposes this 
is not, quote-unquote, ``really green?''
    Mr. Werbach. I would not tend to say--I would not make 
calls on people's environmentalness. I don't do that.
    Mr. Shadegg. Let me turn to some other comments. In an 
article in Outside Magazine, written by Bill Donohue this year, 
April 1997, you say: ``We are going to do the science.'' I take 
it that means that, when the Sierra Club board voted, you had 
not, in fact, already done the science; is that correct?
    Mr. Werbach. That is correct. We are advocating 
environmental assessment.
    Mr. Shadegg. Well, that's not what your resolution said. It 
didn't say that. Your statement here today says you're doing 
that. But the vote of your board was to drain Lake Powell.
    Mr. Werbach. Because we believe that is the best way to 
advocate the draining of Lake Powell, because we believe the 
science will bear us out.
    Mr. Shadegg. Yeah, well, I guess maybe that then fits with 
the title of your forthcoming book, which is mentioned in 
another article that we found, which says that your forthcoming 
book is going to be titled: ``Act First and Apologize Later.'' 
I suggest you don't think that Congress should act first and 
apologize later.
    Mr. Werbach. The idea is that sometime when ideas are 
controversial, they're hard to look at, they're hard to 
swallow. Sometimes society needs to take a moment and move 
forward. Sometimes we need to assess things that may seem 
unpopular, that may seem controversial because these issues are 
critical to our future.
    Mr. Shadegg. Mr. Chairman, may I request, since this is an 
important topic----
    Mr. Hansen. Is there an objection? Hearing none, the 
gentleman is recognized for two additional minutes.
    Mr. Shadegg. Thank you very much.
    In that same article in Outside Magazine by Mr. Donohue, 
the question was raised as to why the Sierra Club is really 
doing this. And Mr. Donahue asks you point-blank, he says: 
``One logical answer is that the Sierra Club is simply 
genuflecting before its aging Arch Druid,'' I can't pronounce 
that word, ``David Brower.''
    You respond: ``That's a huge part of it.'' Do you think 
that we ought to drain Lake Powell as a--in order to pay 
respect to Mr. Brower for which he reports draining Lake Powell 
is somewhat of a grail?
    Mr. Werbach. Congressman, I have great respect for those 
people who are older than me, as there are many of them.
    Mr. Shadegg. Including me.
    Mr. Werbach. Say again?
    Mr. Shadegg. Including me.
    Mr. Werbach. I rely on their advice to move forward. Now, 
Mr. Brower fought this battle during this time. And he knew the 
issues. And many times he corrected the Bureau of Reclamation, 
which was wrong on a lot of figures. They admit that now. There 
are many times when he was right and they were wrong.
    Now he says his action was a mistake at the time. And it 
would seem strange not to take the advice of someone who has 
such sage wisdom and who has helped protect so many fabulous 
places in America.
    Mr. Shadegg. As a matter of fact, he's gone around the 
Nation saying that he has worn sack cloth and ashes for 40 
years. And it seems to me that that may be his perspective. 
That's not a good comment on public policy. I think he's dead 
wrong now.
    Let me--the one last point I want to make out of this 
article goes to the question of what's going on here. And I 
raised this in my opening statement. Mr. Donahue says the real 
motive, they say, these are critics of the Sierra Club, is that 
the Sierra Club, who's average membership is now about 45, is 
desperately trying to appear fresh and hip.
    According to Mark Dowy, author of ``Losing Ground,'' a 
Pulitzer Prize nominated study on U.S. environmentalism, the 
Club's board feels that the best way to attract more youthful 
supporters is to enhance this kind of blind idealism.
    You wouldn't agree with that assessment and you wouldn't 
suggest we make public policy on that basis, would you?
    Mr. Werbach. The Sierra board of directors did not look at 
this issue at all when it was considering this issue in any 
way. I will mention, though, that there is extremely high 
support of this among young people. Young people do understand 
that they have not had the chance to see those canyons. And the 
Congressman to your left said that he has had a chance. 
Frankly, I'm jealous. I've seen Cataract Canyon. I was able to 
raft it twice this summer. And I, one day, would like to be 
able to raft Glen Canyon as well.
    Mr. Shadegg. You can see Glen Canyon if you go there today.
    Mr. Hansen. I thank the gentleman from Arizona.
    The gentlelady from Idaho, Mrs. Chenowith.
    Mrs. Chenoweth. I join the gentleman from Arizona and the 
gentleman from Utah in still trying to understand your specific 
reasons. As I understand the reasons why you would like to see 
Lake Powell drained, first of all, you propose that we drain 
the lake, but leave the impoundment facility there, right?
    Mr. Werbach. That's correct.
    Mrs. Chenoweth. And then there would be about 15,000 people 
who would be hiking or floating the river in its natural state?
    Mr. Werbach. I'm not quite sure where you get that number. 
If you look at places like Moab, Utah, you see incredible 
amounts of recreational activities taking place in canyons.
    Mrs. Chenoweth. You also indicated that one of the reasons 
why you would recommend or the Club recommended that we drain 
Lake Powell was because of the humpback chub and the sucker 
fish; is that correct?
    Mr. Werbach. I'm sorry. Can you ask that question again?
    Mrs. Chenoweth. Another reason that you suggested that we 
should drain Lake Powell is because of the humpback chub fish 
and a sucker fish; is that correct?
    Mr. Werbach. Yes. We believe that destroying species that 
God created is not something that humanity should be doing.
    Mrs. Chenoweth. And then finally we heard testimony about 
being able to view the bathtub ring; is that correct?
    Mr. Werbach. Being able to view it?
    Mrs. Chenoweth. The bathtub ring.
    Mr. Werbach. Yes. We believe that there would be a bathtub 
ring for all of the garbage and crud that's been thrown out of 
those houseboats for all these years.
    Mrs. Chenoweth. Golly, I just find that amazing. I mean, 
you want what's natural but you're willing to drain the lake 
and leave the impoundment facility standing there. Absolutely 
amazing.
    Right now, they have an outstanding trout fishery because 
the water is cooler. And so with the water warming up, there 
would be the greater stripe bass population, which, in turn 
preys, on the chub and the sucker. And I'm sorry, sir, but your 
logic just doesn't add up. But I find your testimony and your 
proposal very interesting. And believe me, I take it seriously.
    I want to ask Mr. Stewart, do you believe that this 
particular proposal threatens the law of the river?
    Mr. Stewart. I think the only way that the obligations 
could be met by the upper basin States to the lower basin 
States would be by changing the Law of the River, which is an 
extraordinarily complicated, delicate compromise which has been 
worked out for that equitable apportionment. And the potential 
for warfare between States would be significant.
    And one of the things that I try to keep in mind is the 
fact that, as I count up the number--the numbers of the Members 
of the U.S. House of Representatives plus the U.S. Senate 
representing the upper basin States versus those of the lower 
basin States, we lose by, as I recall, about a 3 to 1 margin. 
And that's not a real comforting thought for those of us in the 
upper basin States.
    Mrs. Chenoweth. What would be the, in your opinion, the 
environmental impact of this proposal for wildlife and 
vegetation in Utah that are dependent upon the reservoir?
    Mr. Stewart. Clearly, the habitats that have been 
established since the reservoir was created would be destroyed. 
And the impacts on a number of species would be great. But I 
would indicate this further. In order for the State of Utah to 
meet its water needs that would be lost because of the draining 
of Lake Powell, we would end up damming other rivers elsewhere 
in the State. Other habitats would be destroyed.
    And, again, I ask the question--I asked the question 
earlier where why is the right of 15,000 or 20,000 people to 
enjoy a hike or a river run through Glen Canyon superior for 
the 3 million who may enjoy the flat water? Why would the 
destruction of additional river habitats in northern Utah to 
meet our water supply be less of a loss than a potential or 
questionable restoration of a habitat in southern Utah? Those 
are value judgments that are very difficult for me to accept.
    Mrs. Chenoweth. Thank you, Mr. Stewart.
    Ms. Pearson, the work that you do in your capacity as 
director is admirable.
    Ms. Pearson. Thank you.
    Mrs. Chenoweth. And I have learned a lot from all of those 
of you who have testified. But you mentioned in your testimony 
that, without the insurance of water that Lake Powell does 
provide, that property values downstream could go down.
    Could you, to the degree we have time, expound on this and 
expand on this? And, in your opinion, if we drain Lake Powell, 
and the property values go down, wouldn't this require that the 
U.S. compensate, under the constitutional requirements, 
compensate for that loss?
    Ms. Pearson. Thank you, Congresswoman. There would be very 
local impacts. And in my testimony, I talked about the 
immediate impact to Page and surrounding communities that rely 
on tourism as a major source of income to those communities. 
The property values, obviously, adjacent to Lake Powell would 
be dramatically impacted. There would be no resource base on 
which to stimulate the economy. Those taxes, of course, support 
the infrastructure. You would have impacts on schools, medical 
care, et cetera. It's a very local impact.
    On a regional basis, in particular, Arizona, we have a 
program known as 100-year assured water supply program which 
applies to all the major urban areas of the State. And what 
that does is guarantee to families, businesses that come into 
our area, that before they can develop, there has to be a 100-
year assured water supply, a committed stable affordable water 
supply of high quality water available to them.
    We are assuming that we have the Colorado River entitlement 
available to us to meet that demand. Without it, we would be 
forced to go back on groundwater. Groundwater is a finite 
source of water. We would lose that supply of water in a very 
short period of time. We would have inadequate amounts of water 
to meet the long-term demand in our communities. That would 
have a dramatic impact on property values. Obviously, we could 
not sustain our current population. Similar concerns, I think, 
can be expressed both in southern Nevada as well as southern 
California.
    Mrs. Chenoweth. Thank you. And, Mr. Chairman, I want to 
commend Mr. Mark Whitlock on his testimony and on the program 
that he has led in embarking on the installation of water-
efficient shower heads and toilets. And believe me, your 
testimony was refreshing to hear. Keep up the good work. Thank 
you.
    Mr. Hansen. Thank you for the testimony of all the folks.
    Mr. Vento. Mr. Chairman, may I take my 2 minutes now? I'll 
take 2 minutes if I can have unanimous consent.
    Mr. Hansen. The gentleman from Minnesota.
    Mr. Vento. I don't quite share the sense of shock of my 
colleagues. I feel like it's a scene out of Casablanca here. 
They're shocked that the Sierra Club would be in favor. 
Frankly, I mean, in terms of some of that idealism, while I 
don't think, you know, that we're quite ready to act on this 
particular proposal I think is a good quality. And I hope that 
the Sierra Club and other groups that are involved from both--
whatever view maintain that.
    As far as studies are concerned, I think we spend a lot of 
money, at least we should be spending dollars on this important 
resource. I think there are a lot of questions raised by this 
in terms of what happens with the soils and the accumulation of 
sediments that--I heard some talk about various types of heavy 
metals and other things that are accumulating there.
    And these, frankly, represent like some of the questions 
dealing with nuclear waste, you know, it's almost a problem 
from the mining to the disposal of the high-level waste.
    And I think these dams and some of the other water 
structures that we're involved with in the West have some of 
the same sort of questions that are being raised. So as far as 
environmental assessment, which is a--I would expect that the 
Bureau of Reclamation and other authorities there are almost on 
a constant basis looking at the nature of the reservoir and the 
angle of repose, the other soils and the rate at which it's 
filling and other questions that are important. You know, there 
is a blue ribbon trout stream downstream. A lot of us who fish, 
we like that particular quality.
    So we have dramatically changed this area. There are some 
positives to it, I guess, and a lot of other aspects that are 
not. But as we get new information, we have to be willing to 
look at it. I understand the position of the Sierra Club in 
this area, but I don't think that we should be opposed to 
obviously getting adequate information concerning this. Thank 
you, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Stewart, in your testimony, 
maybe I got this wrong, but you said, in Lake Mead, as it was 
drawing down, that a certain amount of willows were created, 
and this became a habitat for willow flycatchers; is that 
right?
    Mr. Stewart. Southwest willow flycatcher, yes.
    Mr. Hansen. And now one of the proposals we have in front 
of us is to fill up Lake Mead with the water from Lake Powell. 
But you also stated that there was an environmental group that 
had filed a lawsuit to prohibit Lake Mead from coming up, as it 
would destroy that habitat; is that correct?
    Mr. Stewart. That's correct.
    Mr. Hansen. Is the Sierra Club enjoined in that lawsuit, 
Mr. Werbach?
    Mr. Werbach. I am not sure. I will check with my staff and 
get that into the record.
    Mr. Hansen. Kind of a little paradox there. On one hand, 
you know, if you say that we want to a fill Lake Mead with Lake 
Powell; yet, we're in a lawsuit to prevent the flycatcher's 
habitat. It would be just a tad of a paradox or maybe an 
inconsistency. I don't mean to make a big deal out of that. But 
it strikes me rather odd that the environmental community who 
would advocate draining Lake Powell and putting the water into 
Lake Mead would also become an area that is something that 
could not occur.
    Mr. Werbach, you had a very powerful organization. The 
Sierra Club is known nationwide, has a lot of power. It's been 
reported in Salt Lake papers that you folks are prepared to 
come up with a half million to $3 million to push this 
proposal. Is that correct?
    Mr. Werbach. No, that is not correct.
    Mr. Hansen. What is correct, may I ask?
    Mr. Werbach. The Sierra Club is not--the proposal to 
advocate the draining of the lake or the environment 
assessment?
    Mr. Hansen. One or both.
    Mr. Werbach. We have no budget, per se, for the proposal to 
advocate the draining of the lake. Our first goal right now is 
to complete this environmental assessment and that--the Sierra 
Club is not proposing to conduct that. We're proposing to help 
the Glen Canyon Institute. We're hoping that, with your help, 
the administration will undertake that review.
    Mr. Hansen. If you accept what Mr. Shadegg said about 
draining the lake and you folks are serious about it, if I 
understand how that would have to go, it would go through 
Congress, and Congress would pass legislation. This place is a 
rumor mill, we all know that, and it's a big sieve anyway. It's 
like the Pentagon. There are no secrets at all over there.
    Anyway, having said that, we keep hearing you have a 
sponsor to--I've asked. Is anybody a sponsor? It's none of my 
business, I guess. You don't have to answer that. But do you 
have a sponsor on draining Lake Powell or proposing this 
legislation?
    Mr. Werbach. We have not seeked a sponsor for this.
    Mr. Hansen. You're not to that point yet of talking to 
someone; is that right?
    Mr. Werbach. No.
    Mr. Hansen. I assume you do have some Members of Congress 
who find this an interesting idea, though; is that correct?
    Mr. Werbach. Frankly, we haven't had conversations with the 
Members of Congress on this yet. This is our first opportunity 
to do that. And we're not really looking for it. Right now what 
we're trying to do is to begin this assessment so that we'll 
have the facts to answer many of the good questions that you're 
asking right now.
    Mr. Hansen. If you were to put this in a category of 
importance of the many things that the Sierra Club is 
interested in, where would you put this?
    Mr. Werbach. I would put this of critical importance to the 
Sierra Club.
    Mr. Hansen. It is critical importance?
    Mr. Werbach. Uh-huh.
    Mr. Hansen. Top five maybe.
    Mr. Werbach. It's critically important to the Sierra Club.
    Mr. Hansen. Critically important to the Sierra Club. Well, 
I appreciate that. I appreciate your candor.
    We have kept you folks here quite a while. We'll excuse 
this panel. Excuse me, Mr. Shadegg had an additional 2 minutes 
he wanted to take.
    Mr. Shadegg. Mr. Chairman, I hope not to take 2 minutes. 
But since Mr. Brower was to be on this panel, there are, 
although many quotes I might want to ask him about, there are 
at least three that I think are critical. And I would like to 
put them in the record and make a case for why I think they are 
important.
    Mr. Hansen. Is there an objection? Hearing none, so 
ordered.
    Mr. Shadegg. It's pretty clear that Mr. Brower is the 
single most dominant advocate of this idea. If you look at the 
history of the political struggles within the Sierra Club, he's 
been on the board and off the board. He was the executive 
director when the lake was built and wears sack cloth and ashes 
as he is quoted as saying, and he wants to now right this. His 
piece, ``Let the River Run Through It'' is the seminal piece on 
why this ought to happen.
    There are, as I said, three quotes that have been published 
and attributed to him which I find shocking and which I would 
like him to respond to. The first appears in ``Environmental 
Overkill'' published in 1993 by Dixie Lee Ray. And by the way, 
in none of these quotes have I found--ever have I found a 
statement by Mr. Brower disavowing them.
    The first quote is: ``While the death of young men in war 
is unfortunate, it is no more serious than the touching of 
mountains and wilderness areas by human kind.''
    The second quote is found in Dixie Lee Ray's book, 
``Trashing the Planet.'' It is based on a subsequent book noted 
in--or a prior book noted in her footnote. And this quote is: 
``Childbearing should be a punishable crime against society 
unless the parents hold a government license. All potential 
parents should be required to use contraceptive chemicals, the 
government issuing antidotes to citizens chosen for 
childbearing.''
    And the third quote--and I thought it would be impossible 
to trump the first two until I found this one. The third one 
is, quote, by Mr. Brower, the advocate of this idea: ``Loggers 
losing their jobs because of spotted owl legislation is, in my 
eyes,'' Mr. Brower says, ``no different than people being out 
of work after the furnaces of Dachau are shut down.'' That also 
appears in Dixie Lee Ray's book, ``Environmental Overkill,'' 
published in 1993, and was never disavowed by Mr. Brower. I 
think those are important quotes to get into the record. And I 
would like----
    Mr. Doolittle. Would the gentleman yield?
    Mr. Shadegg. Certainly.
    Mr. Doolittle. I would just like to ask Mr. Werbach if you 
agree with those quotes or which one do you disagree with, if 
any.
    Mr. Werbach. First of all, let me state my great offense at 
the suggestion David Brower would suggest those things. No, I 
do not agree with those things. I do not suggest that we take 
Dixie Lee Ray's view on the environment as gospel.
    I will mention that David Brower served in a mountaineering 
unit in World War II along with former Senator Bob Dole, served 
our country well, and does not deserve to be slandered in that 
way.
    Mr. Shadegg. No, reclaiming my time, these are all quotes 
that appear on the Internet attributed to Mr. Brower and have 
been there since 1990 and 1993, respectively. We have 
thoroughly, as you might tell at this point in this hearing, we 
searched this issue and Mr. Brower and found not a single 
occasion where he has disavowed any of them. So if this is an 
opportunity for him to do so, I call upon him to do so.
    Mr. Hansen. The gentleman's time has expired. We appreciate 
the panel being with us. Mr. Werbach, Mr. Wegner, if you would 
stay there.
    The next panel is Jim Lochhead, Executive Director of the 
Colorado Department of Natural Resources. We have Melvin 
Bautista, Executive Director of the Division of Natural 
Resources of the Navajo Nation. And we have Larry E. Tarp, 
Chairman of Friends of Lake Powell.
    We appreciate the panel being with us. You know all the 
rules. You can stay within 5 minutes. Thank you very much. Mr. 
Lochhead, Executive Director of the Colorado Department of 
Natural Resources, you have the floor, as we say in our 
business. We recognize you for 5 minutes.

    STATEMENT OF JIM LOCHHEAD, EXECUTIVE DIRECTOR, COLORADO 
                DEPARTMENT OF NATURAL RESOURCES

    Mr. Lochhead. Thank you, Mr. Chairman and members of the 
Subcommittees. I would ask the Chair's indulgence. Given the 
late time that I had for notice of this hearing, I wasn't able 
to prepare written testimony, and I would request to be able to 
do so after the hearing.
    The purpose of my testimony today, Mr. Chairman, is to help 
express from an upper Colorado River basin perspective our 
grave concerns as to the effects of draining Lake Powell. To 
fully appreciate these concerns, Members of Congress should 
understand that this proposal is not just about one dam. Glen 
Canyon Dam was built and is operated as a key component of a 
complex framework of laws passed by Congress known as the law 
of the river.
    These laws were born out of the necessity to provide secure 
water supplies. They are the product of two interstate 
Compacts, a U.S. Supreme Court decree, and a treaty with Mexico 
allocating the river's water.
    They reflect the fact that for over a hundred years, the 
financial strength and national authority of the U.S. Congress 
has been absolutely necessary to avoid interstate disputes and 
to secure economic stability for the Colorado River basin.
    Floods in the lower Colorado River in the first years of 
this century caused extensive damage and created the Salton 
Sea, bringing urgency to the desires of California irrigators 
for an all-American canal and a dam that would regulate the 
river. The California interests sought financial support for 
these projects from Congress.
    The upper basin States were wary that the lower basin would 
develop at the expense of the upper basin, and successfully 
blocked these efforts in Congress. The upper and lower basins 
resolved their differences in 1922 when they signed the 
Colorado River Basin Compact.
    The Compact divides the river's water between the basins 
and also sets a requirement that the upper basin not deplete 
the flow of the river below 75 million acre feet over any 10-
year period.
    Because of the erratic nature of the river (you heard the 
testimony on that previously) from year to year, the 
negotiators of the Compact in 1922 knew that the upper basin 
could not meet its burden without the comprehensive development 
throughout the basin of storage reservoirs.
    The Boulder Canyon Project Act of 1928, by which Congress 
ratified the Compact, also directed the Secretary of Interior 
to develop a report to Congress, ``formulating a comprehensive 
scheme of control in the improvement and utilization of the 
waters of the Colorado water and its tributaries.''
    The depression and World War II intervened, but in 1946, 
the Bureau of Reclamation completed its report. The Upper Basin 
Compact of 1948 allowed for Congress to implement that plan.
    In the 1956 Colorado River Basin Project Act, Congress 
authorized the construction of so-called holdover reservoirs 
which would assure that the upper basin could meet its compact 
obligations. Lake Powell is the cornerstone of that system, 
supported by units at Flaming Gorge, Aspinall, and Navajo.
    In the 1968 Colorado River Basin Project Act, Congress 
provided for the comprehensive operation of Lake Powell and the 
major facilities in conjunction with Lake Mead. This regulatory 
framework was implemented in the coordinating operating 
criteria by the Secretary of the Interior in 1970.
    Without the ability to properly regulate river flow as 
provided by these facilities, Colorado and other upper basin 
States would face the prospect of a Compact call, which would 
entail the massive curtailment of water use by millions of 
people.
    Throughout the development of this series of laws, Congress 
has also worked closely with the basin States and has 
explicitly recognized and affirmed the water allocations 
established under the law of the river.
    In the Grand Canyon Protection Act of 1992, Congress 
directed that operations of the power plant in Glen Canyon Dam 
take into account downstream impacts. Those operations were the 
result of a $100 million environmental impact study that was 
alluded to earlier.
    But that law also affirmed the critical role Lake Powell 
plays in meeting interstate water allocation needs. The Act 
makes operations for downstream purposes subject to the dam's 
primary water allocation function.
    The Senate Energy Committee Report describes Lake Powell as 
follows: ``Glen Canyon Dam is the keystone of the Colorado 
River Storage Project, CRSP, and CRSP is the central vehicle 
for implementation of the congressionally approved Colorado 
River Compact. The Compact is in turn the basis for allocation 
of Colorado River water among the seven Colorado River Basin 
States.''
    By storing water in the upper reservoirs at Flaming Gorge, 
Aspinall, and Navajo, regulating the water through Lake Powell, 
and delivering the water to Lake Mead, the Bureau of 
Reclamation has the facilities and operational flexibility to 
meet the needs first envisioned over 100 years ago. These 
facilities ensure a secure water supply for over 20 million 
people, and a hydroelectric and recreational resource.
    As illustrated by the Grand Canyon Protection Act, the 
Bureau also has the ability to manage water to meet 
environmental goals. For example, the upper basin States, 
Bureau of Reclamation, Fish and Wildlife Service, and others 
have developed a recovery plan for four endangered fish species 
in the Colorado River Basin.
    The plan is designed to recover these endangered species 
while allowing the upper basin States to fully develop our 
compact shares. Under this plan, the operation of these upper 
basin storage units has been changed to more closely 
approximate the natural hydrograph. Without Lake Powell, this 
reregulating flexibility would not be possible.
    Other aspects of this recovery plan, including habitat 
acquisition, fish ladders, and stocking programs will need to 
be funded through a combination of hydropower revenues, 
congressional appropriations, and State and local funds. We 
need the help of Congress now more than ever to meet these 
national priorities of Colorado River management.
    By directing the draining of Lake Powell, Congress would 
completely reverse its field from a direction in which it has 
steadily en-

gaged for nearly 100 years. We believe that any proposal to 
drain the lake should take these concerns into consideration. 
Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Lochhead. We appreciate it. Mr. 
Bautista, we'll turn the time to you, sir.

  STATEMENT OF MELVIN F. BAUTISTA, EXECUTIVE DIRECTOR, NAVAJO 
              NATION DIVISION OF NATURAL RESOURCES

    Mr. Bautista. Thank you. Good afternoon. My name is Melvin 
Bautista. I'm the Executive Director of the Division of Natural 
Resources for the Navajo Nation and also a member of the Navajo 
Nation. I would like to thank Chairman Doolittle of the 
Subcommittee on Water and Power and Chairman Hansen on the 
Subcommittee on National Parks, Public Alliance, as well as 
other distinguished Congressmen for extending an invitation for 
Navajo Nation to testify at this hearing.
    We are gathered here to discuss Mr. Brower's and the Sierra 
Club's proposal to drain Lake Powell. To abide by the 
recommendation of the Sierra Club as articulated would wreak 
disaster upon the economic and social welfare of the Navajo 
Nation. It would also detrimentally and fundamentally alter a 
water preservation, delivery, and supply system crafted by many 
decades of planning and social compromise for the sake of a 
myopic, selfish, impractical environmental deal.
    In short, the Sierra Club's proposal does not address all 
of the complexities of water administration under the upper 
compact and lower compact States. It also does not address the 
adverse impacts on Navajo water rights, Navajo economic 
development concerns, or Navajo social welfare.
    Water is life in the western region of the Continental 
United States. Water considerations affect land and economic 
development plans and opportunities for all those who live 
here, including the Navajo Nation.
    The Colorado River is a primary water supply and ground 
water resource in the Colorado Basin States. The Navajo nation 
has reserved water rights with a priority to date that relates 
back to creation of our reservation by the Federal Government.
    The Navajo Nation entered into two treaties with the United 
States in 1850 and 1868. It set aside an exclusive reservation 
exclusive for the Navajo Nation.
    Navajo water rights, however, must be quantified by a court 
of competent jurisdiction as part of a general stream 
adjudication unless the Nation authorizes a settlement approved 
by Congress. Thus the Navajo, like other water users in the 
region, is currently engaged in the general stream adjudication 
for a number of rivers and basins on or near the Navajo Nation, 
including the Colorado River.
    In Arizona versus California, the Supreme Court adjudicated 
water rights of five Indian tribes. The Navajo Nation, however, 
was excluded from this litigation.
    Two theories have been postulated to explain the exclusion 
of Navajo water rights. The first suggests that the Special 
Master limited his consideration of water rights on the main 
stream of the rivers below Lake Mead. The second envisions the 
surrender of Navajo water rights in exchange for monetary 
consideration and a promise of beneficial economic developments 
which made possible a construction of a Navajo generating 
station. Without Lake Powell, the Navajo generating station 
would not exist.
    Moreover, in 1958, Congress authorized exchange of Navajo 
reservation lands for public domain lands occupied by Navajos. 
Glen Canyon Dam is located on former Navajo reservation lands.
    The Navajo Nation still owns the mineral estate under Lake 
Powell. Lake Powell flooded Navajo religious and cultural sites 
forever destroying their use by Navajo people. The Navajo 
Nation has been deprived of its minerals and culture without 
compensation being paid by the Federal Government.
    First and foremost, a proposal to drain Lake Powell would 
create hardship for the Navajo Nation securing any readily 
accessible water supply. The proposal, if it is accepted, would 
literally destroy mining and agri-business concerns that 
provide most of the financial resources the Navajo Nation 
expends to provide benefits to members of the Navajo Nation.
    Secondly, the Navajo Agricultural Project Enterprise and 
Navajo Indian Irrigation Project, also referred to as NAPE, and 
NIIP, would be jeopardized because it is a largely dependent 
upon water availability from the mainstream of the San Juan 
River and its tributaries for farming activities.
    Water availability for NAPE and NIIP would be reduced 
foreclosing the possibility about ever completing this project.
    Third, the Navajo Nation believes dangerous and toxic 
concentrations of selenium, salt, and mercury left behind from 
a drained lake and airborne by wind would detrimentally affect 
health and safety of Navajo people living near Lake Powell.
    Fourth, there would be a significant cost increase for the 
public by substituting other resources to provide energy and 
electricity now or in the future by hydroelectric facilities on 
Lake Powell. More coal may have to be burned to maintain 
electricity at production levels. This may contribute to 
increased air pollution in a strictly regulated clean air 
environment.
    Fifth, since many, if not all, of the native species of 
plant and animal life have already been destroyed or affected 
by Lake Powell, nonnative species would merely inhabit the 
vacant space. It would be prohibitively expensive to return the 
environment to its original habitat. Instead, it has already 
been drastically affected.
    Furthermore, the current endangered species of fish life 
would have greater risk by encroachment of nonnative fish if 
Lake Powell was drained.
    Lastly, revenues from the tourism industry created by Lake 
Powell, the Glen Canyon area, and the Navajo Nation would be 
drastically affected. During the earlier years after the lake 
was drained, there would be no tourism attraction. Even if the 
environment were perfectly reclaimed, there would be only 
limited tourist attraction appeal, since the recreation utility 
potential of the site would be greatly limited.
    Many members of the Navajo Nation sell food, beverages, 
jewelry to tourists. This accounts for most of their income for 
each year. Draining Lake Powell would absolutely destroy this 
means of in-

come for Navajo vendors and enjoyment by those wanting to see 
and experience Lake Powell.
    In conclusion, if Lake Powell is drained, then the Navajo 
Nation still desires to proceed with settlements of issues with 
the National Park Service concerning the Navajo Nation's 
boundary along the Colorado River. The Nation still maintains 
that the shore line of the river in the vicinity of the Grand 
Canyon National Park is the northern and western boundary of 
the Navajo reservation, which includes the center line of the 
San Juan River as clearly defined in our treaty.
    The National Park Service refuses to accept this, even 
though an Arizona State court made this finding when it 
dismissed the citation for fishing without a license, State 
license within the Grand Canyon National Park to a member of 
the Navajo Nation. He did possess a Navajo Nation permit.
    The draining of Lake Powell would do nothing but harm the 
economic and social welfare of the Navajo Nation. This would 
greatly complicate and further delay use of Colorado River 
water by the Navajo Nation. As such, the Navajo Nation 
respectfully requests that you reject the Sierra Club's 
proposal. Thank you.
    [The prepared statement of Mr. Bautista may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Bautista.
    Mr. Tarp. We'll turn the time to you. Do you want to pull 
the mike over there by you, sir.

  STATEMENT OF LARRY E. TARP, CHAIRMAN, FRIENDS OF LAKE POWELL

    Mr. Tarp. Mr. Chairman and members of the Committee, I have 
submitted my written testimony previously, and I assume it will 
be part of the record.
    As the Chairman of the Friends of Lake Powell, I thank you 
for allowing me to speak on behalf of the people that support 
maintaining Lake Powell and Glen Canyon Dam.
    This testimony normally would be a trying thing for a 
layman like myself. But while you cannot see them, I feel I 
have a million people standing by my side.
    To begin, let me paraphrase our mission statement. We 
support the preservation of Lake Powell and Glen Canyon Dam for 
the generations. We want to provide the public factual 
information about social, entertainment, environmental, and the 
economics. And we'll solicit membership to create maximum 
public awareness of these issues.
    We will fight off any attempts by groups that seek to alter 
its status. We will support environmental improvements and 
represent the millions of people who love the area.
    Let me tell you some facts about Lake Powell. This is a 
fact: Lake Powell and the surrounding area is one of the most 
beautiful places on earth. Lake Powell is in northern Arizona 
and southern Utah. Ninety percent of the lake is in Utah.
    The lake surface is below the surrounding mountains and is 
the major reason for its extreme beauty. Blue waters contrast 
the red sandstone cliffs. There is nothing else like it on this 
planet.
    Lake Powell was created by Glen Canyon Dam. Lake Powell was 
named for Major John Wesley Powell. Lake Powell is within the 
Glen Canyon national recreation area, which has 1,236,800 
acres, the size of Delaware. It preserves 650 million years of 
history with a mission to preserve the existing scientific, 
scenic, and historical features, which certainly include the 
Lake and Dam.
    Lake Powell is 186 miles long with 1,960 miles of shore 
line, more than the entire length of the West Coast of the 
United States. It has 96 major side canyons.
    But before I go on, for the record, I must point out some 
of the misleading information that proponents of draining Lake 
Powell have issued. First, evaporation. Claims of one million 
feet have been voiced, even here today. The official figures 
are half that. Most importantly, evaporation is not 
elimination. It is a natural part of weather. All bodies of 
water evaporate when exposed to atmospheric changes. But the 
water becomes clouds in the case of Lake Powell, it rains on 
fields and farms in places East such as Colorado, Kansas, and 
Nebraska.
    The proponents of draining would allow this water to flow 
into the Sea of Cortez, where it would evaporate also and water 
Mexico's crops and not our heartland.
    They talk about restoring the Canyon walls knowing full 
well that not all the king's horses and all the king's men can 
put the iron oxide back in.
    The bathtub ring, as it is so-called, seen as the water 
recedes, extends from top to bottom and all around the lake. We 
would be left with the biggest, bleached, ugliest white hole on 
earth. And the proponents of lake draining would be long gone.
    Statements have been made claiming the Power Plant and Dam 
have as little as 100 years or so. You have heard today that 
Bureau figures indicate 500 years for the Power Plant and up to 
700 years for the Lake with a do-nothing policy.
    If no superduper sources of power and energy are developed 
over the next 500 years, I submit to you that dredging is not 
rocket science.
    They say simply pull the plug in Glen Canyon Dam. 
Impossible. As the diversion tubes are completely filled with 
concrete and their outlets were redirected to make spillway 
outlets, draining the Lake and leaving the Dam intact is not 
possible. Their claims that the Dam is unstable and subject to 
catastrophic failure are so slanderous, I refuse to discuss 
them.
    Also, for the record, you should know that the Sierra 
Club's seven-member task force charged with studying this issue 
were invited by the Bureau of Reclamation, Mr. Bill Duncan, 
whose name was in the record this morning, to come to the Lake 
Powell, visit the Dam, and talk to the people, and they 
refused. Ignorance must be bliss.
    Now, let me go on. Glen Canyon Power Plant controls the 
complete upper CSRP with six other power plants. Lake Powell is 
the water savings account as you've heard today for the upper 
basin States and for delivery to the lower basin States.
    The Power Plant generates enough electricity for 400,000 
people. Lake Powell hosts about 3 million visitors a year. As 
heard today, over 400,000 people a year come for boating 
activity.
    The Lake now affords access to 325,000 people a year that 
can reach Rainbow Bridge National Monument. Before, it was 
about a 16-mile walk to get to that monument.
    The lake is also home to about 275 species of birds, 700 
species of plants. As mentioned earlier, the Peregrine Falcon 
is there. And, largely, the lake is the reason its population 
is being removed from the endangered species list. We have 
trout fishing. The lake waters supply the Navajo generating 
station, as was stated earlier.
    Electricity is equal to about $100 million a year from Glen 
Canyon Dam. About a Billion Dollars a year from NGS. And all of 
these dollars are subject to Federal taxes, State taxes, County 
taxes, and City taxes.
    The local commerce supports human services, hospital, 
schools, libraries, and other essential services. Nearly 23,000 
Native Americans live on nearby reservations. Our public school 
enrollments are 63 percent Native American.
    In closing, let me say that the people involved in daily 
life, commerce, and the free enterprise system surrounding the 
area will oppose until their deaths any person or persons that 
attempt to disrupt our personal rights, freedoms, and 
opportunities for existence around Lake Powell.
    According to the intent of the articles of our 
Constitution, no one person or group has either the right or 
the power to impose their belief on others in this the great 
United States of America. We, the millions of Friends of Lake 
Powell, are citizens and voters and intend to see that these 
rights are upheld regardless of time and cost. Thank you for 
the opportunity to speak to you today.
    [The prepared statement of Mr. Tarp may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Tarp. The gentleman from 
California, Mr. Doolittle, for the questions for this panel.
    Mr. Doolittle. Mr. Bautista, I appreciated your testimony. 
And you indicated therein that Lake Powell is basically on your 
reservation's land. Didn't I read that?
    Mr. Bautista. Yes.
    Mr. Doolittle. You retain the mineral estate. I guess 
you've acceded the surface rights, but you have the mineral 
estate underneath it; isn't that correct?
    Mr. Bautista. Yes. When the exchange was done to create the 
McCrackin Mesa in Utah, the lands were taken from the Lake 
Powell area where Glen Canyon Dam was built. So, essentially, 
the subsurface estate still belongs to the Navajo Nation as 
well as the area. We always had arguments with the National 
Park Service in terms--the terms are basically saying that 
Navajo Nation still recognizes their boundary as being the edge 
of the Colorado River and center line for San Juan River. So 
that is where a lot of the issues come from. Thank you.
    Mr. Doolittle. You have there flooded over Indian burial 
sites and other heritage and cultural sites, do you not?
    Mr. Bautista. Yes, we do.
    Mr. Doolittle. And, yet, unlike the Sierra Club, you have 
not joined in this effort to drain the lake to recover those 
sites.
    Mr. Bautista. Well, the attempts were made to try to 
educate the Bureau of Reclamation at that time when that was 
being done. And they did try to work with us in terms of trying 
to take many of the items that were down in the canyon area 
out.
    But, unfortunately, we lost some of the areas where 
basically prayers and offerings were made, so we could not do 
that anymore. The lake does exist now. And the areas around 
those places where we used for prayers are still used, but 
further away from their original site.
    Mr. Doolittle. I guess I'm just trying to draw out here, 
you would have a real vested interest, arguably, in draining 
the lake because of these sites; and, yet, you have not elected 
to do so, weighing the pros and the cons of such a drastic 
action.
    Mr. Bautista. We would not be interested in draining the 
lake, because that has very--it's a source of water supply for 
both the Navajos and the Hopi tribe. We're currently in 
litigation involving the lower Colorado River. And this is one 
area that both Nations have identified as being a source of 
water supply for our area.
    Mr. Doolittle. I noticed from your testimony that, in the 
litigation involving the lower basin States, the Navajo Nation 
was excluded from having its rights adjudicated at that point. 
Is that correct?
    Mr. Bautista. That is correct.
    Mr. Doolittle. So you're now involved in the negotiation of 
the--of your own compact, I guess, with the Federal Government? 
How does that--where are we in those negotiations?
    Mr. Bautista. Essentially, we are still involved in terms 
of trying to settle many of the issues that the Navajo Nation 
has in terms of water rights, not only the Colorado River, but 
many of the tributaries that flow into the Colorado River.
    And in many cases, the Navajo Nation does have the water 
rights, but we are trying to work with the various people, 
government, local governments, the city, the county 
governments, and whatnot to try to at least work out a way 
where we can share the water. So that's what we are currently 
working on now in terms of basically a settlement.
    Mr. Doolittle. Does Lake Powell present the Navajo Nation 
with significant economic opportunities?
    Mr. Bautista. Yes, it does. Many of our Navajo vendors who 
basically don't have jobs--the Navajo Nation is about 45 
percent unemployed. And people that live along the lake, that's 
the only source of employment that they have in terms of 
selling food, jewelry, and whatever they can use to do that, 
and also taking people on tours. Additionally, they try to 
assist in terms of working with people that do come to the area 
as well. Thank you.
    Mr. Doolittle. I also just mention, I noted when I visited 
the Navajo Generating Station, there were a number of Navajo 
employees there. And I gather that you depend upon Lake Powell 
for your water as well as for the livelihood that your people 
would hope to make in the future.
    Mr. Bautista. Yes. That's true. In terms of Lake Powell. 
And there is no water that comes from Lake Powell. It only goes 
to the city of Page currently. And we are trying to negotiate 
in the water litigation, or excuse me, water settlement 
discussions under the LCR, lower Colorado River, to try and 
take water out of the lake.
    In terms of the Navajo generating station, we are currently 
negotiating Royalty re-openers with Peabody which supplies coal 
to the Navajo generating station, as well as Mojave, to allow 
us to sell more coal to them for revenue generation. But Lake 
Powell is one of the key ingredients of part of the 
negotiations.
    Mr. Doolittle. Thank you. Mr. Lochhead, could your upper 
basin States meet the obligation to deliver the 7\1/2\ million 
acre feet to the lower basin States without Lake Powell?
    Mr. Lochhead. Mr. Chairman, I don't believe that we could, 
Congressman. And the testimony of Mr. Bautista, I think, 
illustrates also that there are a number of uncertainties 
regarding the regulation and allocation of the river system, 
the negotiation of tribal reserved rights among them, that we 
are trying to work on as States with the tribal nations and the 
Colorado River states. Those uncertainties present further 
challenges to our ability to reregulate water for these 
allocation purposes and additional demands on the system that 
would need to be addressed.
    Mr. Doolittle. Thank you. Mr. Tarp, my time is up. I just 
wanted to mention I appreciated very much your testimony. I 
thought you drew out a number of the important values about 
Lake Powell and Glen Canyon Dam.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Mr. Doolittle.
    The gentlelady from the Virgin Islands, Mrs. Green.
    Ms. Christian-Green. Thank you, Mr. Chairman. I wanted to 
thank you for your testimony, also. I wanted to ask Mr. 
Werbach, Mr. Bautista in his conclusion of his testimony says 
that the Sierra Club's proposal views the destruction of Glen 
Canyon Dam and Lake Powell with justifications that benefit 
only a few members of the human community. Would you comment on 
that?
    Mr. Werbach. Well, the Sierra Club pays deference to the 
Navajo Nation and supports them reaching their treaty 
obligations and hopes that this Committee will help them do so.
    We have spoken to some other Nations in the area, Haulapai, 
the Havasupai, and the Hopi, all of whom, while not having 
voted formerly on it, their departments of natural resources 
supports studying the issue and looking into options. At this 
time, as we said, there are lots of issues still at hand. And 
these are very, very important. Native American rights are 
critical to the success of this plan. Right now we want to do 
the assessment and take it from there.
    Ms. Christian-Green. Thank you. And thank you, Mr. 
Chairman, for holding this hearing. It has been very 
informative. And I can see that there are many difficulties and 
far-reaching impacts involved with draining--the possibility of 
draining Lake Powell. But certainly, Mr. Chairman, I think we 
have an obligation, not only to this generation, but to those 
to come. And so, while in the end, I may or may not support the 
draining of the lake, I do support an environmental assessment. 
Because I believe that the people of Utah, California, Nevada, 
Colorado, and the other States that are involved do have a 
right to know. And so I would support Federal funds being used 
to fund either in part or in whole the environmental 
assessment. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you very much. Informative and 
provocative I probably would add to that. The gentleman from 
Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. Mr. Bautista, I want 
to thank you for taking the time to travel here all the way 
from Arizona. I appreciate your being here. I made reference in 
my earlier comments to the fact that both you and the Hopi 
share an important aquifer which lies under your reservations 
and which I believe is, in part, as full or has the capacity it 
currently has because of the existence of Lake Powell.
    I note in your testimony that you talk about adverse impact 
on Navajo water rights, Navajo economic development, Navajo 
social welfare, and go on to say that, in point of fact, the 
proposal would create great hardship and would literally 
destroy mining and agri-business that provide most of the 
financial resources of the Navajo Nation.
    The Navajo Nation does not have a particularly strong 
economic base at the present time, does it, Mr. Bautista?
    Mr. Bautista. That is correct.
    Mr. Shadegg. What is unemployment on the reservation?
    Mr. Bautista. Unemployment runs approximately 45 percent.
    Mr. Shadegg. And if we were to rule out all of the 
recreation activities which now provide jobs and other 
associated jobs, the operation of the dam, the operation of the 
Navajo power plant, all of which or most of which have native 
American hiring preferences, that would be devastating to your 
employment base, would it not?
    Mr. Bautista. Yes, it would.
    Mr. Shadegg. Let me talk briefly. Peabody Coal has a Black 
Mesa mine that employes many Native Americans, both Navajo and 
Hopi, does it not?
    Mr. Bautista. Yes, it does.
    Mr. Shadegg. OK. And it is dependent upon the power 
generated at the Navajo generating station.
    Mr. Bautista. Yes.
    Mr. Shadegg. So if we were to lose the Navajo generating 
station because we had no cooling water, we would literally 
shut the mine.
    Mr. Bautista. Yes, it would.
    Mr. Shadegg. And, also, it is dependent upon the water from 
the aquifer that I have mentioned. If we were to lose that 
water, there would be no way to pump the coal and slurry where 
it is taken to the West; is that right?
    Mr. Bautista. That's correct.
    Mr. Shadegg. So we really can lose that mine in two 
different regards.
    I note, and I'm glad you touched upon it, that in your 
testimony, you talk about the dangerous and toxic 
concentrations of selenium, salts, and mercury left behind from 
a drained lake and which the airborne wind would detrimentally 
affect the health and safety of the Navajo people. Are you 
familiar with the experience in California with regard to Owens 
Lake?
    Mr. Bautista. Not that familiar with it.
    Mr. Shadegg. Let me just point it out. And I want to ask 
some of the serious environmentalists who are here to talk to 
us today if they have thought through that issue, because, in 
point of fact, the experience at Owens Lake demonstrates that, 
were we to dry up Lake Powell, we would leave the sediment with 
all of these toxins in it, including, perhaps, nuclear toxins 
in it, which would be blown around by dust. And we can get into 
Owens lake later, but I appreciate your testimony and 
appreciate you coming here and thank you for that.
    Mr. Tarp, I would like to turn to you. I believe you are 
familiar with Stan Jones, one of the premier chroniclers of 
Lake Powell.
    Mr. Tarp. Yes. He is called Mr. Lake Powell.
    Mr. Shadegg. He is called Mr. Lake Powell. This is one of 
his many books. I would, Mr. Chairman, like to put this into 
the record. Because it depicts some of the beauty of Lake 
Powell. I know that I spoke with Stan Jones for--at length 
Sunday morning. And I know that Mr. Tarp spoke with him at 
length. So I would like to put that into the record.
    Mr. Hansen. Without objection, so ordered.
    Mr. Shadegg. He's quite an environmentalist in his own 
right; is he not?
    Mr. Tarp. Yes, he is. If I might just read a small 
statement that he gave me over the phone. He said: ``I submit 
to you that Glen Canyon and its 100 or more side canyons do not 
need to be restored. Why? Because they were never lost or 
destroyed by the waters of Lake Powell.
    Every canyon is still there and in its full splendor. Yes, 
there may be 100 or even 200 feet of water on the floors, but 
when the walls go up, some straight up over 1,000 feet, it 
actually enhances them. Rather than think of it as spoiling 
them, think of it as having a reflective base that appears to 
double their height.
    Plus, they are completely accessible by water. And still by 
land as well or by foot or by pack animal, if you prefer. The 
water access can make this trip short, full of additional 
splendor, and very calming.
    In a week or two of concentrated boating effort, a person 
or group could see nearly all 100 of them. Without water 
access, I doubt a person or group could see them all in a 
lifetime.
    I invite Adam Werbach, his family, and Mr. David Brower to 
come to Page, and we will personally show them the variety of 
splendor they never have nor never would see if they had to 
walk in, ride the river, or come on pack mules.
    Mr. Shadegg. I thank you for that.
    Mr. Chairman, when I spoke with Stan Jones on Sunday by 
phone, he pointed out something to me that I was unaware of, 
and that is that there was a preinundation study of the lake 
and of the wildlife, both in the canyon and on Navajo Mountain. 
That study is, I believe, some 25 pages long. And Mr. Jones 
could not get it to me in time for this hearing.
    He did, however, on Monday fax to me a three-page statement 
in which he lifts direct quotes from that study, which 
demonstrate, I think, quite vividly that, in the absence of a 
constant supply of water, there was really very little wildlife 
relatively speaking, very few birds in the area. And there are 
a number of quotes. And without objection, Mr. Chairman, I 
would like this inserted in the record.
    Mr. Hansen. Hearing no objection, so ordered.
    Mr. Shadegg. Let me just conclude by saying, as I mentioned 
earlier in my testimony or in my opening statement, I have 
camped in or explored virtually every canyon on Lake Powell 
from Wahweap to Bullfrog.
    Speaking about Stan Jones' comment about the reflective 
ability, in the canyon immediately south of Rainbow Bridge on 
the--what would be the southeast side of the lake, I have 
explored that canyon all the way up to where the boat we were 
in, which was 8 feet wide, was touching sandstone on each side.
    We went off the front of the boat in a little what would be 
the kind of raft that you would lie on in a swimming pool and 
went further up the canyon to where we could touch both sides 
of the canyon and look. And, at that point, we were floating in 
water and looking straight up for sandstone cliffs that went 
300 to 400 feet above our heads. It is magnificent. I suggest 
draining it would destroy an incredible natural wondering 
enjoyed by millions of people annually and makes no sense.
    Mr. Hansen. Thank you very much.
    Mr. Tarp, you heard Mr. Werbach say that, in the eyes of 
the Sierra Club, this proposal was critically important. How 
important is it to your group?
    Mr. Tarp. Well, I think a lot has been said today about the 
water rights and what would happen, and I won't get into that 
discussion. But I believe the economics of the issue, the 
enjoyment, the human bonding, I think about a family going out 
on a houseboat for 3 or 4 days enjoying life together, sitting 
around the campfire together, which doesn't usually go on in a 
family home.
    Getting back to the economic's side, I recently found out, 
although I was not able to include it in my testimony, the 
assessed value in the city of Page today, as of June is $370 
million. And I submit to you that, without Lake Powell, the 
city would be valueless because, A: it has no other water 
source, and B: obviously they would have no source of revenue 
without the recreational activities associated with the Lake 
and Dam.
    Mr. Hansen. It's hard to put that in dollars, isn't it? But 
yet, as you look at it, the State of Utah claims they bring in 
$409 million a year because of the dam.
    Every time I go down there, I stand at Waheap and look at 
the slips with just the boats there, for example, and then look 
out at the boats that are anchored. I've always tried to 
evaluate how much money is sitting there. Has anyone ever made 
a guess on that? Between--forgetting Halls Crossing and 
Bullfrog and Hite and the money sitting at Dangling Rope, what 
would you estimate that as?
    Mr. Tarp. Well, I can only estimate. But I would say, on 
the south end of the lake, between the slip's and the buoy's, 
there are approximately 1,000 boats. And I would suggest to you 
that, with all the peripherals, insurance and the other costs, 
they probably have an average value of $100,000 or more each.
    Mr. Hansen. That's rather expensive, isn't it?
    Well, I thank this panel for being with us. And we'll 
excuse you. And, Mr. Wegner, it's your turn now. We're going to 
get to you.
    Now, Mr. Werbach can give you instructions as you go back 
and forth there.
    Our last panel is Robert Elliot, Arizona Raft Adventurers; 
Joseph Hunter, Executive Director of Colorado River Energy 
Distribution Association, CREDA, and David Wegner, Ecosystems 
Management International.
    So we're grateful for you folks for being here. We'll get 
you all labeled here so we know who you are.
    Mr. Elliott, we will start with you and then Mr. Hunter 
and, Mr. Wegner, you can be the cleanup batter here.
    Mr. Elliott. Mr. Chairman, distinguished members of the 
Committee----
    Mr. Hansen. You know the rules. We would appreciate it if 
you could stay within your time.
    Mr. Elliott, we turn to you, sir.

STATEMENT OF ROBERT ELLIOTT, AMERICA OUTDOORS AND ARIZONA RAFT 
                           ADVENTURES

    Mr. Elliott. Mr. Chairman and illustrious members of the 
Subcommittees, thank you kindly for inviting me to testify 
today.
    My name is Rob Elliott. I represent America Outdoors, a 
national trade association comprised of 600 small businesses 
which outfit back country trips for the public on lands managed 
by government agencies across the Nation. I am also the 
President of Arizona Raft Adventures, a river runner in the 
Grand Canyon.
    Knowing what we know today, and on balance with all the 
myriad considerations, I am adamantly opposed to the draining 
of Lake Powell and I will document my position in a few 
moments.
    Spiritually, I grew up in Glen Canyon. I have lived and 
worked and played on the Colorado plateau most of my adult 
life, and I have outfitted over 30,000 people on river trips 
through the Grand Canyon. I have represented the outfitting 
industry and the transition work group for several years 
working directly with the Bureau of Reclamation and the dozen 
or so cooperating agencies in the development of the Glen 
Canyon Dam EIS.
    In the spring of 1962, I was twice blessed when I floated 
through Glen Canyon with David Brower. Before dawn one morning, 
I left alone for the 6-mile hike up Aztec Creek to see Rainbow 
Bridge and upon returning to camp I had an epiphany. I cried 
out loud and apologized to God for our flooding of Glen Canyon. 
That experience forever annealed the environmental ethic to my 
soul.
    The second blessing was meeting and coming to know David 
Brower, a personal hero of mine. David Brower taught me that 
one person can make a monumental difference in the world.
    My first reaction to the notion of draining Lake Powell and 
freeing the Colorado River to its pre-dammed condition was, 
wouldn't it be wonderful to turn back the clock? And what a 
preposterous idea.
    My more studied reaction to the proposal to drain Lake 
Powell is that the riparian habitat in Grand Canyon downstream 
from the dam is today amazingly vibrant, rich in biodiversity, 
nonetheless legitimate because it is a highly managed 
ecosystem. And it is threatened by both the prospect of 
draining Lake Powell and the possibility that nature may act 
first to blow out Glen Canyon Dam, with or without the 
authorization of Congress.
    With the control of annual flooding in Grand Canyon, there 
has been a dramatic increase in riparian vegetation with a 
corresponding increase of biodiversity, including supportive 
habitat for threatened and endangered species. By accident, we 
have created a refuge for Neotropical birds of regional 
significance, and the cold clear water below the dam supports a 
blue ribbon trout fishery. A highly regulated river has 
produced high biodiversity and new recreational opportunity.
    What are the environmental consequences of draining Lake 
Powell?
    With the draining of Lake Powell and the freeing of Glen 
Canyon from beneath megatons of potentially toxic sediments, 
restoration would begin immediately and take perhaps a 
millennium for nature to restore Glen Canyon to, to what? We 
don't know. But not likely to its original splendor.
    Glen Canyon would be an unstable environment for a very 
long period of time, and the first species to reclaim the land 
would very likely be invasive, nonnative specious such as 
tamarisk and camel thorn. Restoration to a natural condition 
may neither be possible nor desirable. We know very little 
about the environmental consequences of draining Lake Powell, 
but we do know some things about river sediments and delta 
deposits elsewhere.
    As river sediments accumulate, various naturally occurring 
compounds and heavy metals concentrate to toxic levels.
    What do the proponents of draining the lake suggest we do 
with these potentially toxic sediments? The Colorado River 
flowing into Glen Canyon would carry the same sediments it does 
today. Upon entering the former Lake Powell, the river would 
pick up newly exposed lake sediments. At best, the mix of lake 
sediments with upstream sediments is a black box 
scientifically.
    If the sediments flow through Glen and Grand Canyons, then 
Lake Meade will fill all the more quickly. And then are we to 
decommission Hoover Dam as well? Is the only ultimate answer to 
let the sediments run through to the Sea of Cortez? To use the 
water, we must remove the sediments. And I admit, that fact 
poses very tough questions for future generations. It is not 
too soon to start looking for the answers today.
    I am a strong advocate for deepening scientific inquiry at 
Lake Powell. What is the composition of lake sediments and how 
fast are they accumulating? Do the lake sediments pose a health 
and safety concern for our or future generations? How much 
water is really lost to evaporation percolation? What about 
meromixis, the accumulation of deep water conditions with high 
salinity and very low oxygen levels which some day could kill 
fish and corrode turbines? Scientists can answer these 
questions and we need to give them all the support and the 
funding we can reasonably pull together to look at those.
    Included in the scope of this hearing is the reduction of 
water storage capability of Lake Powell. I also would like to 
urge both Committees to strongly advocate a governmental risk 
analysis to determine the competency of Glen Canyon Dam and 
flood control capacity in Lake Powell to withstand a 500-year 
flood.
    How long did the engineers design the dam to last? Was it 
smart to put it in sandstone in the first place? There is a lot 
of speculation as to how long the dam will be there. We almost 
lost it in 1983 when El Nino produced 210 percent of normal 
snowpack in the early spring and a warm June brought it all 
down the first 10 days of the month.
    Meteorologists tell us the coming El Nino event building 
off the coast of South America is expected to be the biggest of 
the century. A 500-year flood run events about--flood event 
runs about 250,000 cubic feet per second and sedimentologists 
with the Bureau of Reclamation point to evidence of prehistoric 
floods of up to 400,000 cubic feet per second. With all tubes 
and spillways flowing, Glen Canyon Dam can release 270,000 
cubic feet per second.
    Back in 1983, the dam flowed 93,000 cubic feet per second. 
So when reviewing these figures, we have a potential 500-year 
flood event--who knows if El Nino will bring it or not--of 
250,000 to 400,000 cubic feet per second. We did pass 93,000 
cubic feet per second through the dam in 1983 with some 
serious, serious corrosive erosion effects to the bypass tubes.
    So now we are talking about the possibility of passing 
250,000, 270,000 cubic feet per second through the dam in a 
major flood event for flood control purposes. That is three 
times the amount of water that we passed through the dam in 
1983.
    My view is that the Subcommittees can productively focus 
time and resources on assuring the public that the risk 
analysis of managing a 500-year flood is addressed. Whether the 
lake is drained by man or the dam is blown out by nature, the 
riparian resources in both Glen Canyon and Grand Canyon will 
recover in a few hundred years. If we fail to accommodate the 
eventuality of a 500-year flood, we may have created a 
situation with unacceptable risks to society.
    I thank the Committees very much for the opportunity to 
testify.
    Mr. Hansen. Thank you, Mr. Elliott. We appreciate your 
testimony.
    [The prepared statement of Mr. Elliott may be found at end 
of hearing.]
    Mr. Hansen. Mr. Hunter.

STATEMENT OF JOSEPH HUNTER, EXECUTIVE DIRECTOR, COLORADO RIVER 
            ENERGY DISTRIBUTION ASSOCIATION (CREDA)

    Mr. Hunter. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear today on behalf of the Colorado River 
Energy Distributors Association.
    Testimony from several of today's witnesses include 
references to the hydropower produced at Glen Canyon Dam and 
the value of that hydropower. CREDA, the organization I 
represent, represents the more than 100 nonprofit public 
utilities and rural electric cooperatives who purchase that 
power from the United States and distribute it to consumers 
throughout the Colorado River Basin. Clearly, when we are 
talking about draining Lake Powell we get rather interested.
    Over the past several months I have heard a wide-range of 
opinion as to the impact draining the lake would have on the 
genera-

tion of electricity. The basic facts are well documented. Glen 
Canyon Dam is capable of generating more than 1,300 megawatts 
of hydropower each year. That electricity is sold by the United 
States at cost-based rates to nonprofit public utilities, 
government organizations, and Native American utilities. 
Ultimately, millions of families, farms, and businesses depend 
upon this clean, relatively economical source of energy.
    Appearing today as the representative or a representative 
of the local utilities and electric co-ops, we are responsible 
for making sure the lights stay on. I would like to focus 
primarily on the practical implications of removing Glen Canyon 
Dam as a hydropower resource.
    First, I have heard with some amusement the claims that the 
generation that would be lost at Glen Canyon Dam could be 
offset through conservation. Such claims demonstrate a 
remarkable lack of understanding of the role Glen Canyon Dam 
plays in the overall scheme of power supply in the West. The 
importance of hydropower generation goes far beyond the raw 
number of megawatts it provides. Unlike most conventional 
generation sources, hydropower is variable. It provides a 
critical opportunity to generate more or less electricity as 
demand changes from hour to hour. This load following potential 
is not something that can be offset through conservation.
    While conservation can be an effective tool for reducing 
the need for base-load generation, it does nothing to reduce 
the need for peaking resources such as Glen Canyon Dam. If 
power consumption in the West were cut in half tomorrow, we 
would still have the same need to adjust generation to meet 
varying load requirements.
    An excellent example of this very fact occurred last 
summer, during the widespread and widely publicized power 
outages. Glen Canyon Dam was one of the more critical tools 
that was available to help restore service to much of Arizona 
and Southern California. Even the harshest critics of historic 
dam operations have long agreed that if some type of system 
failure threatens power supply, Glen Canyon Dam should be 
available to pick up the slack.
    Could this capability be replaced? I suppose it could. 
Absent Glen Canyon Dam power generation, greater dependence 
could be placed on other existing hydropower facilities. Each 
of those dams, however, has its own set of environmental 
concerns. And I suspect that the potential consequences of 
using other dams for increased load following would be 
unacceptable to the same interests who are today advocating the 
draining of Lake Powell.
    The other potential alternatives to Glen Canyon Dam are 
technologies that are either immature or significantly more 
costly. And for those who believe that there is currently an 
abundance of generation available in the Western States, I 
would suggest they take a look at the projected growth rates in 
areas today served by Glen Canyon Dam, and would remind them 
that short-term planning in the electricity business is 
measured in decades.
    Mr. Chairman, many witnesses have told you the 
ramifications of this proposal for meeting the current and 
future water needs of an entire region. You have heard of the 
value of Lake Powell itself as a magnificent recreation and 
tourism resource. Customers throughout the Colorado River Basin 
spend more than $100 million per year--send more than $100 
million per year to the United States Treasury for the 
privilege of using the clean renewable and economical 
electricity generated with the water that is stored in Lake 
Powell. Under any scenario, the loss of that power resource 
would have far-reaching impacts on the electric bills of 
families, ranchers, and small businesses.
    Further, the entities represented at this hearing, along 
with many others, have just completed a difficult process of 
environmental study, cooperation and compromise regarding the 
operation of Glen Canyon Dam. Those studies have consumed more 
than a decade of time and more than $100 million of electric 
ratepayers' money. This effort, whether one agrees with the 
outcome or not, represents one of the most significant 
environmental programs in the history of this Nation. The 
draining of Lake Powell would render that effort moot.
    In short, the benefits of Glen Canyon Dam and Lake Powell 
are tremendous and far-reaching. At the same time, we have gone 
to extraordinary lengths to make these facilities as compatible 
as possible with the natural and environmental values they 
impact. To seriously consider sacrificing all of those 
benefits, imposing so much cost on millions of consumers, and 
impeding our ability to meet the electric needs of a rapidly 
growing region, in order to revisit a decision made more than 
30 years ago, seems more than a bit absurd.
    Surely, we have more pressing items on our environmental 
``to do'' list than draining Lake Powell. Thank you.
    Mr. Hansen. Thank you, Mr. Hunter.
    [The prepared statement of Mr. Hunter may be found at end 
of hearing.]
    Mr. Hansen. Mr. Wegner, we are happy that you have had the 
patience to stay with us.
    Mr. Wegner. Finally.
    Mr. Hansen. We will turn the time to you now.

 STATEMENT OF DAVID WEGNER, ECOSYSTEM MANAGEMENT INTERNATIONAL

    Mr. Wegner. Thank you, Mr. Chairman, and members of the 
Committee. My name is Dave Wegner. I am here representing the 
Glen Canyon Institute today. I am also the owner of a small 
business in Flagstaff, Arizona, called Ecosystem Management 
International.
    I have provided to the Committee my testimony, which again 
it is here. And also I didn't know it was going to be a show 
and tell, but we brought a book that you can have, also. So 
please take it and look at it.
    I am going to ad-lib a little bit because of all the 
comments that I heard today, and I have to commend my fellow 
panelists here and all the panelists today. I have known of 
most of these gentlemen and ladies for years. We have worked on 
many issues together involving the Colorado River and Glen 
Canyon Dam.
    For the past 22 years, I have been privileged to work for 
the Department of Interior, to look at the issues associated 
with the Colorado River drainage. It is an area that I have 
studied extensively. I am a scientist by training. I am not a 
politician. I am not a busi-

nessman. I am not a bureaucrat. All I am is a simple scientist 
trying to get to the facts. Those facts, gathered over the last 
14 years that Mr. Hunter referred to, is that the Grand Canyon 
and the Colorado River are in serious need of some restoration. 
We cannot sustain the environmental resources, the endangered 
fish and the endangered bird with the present level of effort 
and the operation of the river system.
    Many good questions came out today, and I really commend 
the panelists and the Committee for asking them. I guess as the 
author of the primary document, the proposal to develop the 
citizens' environmental assessment, we are going to use every 
one of these questions that came up today. They are going to 
help us frame this whole document.
    Let me give you a little brief history of Glen Canyon 
Institute. We are a volunteer organization. None of us get 
paid. There is no--none of us get wages to deal with this. We 
are private citizens. We are scientists. We are 
environmentalists and boaters, but there is one common thread. 
We are all concerned about Glen Canyon and the Colorado River.
    The proposal to develop the citizens' EA, which flows out 
of the environmental studies that were done at Glen Canyon Dam 
over the past 14 years, is our way of trying to document the 
science, document the information. Today we are here seeking 
wisdom, we are here in this place of power and trappings to 
look at how we can move forward with this whole proposal.
    Yesterday at 6 p.m., I was on the Animas River, and I wish 
Senator Campbell was still here. This is a little water from 
his river. I was there talking to students about the value of 
our resources, about the value of our endangered species.
    Yes, Congressmen, it is all about water. It is about water 
that supplies not only development, not only power, not only 
recreation, but this is the lifeblood of the species that 
depend upon it.
    And, yes, we are looking at diminishing species. The Upper 
Basin in particular is putting millions of dollars into 
endangered species programs. The single most important thing we 
could do would be to develop more habitats for these endangered 
fish. If you develop the habitats, the fish and the birds will 
use them.
    The system, specifically the Colorado River system, is 
compromised. The heart of the Colorado River, Glen Canyon, has 
been drowned. It has been drowned for almost 35 years now.
    The proposal that the Glen Canyon Institute is putting 
forth is not developed by a group of bureaucrats. We are not 
being developed by corporations. None of us own river 
companies. We are just private people who are concerned about 
looking at the issues. What we do represent are people who are 
interested in the river, interested in the canyon, and 
interested in finding ways not only for this generation but for 
future generations to protect our rich natural heritage.
    We are people who believe in the resources. We are people 
who believe in the fish. We are people who speak for the birds. 
We also are asking through this environmental assessment, which 
we are not asking a dollar from Congress for, to allow us the 
freedom of free speech that several of the panelists have asked 
and talked about in the past to explore these issues.
    We believe that the United States is founded on a 
democratic process of asking questions, gathering data, and 
evaluating the information, and we want to do that 
successfully. And we invite anybody, anyone on the panels, any 
citizen, who wants to be involved to join us. Come on, let's 
talk about it; let's debate it.
    Yes, it is all about water. It is all about habitats. It is 
all about that area and that sense of place called Glen Canyon. 
And I wish to heck David Brower was here today, because he is 
much more eloquent at expressing those particular ideas.
    We need to--no, let me rephrase that. We must ask the 
question of what are we going to do with these dams for the 
future? Not only for us, but for the future generations, our 
kids, our grandkids, their grandkids? We are committed to the 
process. We are committed, most importantly, to the resources.
    We are not here today asking you for money. We are not here 
asking you for wisdom. We are not even asking you for 
validation. All we are asking is for the right to look at it, 
to look at it with a citizens' environmental assessment and to 
move forward with the issues for the future.
    Thank you.
    Mr. Hansen. Thank you.
    [The prepared statement of Mr. Wegner may be found at end 
of hearing.]
    Mr. Hansen. The gentleman from California, Mr. Doolittle.
    Mr. Doolittle. Mr. Wegner, it is my understanding the 
Sierra Club has called for the use of public funds in certain 
respects pertaining to the draining of Lake Powell. Do you 
concur with that request or do you disagree with it?
    Mr. Wegner. We are raising funds independently of the 
Sierra Club.
    Mr. Doolittle. Do you concur with their support for public 
funds or do you not?
    Mr. Wegner. We would like to get public funds if we could, 
but I am not--we are not depending upon them and that is why we 
have initiated on our private level.
    Mr. Doolittle. So do you support their suggestion that 
public funds should be used?
    Mr. Wegner. If you can get it, you bet.
    Mr. Doolittle. Mr. Hunter, has anyone actually calculated 
the cost to decommission a dam the size of Glen Canyon Dam?
    Mr. Hunter. Mr. Chairman, not that I am aware of. I would 
be happy to check, but I--to my knowledge, a decommissioning of 
that magnitude has never been seriously contemplated.
    Mr. Doolittle. Given that it is a relatively new dam, how 
much is the outstanding repayment on the dam?
    Mr. Hunter. Mr. Chairman, I am going to have to provide you 
with exact dollar figures because, as you know, the Colorado 
River Storage Project itself, of which Glen Canyon Dam is only 
one piece, is what the repayment is of.
    The total repayment of the entire project, and this would 
be far greater than the dam itself, is well over $1 billion.
    Mr. Doolittle. OK. Well, maybe you can supply the answer 
specifically for the record.
    Mr. Hunter. Certainly.
    [The information referred to may be found at end of 
hearing.]
    Mr. Doolittle. How do you--let me just ask you this: How do 
you think the debt would be handled if the dam were no longer 
producing power?
    Mr. Hunter. Congressman, as Acting Administrator Hacskaylo 
said this morning, I don't have an answer for that. 
Essentially, if you remove Glen Canyon Dam from the system, you 
are removing the facility that produces 75 percent of the 
revenues for the entire project, the entire Upper Colorado 
River Basin. If you simply lift that piece out of it, to me it 
is inconceivable that you would somehow place the remaining 
burden, which would still be over $1 billion, on the remainder 
of the project power facilities. It simply wouldn't work to try 
to market that power and repay it.
    By default, I would have to believe that that burden would 
fall on the taxpayers, most likely. I don't know who else would 
pay it.
    Mr. Doolittle. Thank you.
    Mr. Elliott, do you think that the summer conditions that 
would exist on the river in the Grand Canyon, without the Glen 
Canyon Dam, that you described in your testimony, would be 
appealing to many of your current rafting customers?
    Mr. Elliott. I don't think it would be either better or 
worse, but let me paint the following picture: Both pre-dam and 
post-dam, at Lee's Ferry, where we embark down the river, in 
the month of August, for example, we would have--the water 
temperature would be maybe 80 degrees. It would be perhaps 10 
percent mud and we would no longer have the ability to get 
clean. We would no longer have the ability to help keep our 
perishable foods cold for another 2 weeks down the river, et 
cetera.
    We happen to think right now that the condition that we 
have below the dam is a preferred condition both in terms of 
the richness of the biodiversity of specious, as well as the 
colder water, the cleaner water, as more suitable for rafting.
    Mr. Doolittle. You do get--when you get far enough down the 
river, even now you get into those muddy kinds of conditions; 
don't you?
    Mr. Elliott. We certainly do, from the inflow from the 
Paria River and also, especially this time of year, from the 
inflow from the Little Colorado River. But it is one thing to 
look out and have a muddy river; it is another thing to dip 
your arm into it and pull your arm back and have all of your 
hair follicles completely full of silt. That is an entirely 
different circumstance.
    Mr. Doolittle. Do you know, prior to the time the dam was 
built, how many people floated down that stretch of the river 
from, I guess from Lee's Ferry down?
    Mr. Elliott. It could be measured in terms of the hundreds 
as opposed to the tens of thousands. The critical year is about 
1968, 1969, where if you look at a curve of all of the use, it 
was about 1968 or 1969 where as many people went through the 
canyon--I think it was about 3,000 people in 1969--as had gone 
in all of history. That is when the use just skyrocketed, after 
1969.
    Mr. Doolittle. Thank you.
    Mr. Hansen. The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Let me begin by saying, Mr. Wegner, I certainly acknowledge 
your expertise in the field. I suppose in all the world you are 
one of the most renowned experts on the Grand Canyon.
    I would comment, based on your testimony, that thanks to 
the first amendment you don't have to ask us for permission to 
study this or to research it, and I hope you will research it 
thoroughly and debate it, and I wish you all the best in that.
    Mr. Wegner. Thank you.
    Mr. Shadegg. With regard to your comment about developing 
more habitat for native species, I encourage you in that effort 
as well. I think indeed we have lost some native species. That 
is indisputable.
    My concern is, how many species will we lose that are not 
native that are still productive and useful and have a great 
value if we go overboard in trying to restore habitat for 
native species? So I would urge you to, in looking for ways to 
restore habitat for native species, figure out a way not to 
drain Lake Powell.
    Mr. Elliott, I want to compliment you. I think your 
testimony is some of the most thoughtful we have here and I 
think, in terms of rafting the river, going down the river and 
taking people down the river, you probably have more expertise 
than any witness we have had today.
    In that regard, I want to walk you through a series of 
questions. I mentioned earlier today, and I put in the record, 
this National Geographic issue of July of this year. It has a 
discussion of this whole issue, and I want to focus in part on 
some comments about the Grand Canyon Trust, and you served on 
the board of the Grand Canyon Trust, but I also want to focus 
on this particular chart which is in the magazine.
    As I understand your testimony, it really is much along the 
lines of my opening remarks, which is that we don't have the 
option of going back; that we have what we have at this point 
in time and that the issue isn't, could we snap our fingers and 
have Lake Powell never have been constructed but rather what 
can we do now?
    I want to just ask you if you have seen this magazine?
    Mr. Elliott. No, I haven't.
    Mr. Shadegg. OK. Maybe I can get somebody to bring it to 
you.
    It shows, on the page that I have it open to, a very 
verdant and vibrant ecosystem in the river now, which in fact 
supports, albeit different but from what is shown there, more 
habitat, more wildlife, more plant life than prior to the dam. 
Is that your understanding of the facts?
    Mr. Elliott. That is my understanding of the facts. That is 
my understanding from talking with scientists, most recently a 
Larry Stevens in Flagstaff, for a couple of hours last week, 
who is a foremost biologist having studied the riparian habitat 
downstream from the dam. It is also my observations from just 
antidotally.
    Mr. Shadegg. I think the point made in your testimony is 
well taken and that is, you know, one can argue whether it is 
better or worse but in point of fact there is more animal and 
plant life and wildlife now than then, albeit different.
    To go to Mr. Wegner's point, it seems to me, if the 
question is, well, we want to restore the entire Grand Canyon 
to its, quote/unquote, natural state, if you then posit the 
only way to do that is to remove Glen Canyon Dam or the lake, 
it is hard to argue that point; isn't it?
    It is pretty hard to make the point that you can't restore 
it to its pre-lake condition without absolutely removing the 
dam or at least allowing the water to completely flow around 
it, correct?
    Mr. Elliott. Not in Glen Canyon. But are you speaking of 
Glen Canyon now or the Grand Canyon?
    Mr. Shadegg. I am sorry, the Grand Canyon.
    Mr. Elliott. OK.
    Mr. Shadegg. In the stretch below the dam, where we now 
have apparently a more verdant habitat, we could hardly restore 
that if we didn't do what the Lake Powell Institute advocates?
    Mr. Elliott. We get into a debate of whether--of kind of a 
values debate, is the natural condition preferred over the 
managed ecosystem that we have today?
    We could certainly attempt to restore the natural condition 
in the Grand Canyon by letting the sediments flow through.
    Mr. Shadegg. Good point.
    Mr. Elliott. And we could perhaps get to that condition. It 
may or may not bring back the endangered fish species, for 
example, but certainly the spring floods that would be allowed 
in a run-of-the-river scenario through the dam would again 
flood the banks, would wipe out a great deal of the vegetation 
which supports the enrichment of the species' diversity today.
    Mr. Shadegg. We could also try to raise the temperature 
perhaps by drawing water into the turbines at a higher level or 
something along that line; could we not?
    Mr. Elliott. We can do that.
    One of the factors that has caused the enrichment of the 
biodiversity is the clarity of the water. Light is allowed to 
penetrate through to the bottom of the river. It supports a 
plant called cladophera, which in turn supports a tiny little 
invertebrate, which in turn, supports the food chain right on 
up the ladder. There is a new abundance in waterfowl. In turn, 
the peregrine falcon feed on the waterfowl that represents 
about 80 percent of their diet, et cetera.
    So we have a--all starting with clear water and sunlight 
penetrating through to the bottom of the river, we have a much 
richer species diversity in that area now. If we return to the 
sediments, that could theoretically help the--could help the 
beaches, could help even some of the camping areas. But we 
would return to less--very likely I think we would return to a 
reduced biodiversity and species.
    Mr. Shadegg. If I could request 2 additional minutes? I 
will be brief.
    Mr. Hansen. The gentleman is recognized.
    Mr. Shadegg. I just want to make a couple more quick 
points. I know you are on the board of the Grand Canyon Trust 
which is concerned about the ecological health of the Grand 
Canyon.
    Your testimony raises in the most serious way the question 
of the heavy metals and contamination in the sediment on the 
bottom of the lake. I just want to point out that in this 
National Geographic article, Jeff Bernard, President at least 
at that time of the Grand Canyon Trust, says, draining Lake 
Powell could also be dan-

gerous. I quote, I think it is important to stake out a vision 
of a free flowing Colorado River but there are many problems 
right now.
    He does, in fact, go on to address the sediment and the 
heavy metals and contaminants in that sediment.
    To your knowledge--I know the Grand Canyon Trust has not 
taken a position on this issue. To your knowledge, has the 
Grand Canyon Trust studied the issue of airborne contaminants 
were we to drain the lake?
    Mr. Elliott. No, they have not. And the--this whole issue 
has not been debated at the board level. And it is correct, I 
sit on the board of trustees of the Grand Canyon Trust. They 
have begun the evaluation in staff discussions to look at it, 
and I think it is safe to say in terms of the Grand Canyon 
Trust that they believe very strongly in the science and they 
would want to look at any scientific evidence that would 
support the viability of this proposal. They do not have a 
position at this time.
    Mr. Shadegg. I certainly am not a scientist or an expert, 
and I don't know the answer but I do know that what little 
research--what research we have been able to do in the short 
time for preparing for this hearing gives us concern which I 
have adverted to having to do with experience of Owens Lake and 
the dust which rises off of it.
    Poor Mr. Wegner is dying to make a comment. I hope you will 
look at this issue, but let me afford you to make that comment 
briefly.
    Mr. Wegner. Well, we have, and that whole issue with the 
sediments is extremely important because we realize the high 
concentrations of mercury and selenium and a whole bunch of 
other heavy metals suites that are there. The issue here is--
and specifically would be dealt with in the EA--is that as you 
would draw down the lake, you would start to mobilize those 
sediments and move them slowly downstream in the manner that 
the ecosystem could deal with.
    We do not and will not propose to leave a whole expanse of 
drying out sediments there that would become airborne. I am 
very familiar with Owens Lake and all the issues in Kesterson.
    Mr. Shadegg. Let me just conclude by turning to Mr. Hunter. 
This whole issue of conservation, I personally believe that 
conservation is a little bit like the Congress saying we are 
going to save money. We talk about saving money through waste 
reduction and we never quite do it. It seems to me that if we 
can do conservation, we ought to be doing the conservation to 
avoid building future coal-fired or other power plants.
    But I want to make the point about peaking. It seems to me 
that hydropower is uniquely suited to peaking. Peaking means 
that we use power at different levels at different times of the 
day; is that right?
    Mr. Hunter. That is correct.
    Mr. Shadegg. So if you were to conserve peaking power, what 
you really have to do is say to the people of Phoenix or Yuma 
or Los Angeles or San Diego, we have this idea; we are going to 
save peaking power, which means that during the 30 hottest days 
of the summer, when we need that peaking power, since we no 
longer have it, we don't want you to run your air conditioning 
from 4 p.m. to, say, 7 p.m., the hottest hours of the day. 
Pretty realistic?
    Mr. Hunter. You are absolutely correct. The only way to 
conserve peaking load would be to dramatically change behavior.
    Mr. Shadegg. I don't know how we are going to get the earth 
to make it not hotter between 4 p.m. and 7 p.m. than it is, 
say, between 4 a.m. and 7 a.m.
    Mr. Chairman, I have nothing further.
    Mr. Hansen. Thank you, Mr. Shadegg.
    It has been a very interesting hearing. I appreciate the 
patience of all of you.
    Mr. Werbach, you know, if I was head of the Sierra Club, I 
think I would find a dam that didn't have so much multiple use 
to it. You have heard all of the things that this dam has.
    Have you ever thought of Hetch Hetchy in Yosemite? Now, I 
could probably go along with that one. I think that probably 
has some real clout to it.
    Of course, you would have 52 Members of the House and 2 
from the Senate and the administration, because they are very 
interested in the political votes there as we saw on something 
called the Air Logistic Center of McClellan where they violated 
the law, but Hetch Hetchy, in my mind, would probably be a--I 
mean, right there in the beautiful Yosemite National Park. I 
say that somewhat tongue in check, but I still think it was one 
that the Sierra Club ought to give peripheral thought about. 
You may find one of great interest there.
    You know what, the proposal you have brought up is so 
critical to the entire southwest part of America, I mean, you 
have got the Upper and Lower Basin States, this is of utmost 
importance, and I think we could all see it here today, how it 
would affect so many, many, literally millions and millions, of 
people. So we would hope that you would look at it in a very 
critical way and be very careful on what you propose.
    Of course, I don't give you folks instructions. You are 
perfectly capable of doing that, and you have a perfect right 
to come up with any proposal you have a bent to do.
    I noticed that you were on the South Rim of the Grand 
Canyon in September 1996 when President Clinton made 1.7 
million acres of Utah a monument.
    You know, I don't mean to differ with you but respectfully 
point out that if I have ever seen anybody shoot themselves in 
the foot, the environmentalists did it at that point, as we 
have researched that exhaustively. You used the 1916 antiquity 
law and therefore extinguished wilderness that would come under 
NEPA, come under the 1964 Wilderness Act, the FLIPMA act, and 
now it is wide open. And people are coming in there by the 
hundreds and they are colloquially referring to it now as 
``toilet paper city.'' You know, if the President had worked 
with us on that we could have put in Fifty Mile Ridge and a few 
other areas and come up with a good piece of legislation.
    And when you were there, I noticed that you spent some time 
with--not that I would want to tell you what you did, but some 
time with Vice President Gore and President Clinton. Are they--
do they have any interest in this proposal to drain Lake Powell 
or was that something not considered?
    Mr. Werbach. We have not raised it with the administration.
    Mr. Hansen. I see. I would be curious to know where they 
are coming from.
    Well, not to elaborate on things such as that, we will 
thank the witnesses. And, Mr. Werbach, we appreciate your 
patience for coming here and thank you for sitting through 
three panels. That is very kind of you.
    And this hearing is now adjourned.
    [Whereupon, at 2:10 p.m., the Subcommittees were 
adjourned.]
    [Additional material submitted for the record follows.]
Statement of Hon. Orrin G. Hatch, a Senator in Congresss from the State 
                                of Utah

    Mr. Chairman, I appreciate the opportunity to submit my 
views to your Subcommittee on the recent proposal to drain Lake 
Powell and to decommission the Glen Canyon Dam.
    Frankly, Mr. Chairman, in all honesty, this proposal would 
wreak havoc--environmental as well as economic--in the region. 
Even if we excluded from the argument the needs of people in 
the region, such as water, energy, and recreation, it would 
still be a terrible idea, based solely on the harm it would 
cause to the environment.
    Whatever the ostensible benefits to the environment that 
could come from draining Lake Powell, they would surely be 
overpowered by the greater harm this proposal would cause. As 
it is currently managed, Mr. Chairman, this is one of the 
world's finest recreation and wildlife areas. As an ecosystem, 
the canyon has vastly improved since the days before the dam.
    We all know the reasons the Glen Canyon Dam was proposed 
and built. As you know, Mr. Chairman, Utah is the second driest 
state in the Union; during dry years, there is simply not 
enough water in the Colorado River to meet our water needs and 
the needs of the other Colorado River Basin states.
    By building the Glen Canyon Dam, we not only secured the 
necessary water during dry periods for all the basin states, 
but we created a world-class recreation area and an 
inexpensive, renewable, and clean source of energy. Revenue 
from the energy production pays back the cost of building the 
dam with interest and has helped to provide infrastructure to 
provide electricity to rural areas. There is no doubt, Mr. 
Chairman, that building the Glen Canyon Dam has made an impact 
on the lower Colorado River and on the riparian area within the 
Grand Canyon. But it is important to understand the delicate 
balance that is found in the Grand Canyon today, and how 
today's balance compares to the predam condition of the area.
    Before the dam was built, the Colorado River would send 
gigantic torrents of water through the canyons in the spring. 
The high flows would leave the area devoid of vegetation and 
create immense beaches in its wake. In the winter months, the 
river would subside to a tiny flow. Because the beaches were 
reformed and redeposited each year, very little wildlife lived 
in the canyons before the dam. Even if the wildlife could have 
survived the floods, the lack of vegetation made it difficult 
to exist. Before the dam, the water was even siltier than 
today. The excess silt blocked out the sun, so that underwater 
vegetation was scarce, if it existed at all. Food was hard to 
come by for underwater life in the predam era.
    When the dam was built, new ecological benefits arose. The 
clearer water allowed for underwater vegetation to thrive below 
the dam and in shallow areas. This vegetation now breaks off, 
feeding underwater life for hundreds of miles. This has helped 
to create a world-class trout fishery in the river. In 
addition, the beaches have begun producing rich and diverse 
vegetation. This has attracted many species of wildlife that 
had previously not existed. The increase in trout and 
vegetation has attracted bald eagles, herons, ducks, and many 
other species of birds--some of which are endangered. In fact, 
the postdam lower Colorado River now hosts more peregrine 
falcons than anywhere else in the lower forty-eight states. 
This would not be possible without the stability and vegetation 
the dam provides for the area. Besides birds and fish, the dam 
has made the area a favorite of bighorn sheep and other big 
game.
    During the early years of the dam, the water level of the 
Colorado would go up and down as society's energy needs peaked 
and fell throughout the day. The steady rise and fall of the 
river slowly ate away at the beaches. This was problematic on a 
number of counts. As the beaches shrunk there were fewer back 
eddies which provided calm shallow areas. These mini marshes 
were critical to the new insect and amphibious life that had 
come since the dam was built. The back shallow back eddies were 
also important spawning grounds for the endangered humpback 
chub. The fluctuating flows also became the bane of boaters, 
who would find their camps occasionally flooded or their boats 
stranded on dry land as the water receded.
    Most criticisms of the dam revolve around the fluctuating 
flows. Yet, this problem has already been fixed. In 1982, the 
Departmnet of the Interior instituted controls that keep the 
wide variability out of the flows from the dam. Boaters are no 
longer stranded, and the erosion of the beaches has been kept 
to a minimum. Controlled flooding has also been instituted 
which periodically builds the beaches back up.
    However, if the river were restored to its predam state 
much would be lost for the environment and for the boaters who 
float down the Grand Canyon. In addition, fewer people could 
enjoy the experience because the boating season would be cut 
back sharply due to the low winter flows and the unnavigable 
spring flows.
    Needless to say without the dam we would lose Lake Powell. 
I consider Lake Powell to be a national treasure. I think any 
member of this Committee would be hard-pressed to find 2,000 
miles of shoreline that are more beautiful. As the second 
largest man-made lake in the United States, it attracts over 2 
million recreationists every year. Mr. Chairman, Lake Powell is 
as important to Utahns as the Atlantic beaches are to 
easterners as a therapeutic getaway. I haven't heard anyone 
suggest closing the Chesapeake Bay Bridge to improve the 
environment on the Delmarva peninsula. Yet, that idea would be 
analogous to draining Lake Powell and, of course, equally as 
ridiculous.
    Again, Mr. Chairman, thank you for this opportunity to 
express my views on this issue.

[GRAPHIC] [TIFF OMITTED] T5584.001

[GRAPHIC] [TIFF OMITTED] T5584.002

[GRAPHIC] [TIFF OMITTED] T5584.003

[GRAPHIC] [TIFF OMITTED] T5584.004

[GRAPHIC] [TIFF OMITTED] T5584.005

[GRAPHIC] [TIFF OMITTED] T5584.006

[GRAPHIC] [TIFF OMITTED] T5584.007

[GRAPHIC] [TIFF OMITTED] T5584.008

[GRAPHIC] [TIFF OMITTED] T5584.009

[GRAPHIC] [TIFF OMITTED] T5584.010

[GRAPHIC] [TIFF OMITTED] T5584.011

[GRAPHIC] [TIFF OMITTED] T5584.012

[GRAPHIC] [TIFF OMITTED] T5584.013

[GRAPHIC] [TIFF OMITTED] T5584.014

[GRAPHIC] [TIFF OMITTED] T5584.015

[GRAPHIC] [TIFF OMITTED] T5584.016

[GRAPHIC] [TIFF OMITTED] T5584.017

[GRAPHIC] [TIFF OMITTED] T5584.018

[GRAPHIC] [TIFF OMITTED] T5584.019

[GRAPHIC] [TIFF OMITTED] T5584.020

[GRAPHIC] [TIFF OMITTED] T5584.021

[GRAPHIC] [TIFF OMITTED] T5584.022

[GRAPHIC] [TIFF OMITTED] T5584.023

[GRAPHIC] [TIFF OMITTED] T5584.024

[GRAPHIC] [TIFF OMITTED] T5584.025

[GRAPHIC] [TIFF OMITTED] T5584.026

[GRAPHIC] [TIFF OMITTED] T5584.027

[GRAPHIC] [TIFF OMITTED] T5584.028

[GRAPHIC] [TIFF OMITTED] T5584.029

[GRAPHIC] [TIFF OMITTED] T5584.030

[GRAPHIC] [TIFF OMITTED] T5584.031

[GRAPHIC] [TIFF OMITTED] T5584.032

[GRAPHIC] [TIFF OMITTED] T5584.033

[GRAPHIC] [TIFF OMITTED] T5584.034

[GRAPHIC] [TIFF OMITTED] T5584.035

[GRAPHIC] [TIFF OMITTED] T5584.036

[GRAPHIC] [TIFF OMITTED] T5584.037

[GRAPHIC] [TIFF OMITTED] T5584.038

[GRAPHIC] [TIFF OMITTED] T5584.039

[GRAPHIC] [TIFF OMITTED] T5584.040

[GRAPHIC] [TIFF OMITTED] T5584.041

[GRAPHIC] [TIFF OMITTED] T5584.042

[GRAPHIC] [TIFF OMITTED] T5584.043

[GRAPHIC] [TIFF OMITTED] T5584.044

[GRAPHIC] [TIFF OMITTED] T5584.045

[GRAPHIC] [TIFF OMITTED] T5584.046

[GRAPHIC] [TIFF OMITTED] T5584.047

[GRAPHIC] [TIFF OMITTED] T5584.048

[GRAPHIC] [TIFF OMITTED] T5584.049

[GRAPHIC] [TIFF OMITTED] T5584.050

[GRAPHIC] [TIFF OMITTED] T5584.051

[GRAPHIC] [TIFF OMITTED] T5584.052

[GRAPHIC] [TIFF OMITTED] T5584.053

[GRAPHIC] [TIFF OMITTED] T5584.054

[GRAPHIC] [TIFF OMITTED] T5584.055

[GRAPHIC] [TIFF OMITTED] T5584.056

[GRAPHIC] [TIFF OMITTED] T5584.057

[GRAPHIC] [TIFF OMITTED] T5584.058


</pre></body></html>
